<html>
<title> - ECONOMIC OPPORTUNITY AND TRANSITION LEGISLATION</title>
<body><pre>[Senate Hearing 112-567]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-567

            ECONOMIC OPPORTUNITY AND TRANSITION LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2012

                               __________

       Printed for the use of the Committee on Veterans' Affairs








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-810 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director













                            C O N T E N T S

                              ----------                              

                             June 13, 2012
                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
    Prepared statement...........................................     3
Webb, Hon. Jim, U.S. Senator from Virginia.......................     6
Boozman, Hon. John, U.S. Senator from Arkansas...................     8
Johanns, Hon. Mike, U.S. Senator from Nebraska...................    15
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    19
Begich, Hon. Mark, U.S. Senator from Alaska......................    46
Brown, Hon. Scott P., U.S. Senator from Massachusetts............    49

                               WITNESSES

Lautenberg, Hon. Frank R., U.S. Senator from New Jersey..........     5
Udall, Hon. Tom, U.S. Senator from New Mexico....................     9
    Memorandums..................................................    10
Nelson, Hon. Bill, U.S. Senator from Florida.....................    12
    Prepared statement...........................................    12
Reed, Hon. Jack, U.S. Senator from Rhode Island..................    14
Merkley, Hon. Jeff, U.S. Senator from Oregon.....................    16
Pryor, Hon. Mark, U.S. Senator from Arkansas.....................    17
Coy, Curtis L., Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs; accompanied by Robert M. Worley II, Director, 
  Education Service; Ruth A. Fanning, Director, Vocational 
  Rehabilitation and Employment Service; John Brizzi, Assistant 
  General Counsel................................................    20
    Prepared statement...........................................    22
    Posthearing written views for the record submitted by VA.....    38
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................    38
      Hon. Richard Burr..........................................    41
      Hon. Scott P. Brown........................................    44
    Response to request arising during the hearing by Hon. 
      Richard Burr...............................................    51
Tarantino, Tom, Deputy Policy Director, Iraq and Afghanistan 
  Veterans of America............................................    55
    Prepared statement...........................................    57
Meijer, Peter, Member, Board of Directors, Student Veterans of 
  America........................................................    60
    Prepared statement...........................................    62
Norton, COL Robert F., USA (Ret.), Deputy Director, Government 
  Relations, Military Officers Association of America............    64
    Prepared statement...........................................    65

                                APPENDIX

U.S. Department of Defense; prepared statement...................    75
Babel, Thomas, Vice President, Regulatory Affairs, DeVry Inc.; 
  prepared statement.............................................    77
Baechtold, Margaret, Legislative Director, National Association 
  of Veterans Program Administrators; prepared statement.........    80
Bellon, Patrick, MPA, Executive Director, and Christopher Miller, 
  LLB (HONS), Veterans for Common Sense; prepared statement......    82
Dreyfus, Mark, President, ECPI University; prepared statement....    83
Fineberg, Harvey V., M.D., Ph.D., President, Institute of 
  Medicine, The National Academies; prepared statement...........    84
Gallucci, Ryan M., Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States; prepared 
  statement......................................................    86
Lerner, Carolyn N., Special Counsel, U.S. Office of Special 
  Counsel; prepared statement....................................    89
Lewis, S. Kay, Assistant Vice President for Student Life, 
  Director of Financial Aid and Scholarships, University of 
  Washington; prepared statement.................................    89
Ortiz, Ismael, Deputy Assistant Secretary, Veterans' Employment 
  and Training Service, U.S. Department of Labor; prepared 
  statement......................................................    91
Paralyzed Veterans of America; prepared statement................    95
Perez, Thomas E., Assistant Attorney General, Civil Rights 
  Division, U.S. Department of Justice; prepared statement.......    98

 
            ECONOMIC OPPORTUNITY AND TRANSITION LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 13, 2012

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Webb, Begich, Burr, Isakson, 
Johanns, Brown of Massachusetts, and Boozman.

           STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning and welcome to today's 
hearing to examine economic opportunity and transition 
legislation that is pending before this Committee. We do have a 
very ambitious agenda that reflects the hard work of members on 
both sides of the aisle.
    There are many critical bills on our agenda today, but I 
want to speak personally about two of the items that I really 
believe capture the challenges we are working to address, 
including the need to make sure our veterans have every 
opportunity to jump start their careers when they return home 
from service.
    The first piece of legislation is the GI Bill Consumer 
Awareness Act of 2012. As we all know, with the end of the war 
in Iraq and the draw-down in Afghanistan, more servicemembers 
are separating from the military and coming home to a very 
difficult job market that demands skilled employees.
    Very often, the first step veterans take when they do come 
home is to utilize the revamped educational benefit that we 
have provided them. From 4-year colleges to apprentice 
programs, veterans are using benefits like the G.I. Bill to 
build and translate their military skills and leadership 
ability with the additional expertise they need to prosper in 
the civilian workforce.
    In fact, this year alone, over 590,000 servicemembers, 
veterans, and other beneficiaries are expected to enroll in 
educational institutions using the post-9/11 GI Bill. As a 
result, VA is expected to spend over $9 billion in 2012 on 
post-9/11 GI Bill payments and over $2 billion for the nearly 
400,000 beneficiaries of VA's other education programs.
    Given this commitment, we owe it to every single veteran to 
ensure they are getting the full potential of this lucrative 
and potentially life-changing benefit. But what I hear from 
veterans is that too often this is not the case. Veterans have 
repeatedly told me they lack the proper information they need 
to determine what educational institution to attend, or even 
sometimes feel that they are being taken for a ride by 
institutions with lousy records of helping our veterans build a 
foundation for career success.
    So I have introduced the GI Bill Consumer Awareness Act of 
2012. It is a bill that is designed to make sure our 
servicemembers and veterans have the facts they need to make 
informed decisions about the schools that they attend. It is a 
bill that calls for educational institutions to disclose, among 
other data, statistics related to student loan debt, 
transferability of credits, veteran enrollment, program 
preparation for licensing and certification, and job placement 
rates.
    So basically, veterans can comparison shop with the data 
they need. They will have a report card that shows whether 
schools are making the grade. The bill also addresses concerns 
about organizations that mislead our servicemembers and 
veterans just to boost enrollment of students that are paying 
using the generous benefits taxpayers have provided.
    It does this by requiring the VA and DOD to develop a joint 
policy to curb aggressive recruiting and misleading marketing 
aimed at servicemembers and veterans. Providing accessible and 
effective educational benefits to our veterans is vital, as so 
many veterans transition now out of the military and into the 
years ahead.
    So I am pleased that in addition to this bill, there are 
several other education bills on today's agenda, and I look 
forward to working with the sponsors of all of these bills to 
make sure we are giving veterans every resource to succeed in 
the classroom and in the job market.
    The second bill I want to mention is the Service Members 
Rights Enforcement Improvement Act of 2012. This is a bill I 
really wish was not necessary, but it is truly one that 
circumstances today demand. It builds on current protections 
put in place to help shield our Nation's heroes from 
unemployment and foreclosure.
    These protections have been violated in a disturbing number 
of cases within the past several years. This bill will 
strengthen the ability of the Department of Justice and Office 
of Special Counsel to investigate and enforce the employment 
protections of USERRA, which are so important to our members of 
the National Guard and Reserve, and improve the protections of 
the Service Members Civil Relief Act as well as how they are 
enforced.
    I introduced this bill because we as a nation owe it to the 
men and women, who serve with dignity, a guarantee that the 
protections that have been put in place to ease their burden 
will be enforced when they come home. This legislation will 
make sure the departments charged with enforcing these valuable 
protections have the tools they need to get the job done.
    I also look forward to discussing other proposals to 
strengthen the protections of the Service Members Civil Relief 
Act. This Committee will continue to work to ensure our men and 
women in uniform have the best package of protections possible.
    Now, we have seen a lot of success this Congress with the 
legislation we have been able to advance on behalf of veterans. 
The VOW to Hire Heroes Act is a great example, and I am pleased 
we are already seeing many benefits of that bill. We have other 
bills that have been reported out of this Committee that we are 
working with the House to move forward.
    The legislation would provide many improvements for 
veterans health care and benefits, including the health care 
that former residents of Camp Lejeune so desperately need. But 
we do not want to harm other veterans as we find a way to pay 
for that legislation, and I thank Senator Burr for his 
leadership on this effort. I am hopeful that we can move 
forward with a package soon.
    During the last year, this Committee has been very focused 
on improving and expanding upon employment and training 
programs for veterans. I am pleased today we have the 
opportunity to discuss Senator Nelson's bill, which would 
create a Veterans Job Corps. I am eager for a productive 
discussion about this bill and all of the many items on this 
agenda, and I look forward to hearing from our witnesses. I 
want to thank all of you for joining us today and for your 
testimony, which we will hear shortly.
    With that, let me turn it over to Senator Burr for his 
opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Chairman, I would like to thank you for 
holding this hearing on some rather important legislation. I am 
not going to give my opening statement. I am going to ask 
unanimous consent that it be included in the record so that we 
can get to our colleagues who are patiently waiting.
    Chairman Murray. Without objection.
    Senator Burr. Let me just say, as it relates to Camp 
Lejeune, we have got Marines and families that have waited over 
three decades to receive the health care benefits they deserve 
and that we owe them. To suggest that there might be a 
compromise that delays further by a year before we start, or 6 
months, or due in part and not in full is, frankly, 
unacceptable and is a disgrace.
    So I will continue to lobby that we extend this benefit. 
The VA ought to step up and assume the responsibility or the 
Department of Defense. It does not matter to me. But America 
owes it to these veterans and to their families that were 
affected by contaminated water, and until we have got this 
resolved, then this is going to be the single-most important 
thing, I think, that this Committee should act on, and I will 
insist on it. I look forward to the witnesses today. Thank you, 
Madam Chairman.
    [The prepared statement of Senator Burr follows:]
       Prepared Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina
    Good morning, Chairman Murray. And welcome to our witnesses--I 
appreciate you being here to share your views about the bills on 
today's agenda.
    As we consider the merits of these bills, a good starting point is 
to look at how well existing programs are working and identify any gaps 
or inefficiencies. That should help us focus on changes that are truly 
needed and avoid causing any duplication or overlap that can actually 
increase frustrations for veterans and their families. Also, with the 
fiscal challenges facing our Nation, it's important to understand how 
much these bills would cost and, for any that will move forward, we 
must find ways to pay for them.
    As for the bills on the agenda, there is one I would like to 
briefly mention--S. 3210, which Senator Scott Brown and I introduced. 
Basically, it would allow the surviving spouse of a veteran who had 
service-connected disabilities to keep the veteran's business as a 
``veteran-owned small business'' for at least 3 years, so the business 
would still be eligible for certain contracting preferences. This 
should give surviving spouses sufficient time to plan for the future of 
their family-owned businesses after losing their loved ones.
    Looking ahead, I expect that several bills I introduced will be on 
the hearing agenda in two weeks, and I want to briefly discuss that 
legislation. To start with, S. 1707 would ensure that VA beneficiaries 
will not lose their rights to own firearms solely because VA finds they 
are unable to manage their financial affairs. Before their Second 
Amendment rights could be taken away, there would need to be a finding 
by a judicial authority that an individual is dangerous--something that 
actually bears on whether an individual should have access to firearms.
    Another bill, S. 2045, would require judges of the Court of Appeals 
for Veterans Claims to live within 50 miles of the Court's office--a 
requirement that already applies to other Federal judges. This should 
increase the efficiency and effectiveness of the Court, by encouraging 
the judges to be present and personally engaged on a daily basis. It 
would also emphasize that judges must be totally committed to the 
Court's important work.
    Also, S. 3084 would reform VA's Veterans Integrated Service 
Networks--or VISNs. In 1995, the veterans health care system was 
divided into 22 geographic areas--now 21 VISNs--and each region had its 
own headquarters with a limited management structure to support the 
medical facilities in that region. Since then, there has been a huge 
growth in staff at the VISN headquarters and increasing duplication in 
the duties they carry out.
    So, this bill would consolidate the boundaries of nine VISNs, move 
some oversight functions out of the VISN headquarters, and limit the 
number of employees at each VISN headquarters. All of this should make 
these networks more efficient and allow resources to be reallocated to 
direct patient care.
    Finally, Senator Wyden and I introduced S. 3270, which would create 
a ``look-back'' period, so VA can consider whether a pension applicant 
transferred away assets before seeking those need-based benefits. A GAO 
investigation--that Chairman Murray and I requested--shed light on an 
entire industry aimed at convincing veterans to move assets in order to 
qualify for these benefits. This practice can leave elderly veterans 
without adequate resources in their greatest time of need. So, the bill 
aims to strengthen VA's pension program, while discouraging companies 
from preying on elderly veterans.
    Madam Chairman, all of these bills would provide common-sense 
solutions to real issues and I am glad the Committee will have the 
opportunity to discuss them at our next hearing. Now, before I turn it 
back over to you, I do want to address some of the Committee's 
unfinished business from our last legislative hearing a year ago. What 
I think is particularly important to mention is the Caring for Camp 
Lejeune Veterans Act.
    That bill would provide health care for veterans and their families 
who were stationed at Camp Lejeune when the water was contaminated with 
known or probable human carcinogens. Unaware of any danger, veterans 
and their families drank, bathed in, and cooked with the contaminated 
water.
    In the decades after the contaminated wells were shut down, 
veterans and their families have died or become seriously ill from 
devastating diseases, such as leukemia, breast cancer, and kidney 
cancer. It is long past time for the government to step up and provide 
the health care that these veterans and their families need. Some have 
waited nearly thirty years for help and they cannot--and should not--
wait any longer.
    I realize that finding ways to pay for this and other worthwhile 
bills may require difficult choices, in order to focus limited 
resources where the needs are most urgent. But, with veterans and their 
families who were exposed to the contamination at Lejeune continuing to 
suffer and even die, I hope we can come together soon to find 
solutions.
    Madam Chairman, I look forward to discussing the bills on today's 
agenda and to another productive hearing in two weeks. More 
importantly, I look forward to working with you and our colleagues to 
make real progress on behalf of veterans, their families, and their 
survivors.

    I thank the Chair and again thank our witnesses.

    Chairman Murray. Thank you very much. Committee Member, 
Senator Webb, has arrived. Do you want to let Senator 
Lautenberg go first, or are you ready?
    Senator Webb. By all means.
    Chairman Murray. Why do I not go to Senator Lautenberg for 
his testimony, then we will return to you, Senator Webb. 
Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman and 
Senator Burr. Senator Webb, I assume that extending me this 
courtesy has nothing to do with age, but rather with the bill.
    Senator Webb. Another gesture of appreciation for all the 
help you gave us on the GI Bill, Senator Lautenberg, and for 
your service during World War II.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much. Thank you for 
inviting me to appear before your Committee to discuss the GI 
Educational Freedom Act, which I introduced in March with 
Senator Rubio. As a GI Bill recipient, it is an honor for me to 
be here to talk about an issue that is so close to my heart.
    Serving in the Army was one of the most significant 
episodes in my life. I was 18 years old when I enlisted to join 
more than 16 million other men and women who were serving 
during World War II. My life had been like so many other 
American families of those times, struggling to get along, 
trying to keep families together, poor. We struggled with my 
dearly beloved father who was very sick at the time with 
cancer. He died when he was 43 leaving my mother a 37-year-old 
widow.
    Thankfully, with service overseas, a chance to serve my 
country, came the opportunity of a lifetime chance to start my 
career. When I returned home from my military service, I was 22 
years old and there was no way at all that I could go to 
college. The GI Bill enabled me to go to Columbia University, 
where I received a world-class education that otherwise would 
never have existed.
    That education paved the way for me to realize the American 
dream. I joined with two other friends in starting a business 
that had $5,000 worth of capital that grew steadily and now 
provides the labor statistics that we get weekly, ADP. The 
company employs over 50,000 employees worldwide. And that 
success was really so meaningful in giving me a chance to give 
something back to my country by becoming a U.S. Senator.
    As a Senator, I have never forgotten what mattered all 
those years, that my country was willing to invest in me when I 
returned home from my military service. In recent years, I was 
proud to work with Senator Webb and former Senators Chuck Hagel 
and John Warner to create a new GI Bill for the 21st century. 
And the new GI Bill is making a real difference for thousands 
of veterans and their families each and every year.
    As our veterans return home from the war, we have got to 
work to make sure that this important benefit is protected for 
years to come, and thanks to Senator Webb's leadership, there 
is a component added to that GI Bill that did not exist 
originally, and that is the ability to transfer that privilege 
of going to college to a family member if the individual who 
served is not going to use it.
    That is why I am so outraged to hear some of the actions of 
the bad actors in the education community. Taking advantage of 
our heroes by using misleading advertising, they rope veterans 
and their GI Bill benefits into an education that does not 
adequately prepare them for employment.
    You, Madam Chairman, have talked about that very subject, 
that there is counseling or a guidance that ought to be 
included, and the VA offers counseling services to help 
veterans navigate the educational process, but the services are 
only available to veterans who specifically make their own 
request for educational counseling.
    One thing is clear: the VA's current approach is not 
sufficient. Last year, out of hundreds of thousands of veterans 
receiving VA educational assistance, fewer than 6,500 
beneficiaries requested this counseling.
    That is why we introduced the GI Bill Educational Freedom 
Act, along with Senator Mark Rubio and four other Senator 
colleagues from both sides of the aisle, and this bill would 
make sure that the VA offers every veteran an opportunity to 
evaluate where it is they can go to regain their lives and make 
progress and to get all of the information that they need to 
make informed educational choices.
    It is supported by the Military Officers Association of 
America, the Veterans of Foreign Wars, the Iraq and Afghanistan 
Veterans of America, and Congress has got to take action. They 
have to do it now. We have got to follow through on the promise 
of the GI Bill and ensure our veterans that they are going to 
be able to succeed getting their education.
    Today's veterans have made tremendous sacrifices for our 
country, and they deserve a quality education in gratitude for 
their services. I hope that my colleagues will support this 
commonsense bipartisan bill. I thank you again, Madam Chairman, 
for conducting this hearing.
    Chairman Murray. Thank you very much, Senator Lautenberg.
    We have a number of Senators that are here today to speak 
to their legislation. Before I turn to the rest of them, I want 
to give Senator Webb his opportunity to make an opening 
statement.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you very much, Madam Chair, and I 
appreciate all of the interest that is clearly shown by Members 
of our body in terms of making the GI Bill that we were able to 
pass a few years ago, which is the finest GI Bill in the 
history of our country, more in tune with fiscal responsibility 
and the needs of our veterans.
    I have an amendment that will be considered also today, a 
bill, S. 2179, that we worked with Committee staff on very hard 
and also with other Members. It has got the sponsorship of 15 
Senators and the support of 13 veterans groups. It is right 
along the lines of what Senator Lautenberg was talking about 
with the veterans groups themselves understanding what we need 
to do in order to make sure that this program retains its 
viability.
    This year marks the second anniversary of the 
implementation of the post-9/11 GI Bill. I introduced this bill 
my first day in office after having spent a good bit of time 
not only in the Marine Corps, but also serving as a Committee 
Counsel in the House Veterans' Committee many years ago looking 
at the inadequacies, quite frankly, the inadequacies of the 
Vietnam-era GI Bill and starting with the simple concept that 
for those who have served since 9/11, the same quality benefits 
that were given to those who served during World War II should 
have been the standard.
    Particularly with the help of a lot of people in the 
Senate, but particularly with Senator Lautenberg, Senator John 
Warner, Senator Chuck Hagel, two Republicans, two Democrats, 
two World War II veterans, two Vietnam veterans, we were able 
to move this bill through the Senate and through the House in 
sort of a record 16 months in order to get this program out for 
those who have been serving. I am very proud of this.
    Since May 20, 2009, more than 1.2 million individuals have 
applied for this benefit. The VA has paid $18 billion to nearly 
720,000 beneficiaries of the program. At the same time, there 
have been growing concerns about abuses by some educational 
institutions that might put the integrity of this program at 
risk.
    This is not the first time we have faced this situation. 
Actually, when I was a Committee Counsel many years ago, that 
was the reason it was given to me, that they went to a 
different format for the Vietnam-era GI Bill that thousands of 
for-profit vocational schools had quickly appeared and had led 
to follow-on restrictions of the program.
    We want to keep the basis of this program. At the same 
time, recent data show that eight out of the top ten 
recipients--institutional recipients of the post-9/11 GI Bill 
benefits--are for-profit institutions. The growth in this 
sector has been tremendous in the past couple of years. Between 
1998 and 2008, for-profit schools grew by a measure of 225 
percent.
    In 2009, the 15 publicly-traded for-profit educational 
companies spent $3.7 billion on marketing. A disproportionate 
share of this money is going to marketing and recruiting 
veterans into poorly performing for-profit schools. I want to 
emphasize that the problem is not the for-profit sector, per 
se. There are many for-profit institutions that are providing 
great services, particularly to non-traditional students.
    But with the huge amount of Federal dollars being spent in 
this sector, we owe it to our veterans to carefully monitor and 
to provide adequate oversight so that we have a standardization 
among the institutions who are receiving Federal monies in 
order to educate our veterans.
    That is why I introduced this bill. It takes a simple 
approach to ensure a minimum standard of quality by requiring 
that all institutions receiving funding from post-9/11 GI Bill 
and tuition assistance be Title IV eligible.
    It is a simple standard. In other words, if schools or 
programs want to remain eligible to receive GI Bill or military 
tuition assistance funds, they must meet the same standards 
that we already require schools to meet if they are going to 
receive other types of Federal funds such as Pell grants.
    Beyond requiring Title IV eligibility, the bill makes 
certain other improvements to increase the transparency of the 
program, provide additional counseling services to 
transitioning servicemembers, and strengthen the 
responsibilities of the State approving agencies, the VA, and 
the DOD.
    As I mentioned, we have broad support and endorsement from 
many other Senators and also from more than a dozen veterans 
organizations. It is a comprehensive, commonsense piece of 
legislation, and I am confident we can put this together on a 
bipartisan basis in order to save the integrity and the value 
of the best GI Bill that our country has ever seen. Thank you, 
Madam Chair.
    Chairman Murray. Thank you very much, Senator Webb.
    Senator Lautenberg. May I be excused, Madam Chairman?
    Chairman Murray. Absolutely. I want to thank Senator 
Lautenberg and Senator Webb for their interest in this. We are 
going to be doing significant work in the GI Bill arena, and we 
will be working with both of you as we put that together. So 
thank you very much for your work on that.
    We have four Senators who have joined us. Senator Boozman, 
do you want to make an opening statement before other Senators 
make a comment?
    Senator Boozman. Yes, ma'am; just briefly, with your 
permission.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. I want to thank you and Ranking Member 
Burr. I think it is so important that we are holding the 
hearing today. With unacceptably high unemployment rates among 
our Nation's veterans population, every Member of the Senate 
ought to be thinking about how we can provide economic 
opportunities to our servicemembers and their families so that 
we can ensure that they experience fulfilling civilian lives 
once they have completed their military service.
    I would also like to thank both of you for bringing my 
legislation, S. 2246, the TAP Modernization Act that I 
introduced with Senator Begich--who has been such a great 
partner in proposing legislation for improving veterans 
programs--to create a pilot program in the hopes of improving 
the current TAP program that Congress recently saw fit to make 
mandatory for all military personnel, which I thought was a 
great step in the right direction.
    However, this has not always been the case, and even those 
that do attend TAP may be distracted during their transition or 
may not fully appreciate the value of the instruction and later 
wish that they had paid better attention.
    For those who may be in need of a TAP refresher or even a 
redo, this legislation would create a 3-year pilot program that 
would provide off-base TAP to veterans and their spouses in an 
off-base environment. Attendance would be voluntary and these 
pilot programs would occur in States selected by DOL with the 
highest rates of veterans' unemployment.
    I believe that examining the benefits of a second chance at 
TAP would be a worthwhile endeavor. And based on my experience 
as a former Chair and Ranking Member of the House Veterans' 
Affairs Subcommittee on Economic Opportunity, I believe this 
could be an investment that would pay dividends for our 
veterans in terms of their ability to leverage their skills and 
benefits that they have received as a result of their military 
service.
    I look forward to continuing to work with the Chair and 
Ranking Member. I very much appreciate, again, bringing this 
legislation forward. And with that, I yield back.
    Chairman Murray. Thank you very much, Senator Boozman. 
Really appreciate your work on this. We do have four Senators 
who have joined us. I will call on you in the order of 
appearance starting with Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Madam Chair and Ranking Member 
Burr. I appreciate the opportunity to testify before the 
Committee today. Sitting in the audience today is Master 
Sergeant Jessey Baca, a member of the New Mexico Air National 
Guard, and his wife, Maria. Just give everybody a wave here, 
you two.
    Master Sergeant Baca was stationed in Balad, Iraq, and 
exposed to burn pits. His journey to be here today was not 
easy. He has battled cancer, chronic bronchiolitis, chemical-
induced asthma, brain lesions, TBI, PTSD, and numerous other 
ailments. Maria has traveled that difficult road with him. They 
know firsthand the suffering caused by burn pits, and they need 
to know the answers. It is because of them and so many others 
like them that we are here today.
    Last year I introduced S. 1798, the Open Burn Pits Registry 
Act with Senator Corker. Representative Todd Akin introduced it 
in the House. It is not a partisan issue. We have each met with 
veterans and active duty members of the military and they have 
told us how important it is that we act now.
    In both Afghanistan and Iraq, open air burn pits were 
widely used at forward operating bases. Disposing of trash and 
other debris was a major challenge. Commanders had to find a 
way to dispose of waste while concentrating on the important 
mission at hand. The solution that was chosen, however, had 
serious risks.
    Pits of waste were set on fire, sometimes using jet fuel 
for ignition. Some burn pits were small, but others covered 
multiple acres of land. Oftentimes, these burn pits would turn 
the sky black. At Joint Base Balad, Iraq, over ten acres of 
land were used for burning toxic debris.
    At the height of its operations, Balad hosted approximately 
25,000 military, civilian, and coalition personnel. These 
personnel would be exposed to a toxic soup of chemicals 
released into the atmosphere. According to air quality 
measurements, the air at Balad had multiple particulates 
harmful to humans. Plastics and styrofoam, metals, chemicals 
from paints and solvents, petroleum and lubricants, jet fuel 
and unexploded ordnance, medical and other dangerous waste.
    The air samples at Joint Base Balad turned up some nasty 
stuff. Particulate matter, chemicals that form from the 
incomplete burning of coal, oil and gas, garbage, or other 
organic substances, volatile organic compounds such as acetone 
and benzene--benzene, as you all know, is known to cause 
leukemia--and dioxins which are associated with Agent Orange.
    According to the American Lung Association, emissions from 
burning waste contain fine particulate matter, sulfur dioxides, 
carbon monoxide, volatile organic compounds, and various 
irritant gases such as nitrogen oxides that can scar the lungs. 
All of this was in the air and being inhaled into the lungs of 
servicemembers.
    Our veterans have slowly begun to raise the alarm as they 
learn why, after returning home, they are short of breath or 
experiencing headaches or other symptoms, and in some cases, 
developing cancer.
    Or to put it more simply by Maria Baca when she describes 
her husband's symptoms, ``When he breathes, he can breathe in, 
but he cannot breathe out. That is the problem that he is 
having. It feels like a cactus coming out of his chest. He 
feels like these splinters and he cannot get rid of them.''
    The Department of Army has also confirmed the dangers posed 
by burn pits. In a memo from April 15, 2011, Environmental 
Science Engineering Officer, G. Michael Pratt, wrote an air 
quality summary on Bagram Airfield. And I would respectfully 
ask that the full memo be included in the record.
    Chairman Murray. Without objection.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Udall. Referring to the burn pits near Bagram 
Airfield, he said there was potential that long-term exposure 
at these levels may increase the risk for developing chronic 
health conditions such as reduced lung function or exacerbated 
chronic bronchitis, chronic obstructive pulmonary disease, 
asthma, arteriosclerosis, and other cardiopulmonary diseases.
    Many of our servicemembers are coming home with these 
symptoms. I believe, like you do, Madam Chair, that we are 
forever in debt for their service, so we must ask the question, 
how did these burn pits impact the health of our returning 
heroes? This bill is a step toward finding the answers we owe 
them.
    The legislation will establish and maintain an open burn-
pit registry for those individuals who may have been exposed 
during their military service. It would include information in 
this registry that the Secretary of the VA determines 
applicable to possible health effects of this exposure, develop 
a public information campaign to inform individuals about the 
registry, and periodically notify members of the registry of 
significant developments associated with burn pit exposure.
    It is supported by numerous groups, including BURNPITS 360, 
Veterans of Foreign Wars, the Association of U.S. Navy, 
Retired, Enlisted Association, the Uniform Services Disabled 
Retirees, and the National Military Family Association.
    Madam Chair and Ranking Member Burr, thank you for your 
attention to this important issue. I look forward to working 
with both of you and Members of your distinguished Committee on 
this important legislation. Thank you and its a pleasure, once 
again, to be with you today.
    Chairman Murray. Thank you very much, Senator Udall, and 
thank you for your critical work on this. I really appreciate 
it.
    Senator Udall. And I would also ask to be excused unless 
there are questions from the Committee.
    Chairman Murray. Absolutely. I appreciate it very much. 
Thank you very much.
    Senator Udall. Thank you very much.
    Chairman Murray. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, Senator Burr, Members, I 
want to second what Senator Udall just said. We have had a 
number of cases of the burn pit exposure in Florida, and it is 
horrific. So thank you, Senator Udall, for that testimony.
    Madam Chairman, may I just submit a statement for your 
Committee's record.
    Chairman Murray. Your statement will be put in the record.
    [The prepared statement of Senator Nelson follows:]
                Prepared Statement of Sen. Bill Nelson, 
                       U.S. Senator from Florida
    Chairwoman Murray, Ranking Member Burr, thank you for the 
invitation to be here today to speak about S. 2130, a bill I filed to 
help get veterans back to work.
    While the economic downturn has taken a toll on just about every 
American, it's been especially tough for many of our veterans. The 
unemployment rate among veterans returning from Iraq and Afghanistan 
has risen to 12.7 percent--much higher than the national average of 8.2 
percent. For our youngest veterans, those under 24, it's even worse--
upwards of 29 percent.
    Numbers like these tell me we need to do more to help those who 
sacrificed in service to our Nation. President Kennedy said: ``We must 
never forget that the highest appreciation is not to utter words, but 
to live by them.''
    Veterans have a history of public service, as well as unique 
training and skills that could benefit national priorities, even after 
their military service has come to an end.
    So, in February I filed legislation to authorize a Veterans 
Conservation Corps. modeled on Civilian Conservation Corps of the 
1930s. This jobs program would put veterans back to work restoring and 
protecting America's public land and waters. This job corps will 
provide transitional assistance to separating servicemembers, employing 
them on projects designed to leverage skills developed in the military 
in fields like water safety, construction, GIS mapping, and as park 
rangers.
    This program will also include a training element, so that when 
veterans leave the corps they have enhanced skills learned in the 
military, and are able to find gainful employment.
    Let me give you an example of how I think this could work in my 
State.
    In Florida, there is a big problem with invasive species. Creatures 
like Burmese pythons are running wild in the Everglades. Several years 
ago a little girl was killed by one of these large snakes. While I've 
been able to push through rules banning interstate trade of these 
snakes, finding and eradicating them from the Glades is extremely 
difficult.
    It turns out that bomb-sniffing dogs--those that tracked IEDs in 
Iraq and Afghanistan--can be retrained to find Burmese pythons--
something that humans just aren't that good at. And who better than 
soldiers returning from the Middle East to be trained to be the dog 
handlers?
    Madam Chair, not only will this bill help with transition, 
employment, and retraining of veterans, but the Veterans Conservation 
Corps will help address the Federal maintenance backlog. The National 
Park Service has a deferred maintenance backlog of more than $11 
billion.
    Federal public lands are not only National treasures, but they are 
also economic drivers, bringing in tourism and recreational 
opportunities to local communities. It's been estimated that for each 
dollar invested in park operations, $10 in gross sales revenues are 
generated, and last year, national parks provided $31 billion of direct 
economic benefit to local communities around the country.
    Madam Chair, one of the greatest honors I have in my job is getting 
to meet and thank veterans and current members of our military. When 
you meet some of these young folks--they have already done the toughest 
jobs out there--23-year-olds who are leading platoons through Kandahar. 
These folks are hardworking, highly trained, and extremely skilled. We 
just have to give them the opportunity, and they will prosper.
    It's up to us to stand by our soldiers, sailors, airmen, marines, 
and coast guardsmen. Passing legislation to help employ veterans--like 
the Veterans Conservation Corps--is the way we can thank them for their 
service and their bravery.

    Madam Chairman, Ranking Member Burr, I appreciate all the work this 
Committee has done to tackle the high rate of veterans unemployment, 
and I look forward to working with you on this legislation.

    Senator Nelson. What I want to talk about is the Veterans 
Conservation Corps. And it simply is to try to help address a 
situation that when a veteran comes home, especially from Iraq 
or Afghanistan, and they cannot get a job, here they have taken 
such extraordinary responsibility into their hands representing 
this country abroad, they come home and then cannot get a job.
    Now, until the economy gets cranked up, it is going to 
continue that way unless we give some additional help. One 
suggestion is, one bill that you all are considering, which is 
to try to take the veteran's speciality that they have already 
gotten educated in as a military person and marry that up in 
the civilian sector once they come home without having to go 
through all of the credentialing. That is one thing.
    The other thing would be the establishment--and by the way, 
that will not cost any money. The other thing would be a 
veterans conservation corps which will cost about a billion 
dollars, and for a year after the veteran comes home, to 
provide employment in things that we need done in our parks and 
with the possibility that at the end of the year, if the 
veteran still has not found employment in the private sector, 
that there could be an extension.
    Training for the veteran in the conservation corps is also 
a component. So we are talking about things like transportation 
improvements, for example in parks like trails. We are talking 
about erosion control, landscape and recreation, habitat 
protection and restoration, including dealing with invasive 
species, and importantly, data collection. And then if training 
is a part of this component, that all the more eases the 
veteran into employment in the private sector.
    And so, I just throw it out there for your consideration. 
It seems like we have an obligation. You have heard the 
statistics; I will only repeat them: 8.2 percent unemployment 
nationally; among veterans, it is 12.7 percent, but among 
veterans under 24 years of age, it is 29 percent.
    So, thank you for your consideration, Madam Chair.
    Chairman Murray. Thank you very much, Senator Nelson, for 
your work on this issue. I will turn to Senator Reed.

                 STATEMENT OF HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Thank you very much, Madam Chairman, Ranking 
Member Burr, and distinguished Members of the Committee. I want 
to commend you for all your efforts to assist veterans. I am 
pleased to have the opportunity to talk about S. 3179, the 
Service Member Housing Protection Act.
    Since 1940, the Congress has recognized that men and women 
in the service of the United States deserve special 
protections, so with the Civil Service Relief Act, Soldiers and 
Sailors Civil Service Relief Act augmented by the Service 
Members Civil Relief Act, augmented by Senator Webb's great 
work with respect to the GI Bill of Rights and other 
legislation, including the creation of a servicemembers branch 
of the Financial Protection Bureau, we have tried to provide 
protections to our servicemen and women.
    The proposal that I am making advances several, I think, 
important improvements. It continues in the strong tradition 
that we have established and this Committee has established, 
and it focuses on protecting servicemembers, particularly from 
foreclosure, and also from the--give them real access to the 
protections under the Servicemen's Civil Relief Act.
    First, the bill would make it easier for servicemembers to 
claim deployment-related financial and credit protections by 
expanding what could be submitted to constitute military 
orders. Currently, creditors require a copy of military orders 
in order to trigger the SCRA protections. However, these orders 
are often not cut until just before deployment, or in many 
cases, when the serviceman or woman is already deployed.
    The legislation that we are proposing would broaden the 
concept of orders by allowing a competent authority to submit a 
letter indicating that the servicemember is, in fact, 
deploying, so they would be protected with respect to the 
rights that they have under the SCRA, including interest rate 
limitations of 6 percent on qualifying mortgages, something I 
think that has to be done and should be done. In many respects, 
this is a technical correction which could be so important to 
servicemen and women.
    Second, this bill would extend foreclosure protections to 
surviving spouses. Currently, servicemembers have a 9-month 
window of foreclosure protection following service to provide 
time to reacclimate to civilian life and to get their personal 
affairs back in order.
    But surprisingly, this protection is not offered to a widow 
of someone who dies on active service. I think this is 
something that should be done immediately. I cannot think of 
anything more difficult than to bear the loss of a spouse in 
the service of this country and not being able to access at 
least a 9-month period in which they could avoid foreclosure.
    And finally, the bill would facilitate the transition from 
off-base to on-base housing. There is a shortage of military 
housing on many bases throughout this country. I do not have to 
tell this Committee because many of you represent areas with 
substantial military installations.
    But when servicemembers are on a waiting list for on-base 
housing, they can be in a situation where it would cause them 
to terminate their off-post lease. That, I think, is unfair. I 
think they should be able to move without a termination fee on 
post when that housing becomes available.
    There are several States, in fact--Florida, Georgia, and 
Virginia--who are already, under State laws, have made it 
illegal to impose a penalty if a servicemember is given on-post 
housing. I think we should do that at the national level.
    So I have been very proud to introduce this bill, along 
with Senator Durbin, Senator Sherrod Brown, Senator Whitehouse, 
Senator Begich. It is supported by the Military Coalition, the 
Military Officers Association of America, the Iraq and 
Afghanistan Veterans of America, the National Military Family 
Association, and the American Legion. And our legislation also 
complements, Madam Chairman, your bill, S. 2299, which I co-
sponsored which will better enable the Department of Justice to 
defend our servicemembers and uphold their rights under the 
SCRA.
    Thank you very much for this opportunity to present this 
important legislation, and if you will also forgive me?
    Chairman Murray. Thank you very much, Senator Reed. Of 
course, our Senators, once they testify, are welcome to leave.
    We have had two Committee Members join us, and I would ask 
Senator Isakson and Senator Johanns if you want to make an 
opening statement or wait until our testifiers? I am happy to 
let you go. Senator Isakson, you want to wait? Senator Johanns?
    Senator Johanns. I am in the middle of a Banking hearing, 
like so many of us, so if I might, I would like to offer a few 
thoughts and then I do need to return to that.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. First of all, thank you, both to you and 
the Ranking Member, for holding the hearing. We are all here 
today to ensure that veterans are able to successfully 
transition back to the civilian world upon leaving active duty. 
They have served us well. We need to do all we can.
    For this reason, I am very pleased to join my colleague, 
Arkansas Senator Mark Pryor, in introducing S. 3235, the 
Helping Iraq and Afghanistan Veterans Return to Employment at 
Home Act. This legislation seeks to improve the ability of 
servicemembers to receive State licenses and certificates for 
jobs they already know how to do.
    As we all know, many servicemembers perform technical jobs 
as part of their service. That could be driving a truck, it 
could be a nursing assistant, a whole host of jobs. They are 
trained to perform the jobs with great skill in an unbelievable 
environment.
    But unfortunately, when they complete their tour of duty, 
many seeking similar jobs as a civilian fine they cannot meet 
the certification requirements, amazingly enough. The Hire at 
Home Act seeks to do away with this common yet unnecessary 
hurdle that often stands between our vets and civilian 
employment.
    It encourages State licensing agencies to consider a 
veteran's active duty training and experience when determining 
eligibility for a State license. So I believe it is good 
legislation and legislation that I hope we will find 
substantial support for.
    The second item I wanted to talk about, the Nationwide 
Network of Support for Veterans and Military Families Act of 
2012 seeks to charter a national corporation that would 
coordinate public, private, and non-governmental support for 
servicemembers, veterans, and their families. The concept 
behind the legislation came from collaboration with individuals 
working on the ground with veterans trying to figure out how to 
better serve them.
    While our veterans have the benefit of receiving assistance 
and services from many private and public and faith-based, non-
governmental organizations, the needs of vets in a specific 
community can sometimes fall through the cracks. So the goal of 
the legislation is to encourage individuals and organizations 
within a community to work together to meet the specific needs 
of the veterans.
    The legislation would encourage communities through the 
issuance of small, privately-funded grants to bring relevant 
parties to the table. The network would also serve as a 
resource toolkit for communities looking to improve the way 
they serve veterans. Again, another act designed to try to 
figure out how to help veterans transition back into their 
communities.
    Thank you, Madam Chair. I appreciate the opportunity to say 
a few words.
    Chairman Murray. Thank you very much, Senator Johanns. 
Senator Isakson, did you want to say anything? You waive? 
Really appreciate that. Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Madam Chair and 
Ranking Member and Members of the Committee for holding this 
hearing and for your unwavering support of our veterans and 
military families. My colleagues have presented many potential 
strategies to address the challenges faced by our returning 
vets.
    Certainly I applaud their efforts, Bill Nelson's effort to 
create a veterans conservative corps. Tremendously important 
that there be the opportunity for employment and a structured 
life when folks return and cannot find employment in this very 
difficult economy. Jack Reed's efforts on foreclosure 
protection, Tom Udall's effort on burn pits. I applaud them 
all.
    I come today on a different topic. We often talk about the 
sacrifices that our military members make in service of our 
Nation up to and including the ultimate sacrifice, and over 
6,000 Americans have died in Iraq and Afghanistan since 2001. 
There is sometimes less recognition, though, for the sacrifices 
that military spouses make. Military spouses sacrifice every 
day their husband and/or wife serves, and in the case where 
those loved ones are killed, they feel that sacrifice every day 
for the rest of their lives.
    The loss of a spouse is deeper loss that can ever be 
quantified, but we must realize that beyond the incredible 
personal sacrifice, there is also financial loss represented. 
When a young man or woman dies in service, the spouse of that 
person loses a lifetime of potential that could have helped to 
build and support the family.
    It was in this context that I was surprised when a veteran 
came to a town hall. His name is Robert Thornhill of Beaverton, 
Oregon, and he said, Did you realize that while the Fry 
scholarships help the children, they do not help the spouse and 
that the spouse has to re-establish a financial future and that 
often would be very much supported or assisted by the type of 
educational opportunities the Fry scholarship represents?
    I was indeed surprised about that and this bill, Senate 
Bill 1852, the Spouses of Heroes Education Act, represents a 
small step to help Gold Star spouses reclaim some of that 
potential. Helping Gold Star spouses go back to school allows 
these spouses who have sacrificed so much to pursue the 
educational opportunities they need to reach their goals and to 
support their families.
    Whether it is getting that first college degree, going back 
to school for a career change, or getting the training that 
will take them to the next level and help them support their 
family, having that education within reach means they can take 
their destiny, their family's destiny into their own hands.
    I appreciate the strong support for this bill by the 
Military Officers Association of America, National Guard 
Association of America, and the Military Coalition, an 
association of organizations supporting servicemembers and 
vets. Let us provide the same opportunity to our Gold Star 
spouses as we provide to the children to help the spouses 
restore a financial foundation for their families and take 
control of their futures.
    Thank you very much for the opportunity to testify.
    Chairman Murray. Thank you very much, Senator Merkley. 
Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Madam Chair. Thank you for having 
me and, Ranking Member Burr, thank you for your leadership on 
this as well and all the Committee Members.
    I want to thank you for having me here to testify today and 
I appreciate the opportunity to present the Service Member 
Employment Protection Act and the Hire at Home Act before this 
Committee. I especially want to thank my co-chair of the 
Reserve Caucus, Senator Saxby Chambliss, for his support of the 
Service Member Employment Protection Act, and Senator Johanns, 
who just had to leave, for the original co-sponsorship of the 
Hire at Home Act.
    I would like to begin with the Service Member Employment 
Protection Act. I imagine everyone here today recognizes the 
need for employment legislation that is fair to military 
members and employers alike. I believe this legislation 
provides reasonable and necessary changes to USERRA.
    Members of the Reserve component often struggle to balance 
their military service with obligations to their civilian 
employer. These unique challenges sometimes force 
servicemembers to make tough choices. Congress has long 
recognized the need for legislative protection for 
servicemembers, especially since September 11. It has continued 
to identify the areas that need improvement.
    Currently, employers have the ability to force 
servicemembers into binding arbitration for claims arising 
under USERRA. The first section of the Service Member 
Employment Protection Act clarifies that USERRA precludes these 
arbitration agreements. Arbitration can unnecessarily limit 
servicemembers' options.
    That is why it is important that we provide our military 
members with the option to pursue their discrimination claims 
in Federal court where they have all the protections and 
transparency afforded under Federal law.
    The second section of my bill expands the definition of 
service in the uniformed services. Currently, the definition 
does not include time away for members that need medical 
appointments for treatment of service-connected injuries. It is 
only fair that we expand this definition to protect our 
returning veterans while seeking medical treatment for injuries 
obtained in the line of duty.
    The final section within the bill is very simple. It bans 
repeat USERRA violators from getting Government contracts. We 
already do this with laws such as Buy American Act, the Clean 
Water Act, the Drug-Free Workplace Act, just to name a few. It 
only makes sense to add servicemember protections to this list. 
We should always strive to prevent the award of contracts to 
vendors who have engaged in misconduct by failing to honor 
their legal obligations.
    Finally, I would also like to discuss helping Iraq and 
Afghanistan veterans return to employment or the Hire at Home 
Act that Senator Johanns mentioned a few moments ago. He did a 
good job of explaining it, but as you know, many veterans have 
job skills and experiences that apply in the civilian world as 
well as in the war zone.
    EMTs, truck drivers, paramedics, nursing assistants, they 
have all been trained by the military to use their skills in 
combat and they should be able to apply these skills in 
civilian life. This bill encourages States to consider our 
servicemembers' experience when issuing credentials and 
licenses, which would allow them to skip expensive and time-
consuming classes or hurdles to employment.
    I heard Senator Bill Nelson a few moments ago talk about 
the Bureau of Labor statistics reporting that unemployment for 
veterans who served in the military since 2001 was at 9.2 
percent. Last month, this number climbed to 12.7 percent. At 
the end of 2011, young male veterans between the ages 18 to 24 
had an unemployment rate of 29.1 percent. That is 29.1 percent.
    As you know, there are a number of ideas and initiatives 
out there today to help lower these numbers, and I believe that 
these two bills that I have talked to the Committee about today 
would help to do just that. So I want to thank you for the 
opportunity to be here and would make myself available for any 
questions, and make my staff available for anyone who wants to 
follow up. Thank you.
    Chairman Murray. Thank you very much, Senator Pryor. I 
really appreciate it. I know Senator Isakson, you had an 
opening statement that you wanted to make?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Madam Chairman, I will submit my opening 
statement for the record. I wanted to commend Senator Pryor on 
the consideration or alternative certification consideration 
for veterans' skills. If I am not already on the bill, I wish 
you would put me on it because I have been overseas and been at 
sea on some ships with some of our sailors.
    I have seen the joint venture programs that we have now, 
for example, with Marriott Corporation training our chefs and 
our cooks. In the Navy, they help to assist the Navy and then 
bring them into the private sector when they leave. I think it 
is a great idea and it is a great consideration.
    Senator Pryor. Thank you. We will add you. We will be 
honored to. Thank you very much.
    Senator Boozman. Madam Chair?
    Chairman Murray. Yes, Senator Boozman.
    Senator Boozman. I would like to comment on Senator Pryor's 
bill which he just described. This is something--I was Chair 
and Ranking Member of the Economic Opportunities Committee in 
the House and this is something that the Senate and the House 
have talked about, you know, ever since I have been in 
Congress.
    We will really need to do something about this. The problem 
is, is that if you are a truck driver in the military and then 
you transition, you need to have the ability for that work-
related skill to go with you. Yet, you encounter the 
application of State rules and things like that, which we have 
to separate out. But they need to get credit for that.
    So it does not make any sense. We have got good job 
transition between our pilots and skills like that, but there 
is none for our medics, our plumbers, and electricians, all of 
those skills.
    The other thing that I would like to see is us work with 
the Department of Defense so that as our men and women complete 
those training programs, that they are given some sort of a 
certificate or, you know, much like a pilot's license so that 
you have actually got something as you transition into the 
civilian world.
    The blowback will be that they are concerned about 
retention and things when you do those kind of things, but that 
is a bogus argument. But I really do commend you for bringing 
this forward, and hopefully, with you and Senator Johanns, this 
will give us the impetus to actually get something done and 
quit talking about something that has lingered out there for 
many, many years.
    Senator Pryor. Thank you.
    Chairman Murray. Thank you, thank you very much. Really 
appreciate that. Senator Begich, do you have an opening 
statement or comment?
    Senator Begich. No.
    Chairman Murray. OK. I really appreciate that, and I would 
like our first panel to move forward and join us at the witness 
table. I will introduce them as they come forward.
    From the Department of Veterans Affairs, we have Curt Coy, 
who is the Deputy Under Secretary for Economic Opportunity at 
the Veterans Benefits Administration. Accompanying him is the 
Director of VA's Education Service, Robert Worley. I want to 
congratulate him on his new position. He has some very large 
shoes to fill, and I am sure he will be making many appearances 
before this Committee.
    Also joining us today is Ruth Fanning who is Director of 
the Vocational Rehab and Employment Service, and John Brizzi 
from the Office of General Counsel. The Department's full 
statement will be entered into the record. Mr. Coy, if you are 
ready, we would like you to go ahead and testify.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Coy. Madam Chairman Murray, Ranking Member Burr, and 
other Members of the Committee, I am pleased to address the 
Committee today with VA's views on pending legislation. Joining 
me today, as you indicated, is Ruth Fanning, Rob Worley, and 
John Brizzi. At the onset, I would like to apologize for the 
late submission of our testimony.
    A major theme of the legislation on today's agenda is 
helping veterans make informed choices and succeed in their 
future endeavors. My full statement has been submitted for the 
record. Many of the bills we are discussing today compliment 
components of the recent Executive Order 13607 establishing 
principles of excellence for educational institutions serving 
servicemembers, veterans, spouses, and other family members, 
signed by the President on April 27, 2012.
    These principles were developed to strengthen consumer 
protection for our servicemembers, veterans, and their 
families, as well as to ensure they have access to the 
information they need to make informed choices and decisions 
concerning their use of their well-earned education benefits. 
There are many areas of commonality with the features of these 
bills and the executive order, and we would be pleased to work 
with the Committee in all aspects.
    For example, help ensure military and veteran students have 
the information they need and provide students with better data 
on educational institutions. S. 2179, Section 3, will require 
educational institutions to disclose course information to 
current and future veteran students. The information they must 
disclose includes, for example, graduation, drop-out rates, 
profit status, tuition and fees charged, transfer credit 
policies, description of veteran services available, and job 
placement rates.
    VA supports the intent of this section and has been working 
to develop similar and complimentary outcome measures as 
required in the executive order. In all cases in implementing, 
we will need to ensure that information is available in a user-
friendly format for veteran students.
    As well, we support the intent of S. 2241, Section 2, which 
requires the publication of additional elements to provide 
veteran students the information they need.
    Provide veterans with a complaint system. S. 2179, 2241, 
and 2206 all address the establishment of a complaint system so 
that consumers' concerns and issues with schools get raised at 
the appropriate level and are acted upon. The executive order 
also requires the establishment of a centralized complaint 
system and we are currently working with our partners at 
Departments of Education, Defense, Justice, and Consumer 
Financial Protection Bureau to determine what system that 
should be. We are still in the research phase of that process.
    Improve support services for servicemembers and veterans. 
S. 2179, Section 4, identifies services that should be provided 
by education institutions with 20 or more covered individuals, 
to include the provision of adequate academic and student 
support services, including remediation tutoring and career and 
job placement counseling services to covered individuals.
    S. 2241 requires institutions to offer counseling services 
if more than ten veterans. The executive order also requires 
that institutions designate points of contact for academic and 
financial advising, as well as providing educational plans.
    VA has strongly encouraged schools to commit to quality 
education and services to facilitate veteran student informed 
choice, and we pledge to work with them constantly to ensure 
they act in the interest of our Nation's veteran servicemembers 
and families. VA welcomes to the opportunity to work with the 
Committee to further define some of the existing proposals in 
order to ensure that veterans have all the information they 
need to make informed choices.
    Last, there are multiple bills discussed today that address 
increases in requirements for Chapter 36 vocational and 
educational counseling. VA supports any measure to improve the 
quality and delivery of benefits and services provided to our 
beneficiaries. However, we have some concerns regarding 
mandating educational and vocational counseling for all student 
veterans.
    VA provides this counseling in an individualized manner and 
our beneficiaries' education experience varies widely. We would 
welcome the opportunity to work with the Committee to develop 
the language that takes into account these individualized 
needs.
    Turning to other bills on the agenda, S. 1852, Spouses of 
Heroes Education Act, would expand the law to allow surviving 
spouses to become eligible for the post-9/11 GI Marine Gunnery 
Sergeant Fry scholarship. VA supports the intent of S. 1852. 
This bill would offer eligible surviving spouses more generous 
monetary benefits than they receive under current law, 
advancing their economic security, and honoring their spouse's 
sacrifices.
    VA would need at least 1 year from the date of enactment to 
implement this change and funding to modify IT systems and 
procedures to administer the enhanced scholarship.
    S. 2130, the Veterans Conservation Corps Authorization Act, 
would establish within the Department of Interior a veteran 
conservation corps. This legislation shares similar aims with 
the Veteran Job Corps Conservation program proposed in the 
President's State of the Union address which is broader in 
scope, as detailed in my written statement. VA recently had the 
opportunity to brief Committee staff on this initiative and 
would like to work with you in the coming weeks in developing 
this proposal.
    VA remains dedicated to improving economic opportunities 
for veterans and is excited to work with you on these bills 
that thoroughly support that commitment. The remaining bills 
are covered in my written statement, but, of course, we are 
glad to follow up with you and your staff on those and all 
bills on the agenda.
    Chairman Murray, this concludes my statement. I would be 
happy to answer any questions you or the other Members of the 
Committee may have.
    [The prepared statement of Mr. Coy follows:]
    Prepared Statement of Curtis L. Coy, Deputy Under Secretary for 
  Economic Opportunity, Veterans Benefits Administration (VBA), U.S. 
                     Department of Veterans Affairs
    Chairman Murray, Ranking Member Burr, and other Members of the 
Committee, I am pleased to provide the views of the Department of 
Veterans Affairs (VA) on pending legislation. Joining me today is 
Robert M. Worley II, Director of Education Service, VBA, Ruth A. 
Fanning, Director, Vocational Rehabilitation and Employment Service, 
VBA, and John Brizzi, Deputy Assistant General Counsel.
    VA is pleased to provide our insight on several bills on today's 
agenda that would affect programs we administer. Other bills under 
discussion today would affect programs or laws administered by the 
Department of Labor (DOL), the Federal Aviation Administration (FAA) of 
the Department of Transportation (DOT), the Transportation Security 
Administration (TSA) of the Department of Homeland Security (DHS), the 
Department of Defense (DOD), the Department of Justice (DOJ), the 
Office of Personnel Management (OPM), and the Office of Federal 
Procurement Policy in the Office of Management and Bu8dget (OMB). 
Respectfully, we defer to those agencies' views with regard to the 
following bills, with supplemental comments on two of the bills as 
noted below:

    <bullet> S. 1314 (requiring the establishment of minimum funding 
levels for States for the support of disabled veterans' outreach 
program specialist and local veterans' employment representatives--
DOL);
    <bullet> S. 1859 (including specific agencies for purposes of 
Federal employment provisions relating to administrative and judicial 
redress for Veteran preference eligibles--DHS and DOT);
    <bullet> S. 2246 (providing for off-base transition training--DOL), 
with information regarding cost impact on VA;
    <bullet> S. 2299 (improving civil relief and employment and 
reemployment rights of Servicemembers--DOD, DOL, and DOJ);
    <bullet> S. 3233 (improving the enforcement of employment and 
reemployment rights of Servicemembers--DOL, OPM, and OMB);
    <bullet> S. 3235 (conditioning receipt of certain funds by a State 
on that State considering a veteran's active-duty training in granting 
specific certificates--DOL);
    <bullet> S. 3236 (improving the protection and enforcement of 
employment and reemployment rights of Servicemembers--DOL, OPM, and 
OMB).

    We regret we did not have sufficient time to formulate costs for 
six measures: S. 1634; S. 1852; S. 2179; S. 2206; S. 2241; and S. 3179. 
We will provide cost estimates for these bills at a later date. We also 
regret we did not have sufficient time to formulate costs and views on 
S. 3210, which would modify the treatment, under contracting goals and 
preferences of the Department, of small businesses owned by surviving 
spouses following the death of a disabled Veteran-owner. We will be 
pleased to provide written views and costs on this bill for the record.
                     education and training matters
    Before addressing individual bills, VA wants to thank the Committee 
and the sponsors of legislation aimed at ensuring Veterans have the 
information they need to make the most informed educational choices 
they can, so that the benefits they have earned will help them reach 
their highest potential.
    The Administration has joined this effort by issuance on April 27 
of Executive Order 13607--Establishing Principles of Excellence for 
Educational Institutions Serving Servicemembers, Veterans, Spouses, and 
Other Family Members. This Executive Order will:

    <bullet> Help Ensure Military and Veteran Students Have the 
Information They Need: The Executive Order requires that colleges 
provide more transparent information about their outcomes and financial 
aid options for students, which will help ensure that students are 
aware of the true cost and likelihood of completion prior to enrolling. 
The Executive Order requires that the Know Before You Owe financial aid 
form, developed by the Consumer Financial Protection Bureau (CFPB) and 
the Department of Education (ED), is made available to every college 
student that participates in DOD's Tuition Assistance program (nearly 
2,000 schools). The Executive Order also directs VA to encourage all 
schools--roughly 6,000 in total--participating in the GI Bill program 
to provide the Know Before You Owe form. This form provides students 
with critical information on tuition and fees, the availability of 
Federal financial aid, estimated student loan debt upon graduation, and 
information about student outcomes like graduation rates. Further, the 
Executive Order requires that students are provided additional critical 
information, including school performance information over time, 
consumer protection information, and key financial aid documents, prior 
to the use of their benefits through the eBenefits portal. VA will 
publically identify on its Web site the schools receiving GI Bill 
benefits that agree to adhere to the Executive Order.
    <bullet> Keep Bad Actors Off of Military Installations: There have 
been numerous reports of institutions of higher education aggressively 
and inappropriately targeting military students. The Executive Order 
will require DOD to set forth rules for how educational institutions 
gain access to military installations in the first place, so that 
Servicemembers are not targeted by institutions known for a history of 
poor behavior in recruiting and marketing practices.
    <bullet> Crack Down on Improper Online Recruiting Practices: The 
Executive Order directs VA to initiate a process to register the term 
``GI Bill,'' so that external Web sites and programs are not 
deceptively and fraudulently marketing educational services and 
benefits to program beneficiaries. For instance, some companies have 
set up Web sites that suggest that Veterans' benefits are only 
available at a subset of schools. The Web sites are also set up to 
resemble official government sites, and are marketed heavily at 
military installations and at separating Servicemembers.
    <bullet> Provide Veterans with a Complaint System: The Executive 
Order requires VA, DOD, and ED, in consultation with the CFPB and DOJ, 
to create a centralized complaint system for students receiving 
military and Veterans' educational benefits. Currently, when military 
and Veteran students feel that their school has acted fraudulently, 
they have no centralized system to file complaints, and Federal 
agencies often lack access to information that will allow for follow-up 
enforcement or regulatory actions.
    <bullet> Improve Support Services for Servicemembers and Veterans: 
The Executive Order requires that colleges participating in the 
military and Veterans education benefit programs do more to meet the 
needs of military and Veteran students by providing clear educational 
plans for students, academic and financial aid counseling services with 
staff that are familiar with the VA and DOD programs, and the ability 
of Servicemembers to more easily re-enroll and/or receive a refund if 
they must leave school for service-related reasons.
    <bullet> Provide Students with Better Data on Educational 
Institutions: The Executive Order requires DOD, VA, and ED to develop 
improved student outcome measures, such as completion rates for 
Veterans, and a plan for collecting this data, which will be made 
available on ED's College Navigator Web site. Currently, retention and 
completion rates cannot be broken down by Veteran or Servicemember 
status. Given the unique educational needs of Veterans, active-duty 
Servicemembers, and their family members, it is important to provide 
them with a more accurate picture of what success looks like for 
students like them. The Executive Order also requires better reporting 
on the extent to which colleges rely on various types of Federal 
benefits for operational support.
    <bullet> Strengthen Enforcement of Student Protections: The 
Executive Order requires that VA and DOD strengthen the enforcement and 
compliance functions of VA and DOD, so that, working in conjunction 
with the ED, DOJ, and the CFPB, agencies (including law enforcement 
agencies with responsibility over fraud investigations) can effectively 
act on complaints of improper activity.

    We believe many features of the education bills on the agenda today 
can complement the initiatives set out in the Executive Order.
S. 1634
    S. 1634 would amend title 38, United States Code, to modify the 
authorities relating to the approval and disapproval of programs of 
education for purposes of educational assistance benefits administered 
by VA.
    Public Law 111-377, the ``Post-9/11 Veterans Educational Assistance 
Improvements Act of 2010,'' deemed the following courses to be approved 
for VA education benefits purposes:

    <bullet> Any accredited standard college degree programs offered at 
a public or private not-for-profit school that is accredited by an 
agency or association recognized for that purpose by the Secretary of 
Education;
    <bullet> A flight training course approved by the Federal Aviation 
Administration (FAA) offered by a certified pilot school that possesses 
a valid Federal Aviation Administration pilot school certificate;
    <bullet> An apprenticeship program registered with the Office of 
Apprenticeship (OA) of the Employment Training Administration of DOL or 
a State apprenticeship agency recognized by the OA pursuant to the Act 
of August 16, 1937 (popularly known as the ``National Apprenticeship 
Act;'' 29 U.S.C. 50 et seq.); and
    <bullet> A program leading to a secondary school diploma offered by 
a secondary school approved in the state in which it is operating.

    S. 1634 would repeal the ``deemed'' approval for the accredited 
standard college degree programs and programs leading to a secondary 
school diploma. The bill would also repeal VA's authority to approve 
and disapprove courses.
    VA does not support this legislation. Section 326 of the Veterans' 
Benefits Improvement Act of 2008 (Public Law 110-389) directed VA to 
coordinate approval activities that are performed by the State 
Approving Agencies (SAAs) and approval activities performed by DOL and 
ED to improve efficiency. Additionally, section 203 of Public Law 111-
377 allowed VA to rely on accreditations already in place by ED, 
providing VA with more flexibility in how to best utilize the SAAs to 
provide additional outreach, training, and oversight to school 
officials. S. 1634 would lessen VA's ability to use SAAs as a resource 
for compliance visits, since approval actions for accredited 
institutions of higher learning and high schools would be reinstated. 
SAAs currently assist with over 4,200 compliance visits that are 
necessary for proper oversight and monitoring of for-profit 
institutions. These compliance visits allow for more face-to-face 
interview time with Veterans at for-profit schools, proper monitoring 
of recruitment tactics, and investigation of misleading practices.
    If FAA flight programs and registered apprenticeship programs 
continue to be deemed approved, VA must be able to disapprove those 
programs if it is determined those programs violate regulations.
    Currently, the Secretary has authority to approve programs of 
education in the District of Columbia and in States in which a contract 
with a SAA does not exist. If schools' programs in certain 
jurisdictions are not approvable by VA, Veterans could not receive VA 
educational assistance benefits for their attendance at those schools, 
thus limiting their choices for pursuit of their educational goals.
    VA will provide a cost estimate for S. 1634 as soon as it becomes 
available.
S. 1852
    S. 1852, the ``Spouses of Heroes Education Act,'' would expand 
subsection (b)(9) of section 3311 of title 38, United States Code, by 
allowing surviving spouses to become eligible for the Post-9/11 GI Bill 
Marine Gunnery Sergeant John David Fry scholarship. Currently, only 
children of Servicemembers who die in the line of duty while serving on 
active duty in the Armed Forces are eligible to receive education 
benefits under the Scholarship provision. S. 1852 would allow surviving 
spouses to use the benefit through the date of a remarriage or 15 years 
from the date of the death of the spouse, whichever is earlier. In 
addition, the bill would require a surviving spouse to make an 
irrevocable election to receive benefits under the Fry Scholarship 
(Post-9/11 GI Bill) in lieu of the Dependents Educational Assistance 
program (chapter 35 of title 38). S. 1852 would become effective 90 
days after the date of enactment of the Act.
    VA supports the intent underlying S. 1852, provided Congress finds 
funding offsets but have concerns regarding the bill. The bill would 
offer eligible surviving spouses more generous monetary benefits than 
they may receive under current law. Currently, a surviving spouse of a 
Servicemember who dies in the line of duty may receive benefits only 
under the chapter 35 program. Benefits under that program include a 20-
year delimiting date, 45 months of entitlement, and a current full-time 
monthly rate of $957. Under S. 1852, eligible spouses would receive 
full tuition and fees at a public institution (or an equivalent amount 
if attending a private institution), a housing allowance, and an annual 
books-and-supplies stipend of up to $1,000.
    Since the benefits are greater under the Post-9/11 GI Bill, VA 
anticipates most surviving spouses would elect to receive benefits 
under this legislation. This would result in a corresponding decrease 
in the use of chapter 35 benefits.
    This change would require programming changes to VA's Long Term 
Solution (LTS) system to include changes to newly-developed rules 
supporting end-to-end automation of some supplemental claims. Without 
funding required to implement this new program, manual processing would 
be required, resulting in a decrease in timeliness and accuracy in 
processing Post-9/11 claims. VA anticipates it would need at least one 
year from the date of enactment to implement this change without 
resulting in a negative impact on claims processing.
    VA will provide a cost estimate as soon as it becomes available.
S. 2130
    S. 2130, the ``Veterans Conservation Corps Authorization Act,'' 
would establish within the Department of the Interior a Veteran 
Conservation Corps, which would provide training and employment to 
eligible Veterans, assist in the transition from service in the Armed 
Forces to civilian life, and assist in the maintenance of Federal lands 
and waterways. The Corps would be established in consultation with the 
Secretary of Veterans Affairs and the Secretary of Commerce.
    VA would like to thank Senator Nelson for his leadership on this 
issue. VA would recommend to the Committee consideration of a broader 
proposal put forward in the President's State of the Union address, the 
Veterans Job Corps initiative (VJC). VA looks forward to working with 
Congress on developing this proposal, and believes we share the common 
goal of helping returning veterans transition from the military to 
civilian life utilizing the skills they gained while on active duty.
    The core idea of the Administration's VJC proposal is the same as 
that of S. 2130--provide Veterans, especially those just returning from 
service, employment opportunities while at the same time helping 
protect and preserve America.
    The Administration proposal is different from S. 2130 in four 
respects. First, it involves a wider range of conservation efforts by 
inviting proposals from the Department of Agriculture, the National 
Oceanic and Atmospheric Administration, , and the Army Corps of 
Engineers, as well as the Department of the Interior. We believe the 
Administration approach opens up a wider range of conservation 
opportunities.
    Second, the emphasis of the conservation program is on non-Federal 
job opportunities, although it envisions a limited number of direct 
Federal hires. The emphasis would be on creating job opportunities 
through contracts to businesses, cooperative agreements, and grants to 
non-Federal entities. We believe this broader approach would achieve 
more in providing opportunities in the private sector and with State 
and community organizations.
    Third, while the main focus of the program would be on conservation 
employment opportunities, the Administration's VJC proposal would also 
include a limited offset aside for first-responder job opportunities. 
The funding would be divided between the Department of Justice's COPS 
Hiring Grants and the Department of Homeland Security's SAFER grant 
program. Both of these grant programs currently have a Veteran hiring 
preference.
    Finally, the Administration's VJC proposal would create a Federal 
Steering Committee composed of policy officials representing 
implementing Federal agencies, to select projects for funding based on 
selected criteria. VA would additionally serve in an administrative 
leadership role on the Federal Steering Committee, utilizing its 
understanding of Veterans and its expertise in Veterans employment in 
consideration of grant selections. The Administration has included $1 
billion in its FY 2013 budget request to support the Veterans Job Corps 
over the next five years.
S. 2179
    S. 2179, the ``Military and Veterans Educational Reform Act of 
2012,'' is intended to improve oversight of educational assistance 
provided by VA and DOD.
    Section 2 of the bill would amend section 3675 of title 38, United 
States Code, by requiring additional approval requirements of 
educational programs providing educational assistance under laws 
administered by VA and DOD.
    The bill would also require an educational institution to submit an 
application for approval of courses to the appropriate SAA. The 
application must include a copy of the school's catalog or bulletin 
that has been certified as true and correct that it--

    <bullet> states specific requirements of the institution with 
respect to graduation;
    <bullet> includes the information regarding standards of progress 
and conduct; and
    <bullet> includes any attendance standards of the institution, if 
the institution has, and enforces, such standards.

    Section 2 of the bill also would amend section 3676 of title 38, 
United States Code, to indicate that no course of education that has 
not been approved by ED can be approved by VA or the SAA unless it 
meets certain specified criteria. This section also would amend section 
3676 to include several additional requirements for courses not 
approved by ED.
    VA does not support section 2. Currently, VA or SAAs can approve a 
course if it meets the requirements provided in section 3675 or 3676 of 
title 38, United States Code. Courses accredited by an agency 
recognized by ED are already deemed approved for VA education benefits. 
Section 2 would require schools to provide job placement rates and 
information that would substantiate the ``truthfulness'' of the job 
placement rate. It is unclear whether the information obtained would be 
based on Veterans who merely provide supporting information on job-
placement rates rather than being based on job-placement rates for all 
for those who attend the school. VA assumes the job-placement rate 
criteria will vary from school to school; therefore, VA may find 
difficulty validating the truthfulness of the information received.
    Similarly, it is unclear how VA would verify misrepresentations 
regarding the nature of financial charges or the employability of 
graduates. While VA is aware that ED utilizes gainful employment 
requirements in a recognized occupation to determine eligibility for 
Federal aid (34 CFR Sec. 668.7), VA believes ED is better positioned to 
make an assessment of courses (programs) meeting minimum standards with 
regard to gainful employment.
    VA will provide a cost estimate regarding section 2 as soon as it 
becomes available.
    Section 3 of S. 2179 would amend section 3672 of title 38, United 
States Code, to require educational institutions to disclose specific 
course information to current Veteran students, future Veteran 
students, and the public as a prerequisite for receiving course 
approval.
    This required information would have to be disclosed and made 
readily available in a uniform manner, such as through publications, 
mailings, or electronic media, in language that could be easily 
understood by Veterans and other students. This section would become 
effective on August 1, 2013.
    VA supports the intent behind section 3 and agrees that information 
pertaining to job placement, graduation and dropout rates, refund 
policies, policies on transfer of course credit, and tuition and fees 
charged for the course of study would improve transparency and is 
important information for students making decisions about their 
education. However, we are concerned that the policies in section 3 
would create areas of overlap with the new information disclosures 
required by the Principles of Excellence in EO 13607, leading to 
redundancy and confusion. Given this concern, VA cannot support the 
legislation.
    VA will provide a cost estimate as soon as it becomes available.
    Section 4 of S. 2179 would require an educational institution with 
20 or more covered individuals enrolled in programs of education at the 
educational institution to provide adequate academic and student 
support services (as determined by VA), including remediation, 
tutoring, and career and job-placement counseling services to covered 
individuals. VA may, on a case-by-case basis, waive the requirement to 
provide services for an educational institution for an academic year if 
VA determines that the educational institution has demonstrated that 
providing such services during such academic year would lead to severe 
financial hardship, and the educational institution submits to VA a 
plan to provide such services during the following academic year.
    Under section 4, an educational institution would not be approved 
under chapter 36 unless it employs a not less than one full-time 
equivalent employee to act (on a full-time basis) as a point of contact 
for covered individuals on matters relating to educational assistance 
available under titles 38 and 10 who is knowledgeable about such 
educational assistance and such other financial aid, admissions, 
counseling and referral services, and other matters relating to post-
secondary education as are important to the educational success of 
covered individuals.
    With respect to enrollment in a program of education, a covered 
individual is one who is receiving educational assistance under 
chapters 30 through 36 of title 38 or under chapters 106A and 1606 of 
title 10. This section would become effective on August 1, 2013.
    VA supports the intent behind section 4 of S. 2179, and believes 
this would complement existing VA programs and policies to ensure 
Veteran-student success in academic programs, but has significant 
concerns about the burden it would place on educational institutions.. 
VA's FY 2013 Budget included $5.9 million to expand VA's VetSuccess on 
Campus program to a total of 80 campuses, in addition to the 
educational counseling the Department plans to provide to 12,000 
Servicemembers and Veterans under its authority in Chapter 36 contract 
counseling. Furthermore, compliance with the Principles of Excellence 
established in the Executive Order, requires each campus designate a 
point of contact to provide academic and financial advising to Veterans 
and Servicemembers, each of whom will be provided with an educational 
plan.
    Based on statistics in the 2010 calendar year, there were more than 
4,000 schools with 20 or more recipients of VA education benefits. As 
the Post-9/11 GI Bill continues to grow, the number of schools with 20 
or more recipients will likely increase. Small institutions may not 
have the funds to hire a dedicated individual to provide the services 
required by this section.
    VA will provide a cost estimate as soon as it becomes available.
    Section 5 of this bill would require that, as a condition of 
receipt of reimbursement for administrative expenses under section 3674 
of title 38, each SAA shall conduct such education and outreach 
activities for individuals who are eligible to receive or are receiving 
educational assistance under any of chapters 30 through 36 of title 38 
as VA considers appropriate to assist such individuals in making well 
informed choices about their education and successfully transitioning 
into an educational environment.
    Each SAA conducting outreach activities would be required to 
coordinate with DOD to ensure, as DOD considers appropriate, that 
information on educational assistance available under chapters 30 
through 36 of title 38 is made readily available as part of the 
Transition Assistance Program in the state of the SAA concerned.
    Information made available as part of education and outreach 
activities under this section would have to be provided: (1) in 
language that can be easily understood by eligible individuals; (2) in 
a uniform and easily accessible manner; and (3) through such means as 
may be appropriate and effective, including through publications, 
mailings, and electronic media.
    Each year, each SAA, as a condition of receiving reimbursement of 
expenses, would be required to conduct such audits as VA considers 
appropriate, including unannounced audits and audits using risk-based 
approaches, of educational institutions under its jurisdiction that 
have students enrolled in programs of education for which they are 
receiving educational assistance under title 38, United States Code, 
(without regard to whether VA or the SAA approved the courses offered) 
in such state. The purposes of such audits would be to detect 
misrepresentation, fraud, waste, and abuse; to ensure full compliance 
with the provisions of chapter 36; and for such other purposes as VA 
considers appropriate.
    Each State in which a contract or agreement is entered into would 
be required to submit to VA a report including the following:

    <bullet> The number of visits made by the agency to educational 
institutions, including the number of such visits that were made 
without the prior knowledge of such educational institution.
    <bullet> A description of the audits carried out by the agency 
under section 3673(d)(2) of title 38 and the findings of the agency, 
including any substantiated findings of misrepresentation, fraud, 
waste, abuse, or failure to comply with an applicable requirement of 
this chapter and the steps taken by the agency to address such fraud, 
waste, abuse, or failure to comply.
    <bullet> A description of the outreach and training activities 
conducted by the agency under section 3674B of title 38.
    Section 5 would become effective on August 1, 2013. VA will provide 
views and a cost estimate for this section as soon as it becomes 
available.
    Section 6 of S. 2179 would require VA to conduct, in addition to 
annual compliance surveys, a compliance review, in accordance with such 
regulations as VA shall prescribe, of an educational institution when 
VA finds any of the following:

    <bullet> The number of student enrollments at, or the rate of 
student enrollments of, the educational institution has increased 
rapidly;
    <bullet> The student dropout rate of the institution has increased 
rapidly;
    <bullet> The cohort default rate of the educational institution has 
increased rapidly or is consistently higher than the average of cohort 
default rate of comparable educational institutions;
    <bullet> The number of substantiated complaints filed under section 
3697C(a)(1) of title 38 with respect to the educational institution has 
increased rapidly or is consistently higher than the number of 
substantiated complaints filed with respect to other comparable 
educational institutions;
    <bullet> The educational institution is the subject of a civil 
lawsuit in Federal or state court, is charged with a crime under 
Federal or state law, or is the subject of an official investigation of 
a state or Federal agency for misconduct;
    <bullet> The educational institution has significant growth in 
revenue resulting from tuition, including tuition paid with assistance 
provided under chapters 30 through 36 of title 38, or chapters 106A or 
1606 of title 10, which cannot be attributed to changes made to such 
chapters by Acts of Congress or changes to the administration of such 
chapters; or
    <bullet> Such other findings as VA considers warrant conducting a 
compliance survey.

    Section 6 would become effective on August 1, 2013. While VA agrees 
that compliance reviews would improve oversight of a school's 
performance as it relates to Veterans, we believe ED is best positioned 
to review post-secondary enrollment and default rates, as well as 
monitor information pertaining to civil lawsuits for misconduct against 
a school in Federal or state courts.
    VA opposes criteria that would penalize a school because of a 
lawsuit unless there has been an adverse judgment ordered by a court. 
This section could also unduly punish a school that has significant 
growth in revenue in tuition because Veterans used their benefit at 
that school. Unless the school has done something warranting a judgment 
of misconduct, VA finds no reason to scrutinize the school by way of a 
special compliance review.
    VA will provide a cost estimate for this section as soon as it 
becomes available.
    Section 7 of the bill would amend chapter 36 of title 38, United 
States Code to add a new section 3697B, ``Required one-on-one 
educational counseling'' that would require VA to provide counseling to 
all individuals considering using educational assistance under chapters 
30 through 36 of title 38 at or before the individual's enrollment in a 
program of education. Section 7 of the bill also would require VA to 
establish procedures by which individuals may receive this counseling 
when providing it in person is not practicable. VA and DOD would be 
required to provide a link or links on VA's Web site(s) to the College 
Navigator Internet Web site of the ED to inform Veterans and 
Servicemembers of the resources available at that Web site. Section 
3697A of title 38 provides for educational and vocational counseling 
for eligible individuals and transitioning Servicemembers. Section 7 of 
S. 2179 would also amend the title of section 3697A to read, 
``Educational and vocational counseling by election.''
    VA believes that the provision of counseling and information is 
important to help Veterans and Servicemembers make informed decisions 
about educational opportunities and the use of available benefits. In-
person, one-on-one educational and vocational counseling is currently 
available to all Veterans and Servicemembers who are eligible for 
educational assistance from VA or are transitioning from military 
service. Such counseling is currently provided by qualified counselors 
and consists of most of the elements described in S. 2179, including an 
overview of available VA educational assistance, a personalized 
academic and career plan, and a discussion of the impact of enrollment 
in a particular educational institution. The information related to 
educational institutions' accreditation and outcomes that would be made 
available to individuals under this section is currently available from 
the ED. VA supports helping individuals access and understand this 
information through the educational and vocational counseling currently 
provided by VA. Under the Executive Order, VA will provide individuals 
with critical information, including school performance information 
over time, consumer protection information, and key financial aid 
documents, prior to the use of their benefits through the eBenefits 
portal.
    VA does not support the requirement in section 7 of S. 2179 to make 
educational counseling mandatory. This requirement could result in 
delays for individuals who wish to enroll in educational institutions 
and unnecessary denials of claims for assistance. Veterans and 
Servicemembers have access to counseling through the Transition 
Assistance Program and through information provided on VA Web sites. 
Under the Executive Order, students will also have access to this 
information through the eBenefits portal. However, VA supports the 
inclusion of a link to the College Navigator Internet Web site on a VA 
Web site to inform Veterans and Servicemembers of the availability and 
benefits of using the College Navigator Internet Web site.
    VA will provide a cost estimate regarding this section as soon as 
it becomes available.
    Section 8 of S. 2179 would require that, not later than 180 days 
after the date of the enactment, VA and DOD shall each establish by 
regulation a process whereby persons are able to submit to the 
Departments, including by way of SAAs, complaints regarding educational 
institutions relevant to the provision of educational assistance 
provided under chapters 30 through 36 of title 38 and under chapters 
106A and 1606 of title 10, including complaints regarding 
misrepresentation, fraud, waste, and abuse. The process shall establish 
procedures to address complaints in a timely manner, including review 
and investigation of such complaints. Each year, VA and DOD would be 
required to compile the information they collect and share such 
information with each other as well as ED, as allowed under current 
law.
    Not later than 180 days after the date of the enactment of S. 2179, 
VA and DOD would be required to establish, by regulation, a process by 
which information may be reported to ED and to each other regarding 
information with respect to substantiated acts by educational 
institutions of misrepresentation, fraud, waste, abuse, or failure to 
comply with an applicable requirement of chapter 36 or other 
information considered appropriate and relevant to the purpose and 
effective implementation of Federal programs of educational assistance 
provided by the respective departments.
    Not later than 180 days after the date of the enactment of this 
bill, ED would be required to establish a process to notify VA and DOD 
of the following with respect to educational institutions:

    <bullet> Substantiated acts by educational institutions of 
misrepresentation, fraud, waste, or abuse;
    <bullet> Loss of accreditation;
    <bullet> Loss of eligibility under title IV of the Higher Education 
Act of 1965 (20 U.S.C. 1070 et seq.);
    <bullet> Report by a Federal or state agency or a nationally 
recognized accrediting agency or association as failing to comply with, 
or having a significant risk of failing to comply with, a provision of 
Federal or state law or a requirement that is a condition for 
accreditation established by a nationally recognized accrediting agency 
or association; and
    <bullet> Such other information as ED considers appropriate.

    At least annually, VA and DOD would be required to submit to 
Congress separate reports on the provision of educational assistance 
under their respective authorities. Each report would be required to 
include, for the period covered by the report and disaggregated by for-
profit and not-for-profit educational institutions, the following:

    <bullet> The number of individuals who received assistance under 
laws administered by the respective Secretary;
    <bullet> The amounts of assistance provided;
    <bullet> A description of any complaints reported to the respective 
Secretary or SAAs by such individuals;
    <bullet> All substantiated reports of misrepresentation, waste, 
fraud, abuse, or other acts that are inconsistent with the requirements 
of the respective educational assistance authorities;
    <bullet> A list of educational institutions which had courses of 
education that were approved in the previous year but were found, in 
the year covered by the report, not in compliance with a requirement;
    <bullet> Such recommendations for legislative or regulatory action 
as the respective Secretary considers appropriate to improve the 
provision of educational assistance under the laws administered by the 
respective Secretary;
    <bullet> An assessment of the academic performance of individuals 
who received educational assistance, including graduation rates and 
dropout rates; and
    <bullet> A list of educational institutions that were approved 
under the respective authorities, disaggregated by educational 
institutions approved under section 3676 of title 38.

    VA supports the intent behind section 8 of the bill and is already 
taking steps, as outlined in the Executive Order, to evaluate existing 
systems and development of new systems to address these concerns. VA 
will provide a cost estimate for this section as soon as it becomes 
available.
S. 2206
    Section 2 of S. 2206, the ``GI Educational Freedom Act of 2012,'' 
would require any individual eligible for educational assistance 
through VA to be provided educational and vocational counseling 
services before the receipt of such educational assistance, unless the 
individual specifically declines such counseling. The bill outlines 
information to be included in such counseling, and would direct VA to 
make such information available to the public.
    VA does not support the requirement in section 2 that an individual 
either receive or clearly decline this counseling before the individual 
may receive educational assistance. This could result in delays for 
individuals who wish to enroll in educational institutions and 
unnecessary denials of claims for assistance. A Veteran who applies for 
benefits in early August and wishes to begin using benefits for the 
fall term starting on August 20 would not be able to receive those 
benefits until VA is able to schedule and provide counseling. More than 
900,000 individuals use VA education benefits each year; therefore, it 
may take several months to schedule and complete counseling. 
Individuals who do not respond to VA's invitation to participate in 
counseling, but who also do not clearly decline, would not receive any 
benefits until a follow-up contact is made and the individual's 
decision is clearly documented. VA may be unable to authorize benefits 
when the individual cannot be contacted or when a decision is not 
clearly documented.
    VA believes that the provision of counseling and information is 
important to help Veterans and Servicemembers make informed decisions 
about educational opportunities and the use of available benefits. 
Educational and vocational counseling is currently available to all 
Veterans and Servicemembers who are eligible for educational assistance 
from VA or are transitioning from military service. It is currently 
provided by qualified counselors and may include an overview of 
available VA educational assistance, a personalized academic and career 
plan, and a discussion of the impact of enrollment in a particular 
educational institution. Veterans and Servicemembers are currently 
informed of the availability of such counseling through the Transition 
Assistance Program and through information provided on VA Web sites, 
including VetSuccess.gov and the eBenefits portal.
    VA also supports providing Veterans with information about the 
policies and performance of educational institutions.
    Section 3 of the bill would amend section 3697 of title 38, United 
States Code, to repeal the $6 million fiscal year limit on VA 
contracting for educational and vocational counseling services.
    VA recognizes that the $6 million funding level is inadequate, and 
proposed in its fiscal year 2013 budget submission to raise that cap to 
$7 million. VA recommends that change instead of removal at the cap, 
and will continue to monitor demands on the program.
    Further, section 4 of S. 2206 would direct VA to establish a system 
to collect, process, and track complaints submitted by individuals 
enrolled in VA programs of education to report instances of fraud, 
waste, and abuse with respect to benefits and services provided by 
educational institutions. It would require an SAA, when considering 
whether to approve a course of education at an educational institution, 
to review and take into consideration the complaints processed and 
tracked by such system. The bill also would provide for the 
confidentiality of such complaints.
    VA supports the intent underlying section 4. As outlined in the 
Executive Order, VA is already evaluating existing systems and 
development of new systems to address these concerns.
    As part of the existing approval process, SAAs assess recruiting 
practices for indications of deceptive or misleading information 
provided to potential students.
    VA will provide a cost estimate for S. 2206 as soon as it becomes 
available.
S. 2241
    S. 2241, the ``GI Consumer Awareness Act of 2012,'' would ensure 
that Veterans have the information and protections they require to make 
informed decisions regarding use of Post-9/11 GI Bill assistance.
    Section 2 of the bill would add a new section to chapter 36 of 
title 38, United States Code, requiring VA to collect and publish to 
Veterans, Servicemembers, and eligible spouses and dependents detailed 
and extensive information about educational institutions and the 
programs of education available to such individuals. If the information 
required for publication is collected from educational institutions by 
DOL, ED, DOD, or other Federal agencies, VA would collect the 
information from those departments, rather than the educational 
institution. VA, DOD, and ED would form a partnership to facilitate the 
data collection process. VA would be responsible for reimbursing the 
agencies for any costs related to consulting and collaborating with VA. 
The information would not be collected if the number of students at an 
educational institution does not provide statistically-reliable 
information or the results would reveal personal identifiable 
information about an individual student.
    In addition, section 2 of S. 2241 would require that all VA call 
center employees receive appropriate training on the published 
information not later than one year after enactment.
    VA supports the intent behind section 2 of this bill but believes 
that the current efforts with other Departments, as outlined in the 
Executive Order, will accomplish many of these same goals.
    VA supports providing all call center employees with effective and 
appropriate training on the information being collected under this 
section; however, there may be additional costs associated with 
developing such a comprehensive training program.
    VA defers to DOD regarding the remaining provisions in this 
section.
    Section 3 of the bill would amend chapter 36 of title 38 by adding 
a new section that would require educational institutions to meet 
specified additional requirements in order to obtain approval of a 
course of education.
    Under section 3, a course of education could not be approved if the 
educational institution requires a student to waive the right to legal 
recourse under any otherwise applicable provision of Federal or state 
law or to submit to arbitration, or imposes onerous legal notice 
provisions in the case of a dispute with the educational institution.
    The provisions of section 3 would take effect 180 days after the 
date of enactment.
    VA does not oppose enactment of the provisions in section 3.
    Section 4 of S. 2241 would amend title 38 to require VA to develop 
policies to curb aggressive recruiting. Not later than 90 days after 
the date of the enactment, VA and DOD would be required to jointly 
develop policies to curb aggressive recruiting of Veterans and members 
of the Armed Forces by educational institutions.
    Section 4 of the bill would add a new section to title 38 that 
would prohibit VA approval of a course if the educational institution 
uses inducements or provides any gratuity, favor, discount, 
entertainment, hospitality loan, transportation, lodging, meals, or 
other item having a significant monetary value to any individual or 
entity (other than salaries paid to employees or fees paid to 
contractors in conformity with all applicable provisions of the law) 
for the purpose of securing enrollments.
    This section would require VA and DOD, in consultation with ED, to 
establish a working group, not later than 60 days after the date of the 
enactment of the Act, to coordinate consumer protection efforts and 
develop policies related to post-secondary education and recruitment of 
Veterans and Servicemembers. The working group would conduct surveys 
with Veterans and Servicemembers to obtain feedback on the educational 
assistance they received and the program of education. The working 
group also would review marketing and recruiting efforts utilized by 
educational institutions and monitor the overall post-secondary 
education market for developments that affect Veterans and 
Servicemembers. The working group would consult with other relevant 
Federal agencies on their findings.
    The working group would be required to submit a report to Congress, 
no later than 180 days after enactment, showing findings, actions 
taken, policies developed, and recommendations for action to be taken.
    This section also would require VA and DOD to establish policies 
regarding conflicts of interest between their employees and educational 
institutions.
    VA supports the intent behind section 4; however, VA already has 
existing policies in place that address these concerns. VA is already 
working with other agencies on policies regarding post-secondary 
education and recruitment of Veterans and Servicemembers. As of 
August 1, 2011, standard degree programs offered at accredited public 
and private not-for profit schools are deemed approved for VA education 
benefits without separate SAA approval, per section 203 of Public Law 
111-377, the Post-9/11 Veterans Educational Improvements Act of 2010. 
In other cases, SAAs evaluate programs offered by each academic 
institution to determine whether their quality and offerings are 
similar to other programs offered in the state. If they are not, the 
SAA will not approve the program. This takes into account compliance 
with state and VA statutes, including those pertaining to 
misrepresentation or deceptive marketing.
    Section 5 of S. 2241 would require an assessment of the quality and 
delivery of career information and counseling provided to Veterans and 
Servicemembers.
    Section 5 of the bill also would require collaboration between VA, 
DOD, and DOL, particularly with regard to improving the One-Stop 
delivery system and the Transition Assistance Program. In addition, not 
later than 180 days after enactment, VA would be required to submit a 
report to Congress on the results of the assessment required under 
section 5, including recommendations for the improvement of career 
counseling services.
    VA supports efforts to evaluate current processes and improve 
service delivery to Veterans and Servicemembers. VA believes that an 
assessment of the quality and delivery of career information and 
counseling as outlined under section 5 of S. 2241 and provided by VA to 
Servicemembers and Veterans would require a contracted study. The study 
would include a randomized sample of individuals that had received 
educational and vocational counseling under section 3697A of title 38, 
United States Code. Such a study to assess the process and outcomes of 
this counseling would take at least one year to complete and would 
require funding through congressional appropriation. Therefore, VA does 
not believe that the results of such a study could be included in a 
report to Congress within 180 days of the enactment as specified under 
section 5 of the bill.
    VA supports efforts to collaborate, coordinate, and share 
information among programs serving Veterans and Servicemembers and is, 
therefore, more than willing to work with other government departments 
as outlined in section 5 of the bill to assist Veterans and 
Servicemembers with their transition to civilian life.
    Section 3697A of title 38, United States Code, provides for 
educational and vocational counseling for transitioning Servicemembers. 
Section 6 of S. 2241 would remove the condition that Servicemembers be 
within 180 days of discharge to receive this counseling and would add 
the conditions that a Servicemember be on active duty and have served 
on active duty at least 180 days. Section 6 of the bill would also 
remove the restriction that a Veteran be within one year of discharge 
from active duty in order to receive these counseling services.
    VA does not support section 6 of S. 2241 because the bill would 
authorize payment of costs for educational and career counseling to 
Servicemembers at times when they are not in transition from military 
to civilian life. Under the provisions of this bill, section 3697A(a), 
as amended, would authorize counseling to all active-duty 
Servicemembers who have served at least 180 days ``upon such 
individual's request.'' Therefore, a Servicemember could receive 
counseling multiple times each year for many years throughout a long 
military career. VA accepts the responsibility to help transitioning 
Servicemembers make the adjustment from military to civilian careers 
and become established in their civilian communities. However, VA 
believes that providing counseling to Servicemembers multiple times 
throughout their enlistments and military careers is not a function of 
transition to civilian life and, therefore, more appropriate as a DOD 
activity.
    Section 7 of S. 2241 would amend chapter 36 of title 38, United 
States Code, by adding a new section that would require VA to establish 
procedures for fielding complaints from students regarding their VA 
education benefits. The complaints would be stored in a database to 
enable VA to improve service to beneficiaries, educational and 
vocational counseling, and to identify problems with the programs of 
education or assistance.
    VA supports the intent behind section 7. As outlined in the 
Executive Order, VA is already evaluating existing systems and 
development of new systems to address these concerns. Section 8 of 
S. 2241 would require VA, DOD, and ED to collect and disseminate 
information about best practices in helping VA beneficiaries utilize 
their benefits in the most productive way. The information would be 
disseminated one year after enactment, as well as two and four years 
after enactment. VA would consult with Veterans' service organizations 
and educational institutions to acquire the needed information. VA 
supports the intent behind section 8; however, we believe this section 
would duplicate the information being collected and published in 
section 2 of this bill.
    Section 3697 of title 38, United States Code, provides funding from 
the readjustment benefits account, not to exceed $6 million in any 
fiscal year for the educational and vocational counseling for 
transitioning Servicemembers authorized in section 3697A to be 
delivered through contracts arranged by VA. Section 9 of the bill would 
remove the annual $6 million limitation on funding for these contracts.
    VA recognizes that the $6 million funding level is inadequate, and 
proposed in its fiscal year 2013 budget submission to raise that cap to 
$7 million. VA recommends that change instead of removal at the cap, 
and will continue to monitor demands on the program.
    Section 10 of the bill would require VA to designate points of 
contact to assist educational institution personnel who are responsible 
for submitting reports to VA. This section would be effective not later 
than 90 days after enactment.
    VA does not oppose this section. VA currently has employees who are 
responsible for maintaining direct contact with educational 
institutions. VA's education liaison representatives (ELRs) are the 
primary points of contact for school officials. ELRs have a wide range 
of responsibilities in support of education benefits programs and work 
closely with school officials to inform them of changes in VA policies 
and procedures.
    Section 11 of the bill would require VA to create a report that 
includes a list of all schools with VA education beneficiaries, the 
number of beneficiaries enrolled at each institution, and the total 
dollars paid to the beneficiaries at each institution during the last 
academic year. The report would be required to be presented to Congress 
no later than 180 days after enactment. VA does not oppose this 
section.
    VA defers to DOD with regard to section 12 pertaining to 
performance metrics for DOD education and workforce training programs.
    VA will provide a cost estimate for S. 2241 as soon as it becomes 
available.
S. 2246
    S. 2246, the ``TAP Modernization Act of 2012,'' would direct the 
DOL to provide the Transition Assistance Program (TAP) during a three-
year period to Veterans and their spouses at locations other than 
military installations in three-to-five states selected by DOL. DOL 
would select states that have the highest rates of Veteran unemployment 
and would provide a sufficient number of training locations to 
facilitate access by participants to meet the need in each state. DOL 
also would include in any TAP contract a requirement for experts in 
subject matters relating to human resources practices, including resume 
writing, interviewing and job searching skills, and the provision of 
information about post-secondary education.
    Reports to Congress would be required in each year of the training, 
and after the termination of the three-year period, the Comptroller 
General of the United States would submit to Congress a report on the 
training, to include the feasibility of carrying out off-base 
transition training at locations nationwide.
    VA defers to DOL on the merits of S. 2246; however, VA is required 
to participate in TAP briefings. Therefore, we note the following 
economic impact on VA. Assuming the effective date of the bill would be 
October 1, 2012, VA's estimated administrative expenses would be $1.3 
million the first year and $4.5 million over three years.
                             other matters
S. 1184
    S. 1184 would amend section 8127(g) of title 38, United States 
Code, to mandate a minimum 5-year debarment from VA contracting for any 
business, including the principals of the business, determined by the 
Secretary to have misrepresented its status as a Veteran-owned or 
service-disabled Veteran-owned small business (VOSB/SDVOSB). Further, 
the bill would require VA to commence a debarment action within 30 days 
of determining the misrepresentation has occurred and to complete the 
action within 90 days.
    VA shares the Committee's focus on aggressively protecting the 
Government from disreputable businesses in order that procurement 
dollars set aside for VOSB/SDVOSBs reach the intended recipients. VA 
has taken steps to protect the integrity of the VOSB/SDVOSB set-aside 
process. VA has added to its acquisition regulations the 
misrepresentation of VOSB/SDVOSB status as a specific cause of 
debarment for a period of up to 5 years. Also, VA has instituted a 
separate and distinct 8127 Debarment Committee to review, examine, and 
refer those who misrepresent themselves to VA's debarring official.
    While we support the general intent behind the bill, VA cannot 
support S. 1184 in its present form. VA questions whether a mandatory 
debarment as proposed would be consistent with the general requirement 
in debarment actions established by the courts to provide appropriate 
due process, notice and an opportunity to be heard, to businesses prior 
to a final determination of debarment. VA also submits that there are 
varying degrees of misrepresentation of VOSB/SDVOSB status. Some may be 
the result of an ``innocent'' mistake whereas others evince a clear 
desire to circumvent the VOSB/SDVOSB status requirements by ``seducer'' 
companies or individuals to steer set-aside dollars to non-status firms 
or persons.
    VA believes the debarring official should retain the discretion to 
make these determinations with respect to any debarment, including its 
duration, remedial measures and corrective actions to prevent the 
misconduct from recurring, based on the specific circumstances. VA 
requests the opportunity to work with the Committee to address its 
concern of protecting the VOSB/SDVOSB set-aside program while 
maintaining an equitable debarment process consistent with the 
requirement for an appropriate level of due process, including ways of 
improving VA's debarment authority.
    VA estimates that enactment of this bill as written would result in 
no significant cost, since VA already has a standing ``8127 Debarment 
Committee.''
S. 1798
    S. 1798, the ``Open Burn Pit Registry Act of 2011,'' would require 
VA, not later than 180 days after enactment, to establish and maintain 
a registry for eligible individuals who may have been exposed to toxic 
chemicals and fumes caused by open burn pits. The bill would define an 
``open burn pit'' as an area of land located in Afghanistan or Iraq 
that the Secretary of Defense designates for use for the disposal of 
solid waste by means of burning in the outdoor air without the use of a 
commercially manufactured incinerator or other equipment specially 
designed and manufactured for the burning of solid waste. It would 
define ``eligible individual'' as anyone who, on or after September 11, 
2001, was deployed in support of a contingency operation while serving 
in the Armed Forces and who during such deployment was based or 
stationed at a location where an open burn pit was used.
    S. 1798 would also require VA to include in the registry any 
information that VA deemed necessary to ascertain and monitor the 
health effects of such exposure. It also would require VA to develop a 
public information campaign to inform eligible individuals about the 
registry and to periodically notify them of significant developments in 
the study and treatment of conditions associated with exposure to toxic 
chemicals and fumes from open burn pits. Additionally, VA would have to 
enter into an agreement with an independent scientific organization to 
report on the effectiveness of the Department's actions to collect and 
maintain information on the health effects associated with this 
particular type of environmental exposure. Specifically, the 
organization would be required to make recommendations on how the 
Department may improve its efforts (in collecting and maintaining 
registry information) and on the most effective and prudent means of 
addressing the medical needs of this cohort for conditions likely to 
result from their exposure to toxic chemicals and fumes from open burn 
pits.
    Further, S. 1798 would require VA to submit the scientific 
organization's report to Congress not later than 18 months after 
establishment of the registry.
    VA does not support S. 1798 for three major reasons. First, VA can 
identify all Servicemembers that deployed to Iraq and Afghanistan and 
has used this information in the development of an injury-and-illness 
surveillance system. Second, the most recent Institute of Medicine 
report on burn pits identified air pollution, rather than smoke from 
burn pits, as the most concerning potential environmental hazard. 
Third, all Iraq or Afghanistan Veterans are eligible for cost-free 
health care for a period of 5 years after discharge or separation from 
active-duty military service.
    Special authority for such a registry is not required. In carrying 
out the Department's medical and research missions, VA may already 
establish under existing authority any needed health registry. Pursuant 
to section 703(b)(2) of Public Law 102-585 (1992), VA may also provide, 
upon request, an examination, consultation, and counseling to any 
Veteran who is eligible for inclusion in any Department health 
registry. S. 1798, therefore, duplicates existing authorities.
    We do not believe that a health registry is the appropriate 
epidemiological tool to use in identifying possible adverse health 
effects associated with certain environmental exposures. Health 
registries by their nature can only produce very limited and possibly 
skewed results. The major purpose of a registry is to enable medical 
follow-up and outreach efforts of those potentially exposed to an 
environmental hazard. Studies of self-selected individuals, such as 
those in a registry, are not representative of an entire population of 
potentially-exposed individuals; they may, therefore, lead to false 
associations as to cause of perceived or actual illnesses. Indeed, for 
years, VA has maintained an Agent Orange health registry and a Gulf War 
health registry. While useful for outreach purposes, neither of these 
registries has been useful in terms of researching the types of health 
concerns raised by these Veterans. In addition to the issue of self-
selection, there are other reasons why studies of registry populations 
are not useful, including exposure misclassification (self-reported but 
with no availability of data to support amount and time of exposure) 
and an inability to link to medical records to substantiate concerns 
about illnesses (not all registrants receive care from VA). We also 
note the particular timeframes under the bill are far too short to 
produce scientifically valid evidence.
    VA and DOD have established a detailed action plan that includes 
research, clinical protocols, outreach, and education. VA believes the 
most effective way to capture the most complete and representative 
information on adverse health effects, including exposure to burn pits, 
among the Operation Enduring Freedom/Operation Iraqi Freedom/Operation 
New Dawn (OEF/OIF/OND) cohort, and all other cohorts, is to conduct a 
comprehensive, prospective study of long-term adverse health effects. 
VA and DOD are already engaged in several focused studies on health 
effects related to this cohort, including DOD's Millennium Cohort Study 
and VA's New Generation Study. Both studies are providing valuable 
insights into respiratory disease incidence in Veterans and 
Servicemembers in the OIF/OEF/OND cohort. VA is planning a large-scale 
epidemiological study that will provide improved understanding about a 
broad range of potential adverse health effects subsequent to 
deployment to OEF/OIF/OND. Additionally, VA and DOD are working 
together to establish a clinical protocol (expected to be complete by 
the end of the calendar year) to evaluate Veterans with respiratory 
complaints after deployment. VA and DOD are planning an airborne 
hazards symposium for both DOD and VA clinical providers during the 
fourth quarter of FY 2012. This combined and comprehensive approach 
will improve access to care and continuity to all Veterans and 
Servicemembers potentially exposed to airborne hazards while deployed.
    Finally, we note that combat-theater Veterans are eligible to 
enroll in VA health care up to 5 years after discharge or separation 
from service and receive free hospital care and medical services for 
conditions possibly related to their combat service. Eligible Veterans 
may take advantage of their VA health care benefits to obtain any 
desired medical advice on this topic as well as any needed medical 
services.
    VA estimates the total cost for S. 1798 would be $2.3 million 
during FY 2013, $6.2 million over 5 years, and $11.5 million over 10 
years.
S. 2299
    S. 2299, the ``Servicemembers Rights Enforcement Improvement Act of 
2012,'' would amend the Servicemembers Civil Relief Act (SCRA) and 
title 38, United States Code, to improve the provision of civil relief 
to members of the uniformed services and to improve the enforcement of 
employment and reemployment rights of such members. Because S. 2299 
would not affect the provision of VA benefits, VA defers to the 
Departments of Defense and Justice concerning this bill.
S. 3082
    Section 2 of S. 3082 would amend title 38, United States Code, by 
adding a new chapter 80, to establish a non-profit National Veterans 
Support Network, a federally-chartered corporation, for the primary 
purposes of--

    <bullet> raising awareness of, and educating the public as to the 
challenges facing military families and Veterans through educational 
and media campaigns;
    <bullet> providing analytical support to communities to track 
resources nationwide that support Veterans or military families and 
help communities align and scale such resources and develop and provide 
a best practices toolkit for these purposes;
    <bullet> establishing a community support grant program to create 
or expand community-based programs that--

         - contribute to fostering the readjustment and reintegration 
        of Veterans into their communities;
         - expand the capacity of such communities to provide services 
        and supportive activities in a continuous and coordinated 
        manner;
         - empower and engage Veterans; and
         - establish and sustain close working relationships between 
        one or more VA facilities and entities participating in such 
        community-based programs.

    <bullet> encouraging and promoting private gifts of monies and 
services in support of such grants and other programs, services and 
activities supporting military families and Veterans.

    The Corporation's secondary purposes would include the following:

    <bullet> Compiling, analyzing and organizing information on 
organizations, programs and activities that assist Veterans and 
military families;
    <bullet> Facilitating communication between the Secretaries of VA, 
DOD, DOL, and Homeland Security, the Director of Office of Personnel 
Management (OPM), private organizations, and organizations that have a 
mission to provide assistance to Veterans and their families, and 
promoting coordination of Veterans services and activities provided by 
these Secretaries and organizations.
    <bullet> Promoting coordination of services, programs and 
activities provided by the Secretaries and organizations described in 
the above paragraph;
    <bullet> Promoting national and community service activities 
serving Veterans and military families and increasing Veteran and 
military families participation in national and community service 
opportunities;
    <bullet> Referring/connecting private organizations seeking to 
support Veterans and their families to organizations that provide such 
support; and
    <bullet> Referring/connecting organizations and communities seeking 
to support Veterans and their families to Federal and private sector 
resources.

    The Corporation would consult with VA, DOD, and the heads of other 
appropriate agencies in carrying out its purposes.
    It would carry out support activities for the above purposes, 
either directly or through contracts or grants. In carrying out these 
support activities the Corporation would consult with VA, DOD, DOL, and 
the heads of other Federal agencies as the corporation deems 
appropriate.
    The new chapter 80 would also include provisions delineating VA 
involvement with the Corporation.
    The Corporation's Board of Directors would include the Secretaries 
of VA, DOD, DOL, and Homeland Security and the Director, OPM and other 
members as the VA Secretary deems appropriate serving as ex-officio 
non-voting members. The VA Secretary would select the Board members. In 
connection with four of those appointments, the Secretary would consult 
with the leadership of the Senate and House Committees on Veterans' 
Affairs.
    The Corporation could, with the VA Secretary's concurrence, 
authorize the use of its name, trademark, or other indicia in 
advertising by contributors/suppliers of goods/services to the 
Corporation. The Secretary, or the Corporation with concurrence of the 
Secretary, could authorize use of the VA name, seal, or other VA 
indicia in advertising by contributors/suppliers of goods/services to 
the Corporation.
    VA strongly supports the goals set out in this legislation. VA's 
partnerships with private organizations, from Veterans Service 
Organizations, the private sector, educational institutions, charitable 
and non-profit organizations, hospitals, faith-based organizations and 
others outside VA are vital to what VA does to serve Veterans and their 
families. They help us in every part of the organization, at every 
level. They are partners in caring for our Wounded Warriors, in our 
push to end Veteran homelessness and unemployment, in assisting 
Veterans prepare well-developed disability claims that will help them 
secure benefits due them as expeditiously as possible, and in helping 
the National Cemetery Administration provide deceased Veterans the 
final honors they have earned. The many other ways these organizations 
serve Veterans are too numerous to list here.
    These partners are force-multipliers, and we could not do our jobs 
without them. Not only do they assist and supplement our work, they 
provide a great deal of wise and experienced counsel derived from the 
needs they witness as frontline service providers in the community.
    S. 3082 seeks to add new dimensions to our partnerships with 
private organizations by establishing a National Veterans Support 
Network, which would carry out the purposes set out in the description 
of the bill above.
    As supportive as we are of bill's aspirations, VA sees 
complications arising from the organizational structure that would be 
established in the bill, and thus cannot offer support for S. 3082. 
With the great number and variety of ways VA serves Veterans, a fixed 
Board of Directors with 12 members selected by the Secretary would be 
limiting, in terms of organizations and perspectives and supportive 
causes that would effectively be granted official status and 
endorsement by VA. That could result in discord by the great number of 
worthy organizations and causes that aren't selected to be represented 
in some manner on the Board, or selected by the Board for grants or 
other attention.
    Allowing contributors and suppliers of goods and services to the 
Corporation the use of the VA name, seal and other indicia in their 
advertising, albeit with the Secretary's permission, would also create 
the appearance of official sanction or endorsement. We note that VA has 
never permitted the use of its seal or logo in advertising by private 
entities.
    The Corporation would be essentially autonomous, but would be 
required to consult with VA and other agencies ``in carrying out the 
purposes of the Corporation.'' While we presume the Corporation would 
endeavor to carry out this consultation for every significant action 
and in good faith, the Corporation's independence and the 
administrative challenges of coordination could present circumstances 
where the Board acts with the imprimatur of VA, but makes decisions 
that could be duplicative or work at cross purposes with VA programs.
    VA also has questions regarding the community grant program that 
would be established under the Corporation. It is unclear where 
accountability would lie in terms of oversight for the grants, follow-
up, and reporting, in addition for the potential described above for 
duplication or even conflict with VA programs.
    VA is proud of our work with private organizations, but 
recognizes--as this legislation does--that more can be done to elevate 
and expand their role. There are potentially other types of structures 
or configurations that could serve the same ends, such as adjustments 
to VA's gift acceptance authorities to allow VA to use donations more 
broadly to augment VA's services to fill identified gaps in services 
and respond to new and emerging needs in a timely matter.
    VA's roles and responsibilities as defined in S. 3082 would likely 
entail some relatively insignificant administrative costs, but they 
cannot be reliably predicted until the details of implementation are 
established.
    Again, the Department greatly appreciates the goals of this bill 
and we would be glad to work with the Committee to discuss these 
important topics further.
S. 3179
    Section 2(a) of S. 3179, the ``Servicemember Housing Protection Act 
of 2012,'' would amend section 303 of the Servicemembers Civil Relief 
Act (SCRA) by expanding foreclosure protections to surviving spouses. 
The SCRA protects Servicemembers who, due to their military service, 
cannot repay secured obligations created before their period of service 
began. Currently, if a holder of such an obligation files a legal 
action for foreclosure, seizure, or sale of the secured property 
during, or within 9 months after, a Servicemember's period of military 
service, the SCRA allows a court to stay the proceedings of a 
foreclosure or to adjust the obligation to preserve the interests of 
all parties. A sale, foreclosure, or seizure of property for a breach 
of such a secured obligation is not valid if made during, or within 9 
months after, the period of the Servicemember's military service, 
except in certain circumstances prescribed. If S. 3179 were enacted, 
the same protections would extend to a Servicemember's surviving 
spouse, as long as the Servicemember has died while in military service 
from a service-connected cause. The 9-month protection would begin on 
the date of the Servicemember's death.
    Section 2(b) of the bill would amend section 305 of the SCRA by 
allowing Servicemembers to terminate leases (of premises), without 
penalty, if they are assigned to or otherwise relocate to quarters of 
the United States or a housing facility under the jurisdiction of a 
uniformed service, including housing provided under the Military 
Housing Privatization Initiative. Currently, the protection only 
applies to (i) changes of permanent station from a location in the 
continental United States to a location outside the continental United 
States or from a location in a State outside the continental United 
States to any location outside that State, or (ii) deployment with a 
military unit, or as an individual in support of a military operation, 
for a period of not less than 180 days.
    VA respectfully defers to the Departments of Justice and Defense 
regarding the merits of this bill.

    Chairman Murray, this concludes my statement. I would be happy to 
answer any questions you or the other Members of the Committee may 
have.
                                 ______
                                 
     Posthearing Written Views Submitted by Hon. Eric K. Shinseki, 
             Secretary, U.S. Department of Veterans Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
    Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
                               education
    Question 1. Please describe the communication that VA has with 
servicemembers regarding their VA educational benefits.
    Response. VA provides letters at various intervals within an 
individual's service--at 12 months of service, 24 months of service, 
and six months prior to separation. These letters provide information 
about applying for and using VA education benefits to pursue 
educational goals. In addition, VA hosts an eBenefits Web site (https:/
/www.ebenefits.va.gov/ebenefits-portal/ebenefits.portal), which is a 
one-stop Web portal providing Servicemembers, Veterans, and their 
families with Web access for comprehensive health care and benefits 
information and self-service tools. The eBenefits Web site provides 
specific information on education benefits.
    VA also provides comprehensive information on all of the benefits 
offered by VA during the Transition Assistance Program (TAP) for 
separating Servicemembers, and VA specifically dedicates one hour of 
the four hour mandated briefing period to explain education benefits. 
VA instructors use adult learning techniques to engage Servicemembers 
and provide information to determine how VA education benefits can 
assist with transitioning to civilian life. VA assists in identifying 
the necessary forms and documentation needed to access VA education 
benefits utilizing VA Web sites, job aids, and handbooks. The VA 
education briefing also emphasizes the Post-9/11 GI Bill benefit.

    Question 2. What would be the effect on student-veterans of a 
process that relied on Title IV eligibility as a marker for what 
schools can receive GI Bill funds?
    Response. VA's approval criteria are outlined in statute and permit 
a multitude of educational programs to participate in the GI Bill 
programs, including accredited, non-accredited, non-college degree, 
apprenticeship, on-the-job training, and other programs. VA approved 
institutions and programs are more inclusive than are the Federal 
student aid programs authorized under Title IV of the Higher Education 
Act of 1965, which include only institutions and programs accredited by 
an agency recognized by the Secretary of Education.
    Eligibility to receive Title IV funds is not part of VA's approval 
criteria. VA approves schools that do not receive Title IV funds. This 
includes certain religious institutions as well as other institutions 
that are not accredited. If VA were to rely on the same criteria as 
Title IV or required participation in the Title IV programs, those 
schools and programs would no longer be available to Veteran students 
using GI Bill benefits.

    Question 3. Several bills pending before the Committee address 
educational counseling for servicemembers and veterans.
    a. How many of those eligible for educational counseling currently 
use this service?
    Response. In FY 2011, VA received 16,937 applications for Chapter 
36 services. VA does not currently have data on the number of 
individuals who received counseling under Chapter 36 in FY 2011 due to 
issues with corporate database reporting, which will be resolved no 
later than FY 2014.

    b. Do they primarily meet with VA employees or contract counselors?
    Response. Vocational Rehabilitation and Employment (VR&E) does not 
currently have data on the number of Veterans receiving counseling 
through contracted services versus a VA counselor due to issues with 
corporate database reporting, which will be resolved no later than FY 
2014. VR&E has approximately 800 Vocational Rehabilitation Counselors, 
whose primary mission is to serve disabled Veterans in the VR&E 
program. These counselors, as ancillary duties, also provide counseling 
to Servicemembers and Veterans eligible for chapter 36. VR&E has 
awarded 53 VetSuccess contracts to 31 rehabilitation providers across 
the Nation. These contracts include a line item for the provision of 
chapter 36 counseling. As these are indefinite delivery, indefinite 
quantity (IDIQ) contracts, the total number of contract counselors 
available at any given time may vary based on the government's 
requirements. Although a specific data breakdown is not available, VR&E 
Service estimates, based on a review of contracting expenditures and 
total number of applicants, that approximately two thirds or more of 
chapter 36 applicants are referred to a contract counselor.

    c. Where do these sessions take place?
    Response. Counseling can take place at a VR&E office, training 
facility, or military installation.

    d. What occurs during a typical counseling session?
    Response. Each Veteran is provided services unique to his/her own 
vocational needs; however, a standardized process is in place. 
Counseling services include:

    <bullet> Counseling to facilitate career decisionmaking for 
civilian and military occupations;
    <bullet> Interest and aptitude testing, initiating occupational 
exploration, and setting of occupational goals;
    <bullet> Educational and vocational counseling to choose an 
appropriate civilian occupation and develop a training program;
    <bullet> Academic and adjustment counseling to resolve barriers 
that impede success in training or employment, including selecting an 
academic institution; and
    <bullet> Information on VR&E and VA education benefits.

    Eligible Servicemembers and Veterans may apply for Chapter 36 
services using VA Form 28-8832. Once the application is received, a 
VR&E counselor or contract counselor contacts the Veteran to schedule 
an appointment. The process begins with vocational testing and 
assessments. Testing may consist of a computerized assessment or 
pencil/paper format that is scored by a VR&E counselor. Specific tests 
include career assessments, aptitude tests, and interest inventories. 
Scoring is based on baseline data determined by the author of the test, 
and scores are reported and discussed with the Servicemember or 
Veteran.
    Following testing, a comprehensive analysis of current aptitudes, 
interests, and abilities is conducted to determine a promising career 
path and any appropriate training. Counseling services are provided in 
person and can be in a single session or multiple sessions lasting from 
one hour to three hours. After services are completed, the 
Servicemember or Veteran walks away with the next steps as well as 
valuable insight into the career track, training facility, and training 
requirements needed to enter the civilian labor market based on their 
unique wants and needs. The VR&E counselor or contract counselor 
prepares a final report for the file noting the assessment and testing 
scores, discussions and determinations made, referrals provided, and 
next steps for the Servicemember or Veteran.

    e. What changes would be needed in order to prepare VA to take on 
mandatory counseling?
    Response. In the event that Chapter 36 counseling becomes mandatory 
for active duty Servicemembers, the current cap of $6 million for 
contracted vocational and employment counseling would need to be 
increased or removed. The Department of Defense estimates that the 
number of Servicemembers on active duty is expected to be approximately 
1.4 million in FY 2014. Assuming that every Servicemember would take 
advantage of this counseling at least once every 24 months, the number 
of assessments that VA would need to provide annually would be equal to 
half the number of Servicemembers on active duty each year.
    Making counseling mandatory for Veterans before enrolling into 
school could result in delays for individuals who wish to enroll in 
educational institutions and unnecessary denials of claims for 
assistance. A Veteran who applies for benefits in early August who 
wishes to begin using benefits for the Fall term starting on August 20 
would not be able to receive those benefits until VA is able to 
schedule and provide counseling.
    The Department of Veterans Affairs will be submitting costs 
associated with S. 2241 and mandatory counseling in a separate views 
letter to be submitted to the Committee.

    Question 4. I understand that the revised TAP curriculum includes a 
significant focus on higher education. What specifically will that new 
higher education section discuss, and when is it expected to be 
finalized and available system-wide?
    Response. In addition to completing the mandatory core curriculum, 
transitioning Servicemembers will have the option to participate in 
curriculum tracks focused on preparing them to start their own 
business, further their academic achievements in a higher education 
learning environment, or enter a vocational technical learning 
environment. One of those optional tracks is an Accessing Higher 
Education Track for Servicemembers interested in pursuing a college 
education. The two-day Education Track addresses such topics as 
establishing educational goals and developing individual plans to meet 
those goals, higher education tuition funding options, and researching 
and comparing institutions and financial aid packages. Upon completion 
of the Education Track, servicemembers will be prepared to submit an 
application to an academic institution and connect with a student 
veterans organization on campus.
    In addition, with respect to the VA benefits briefing, VA 
redesigned the original 111-page TAP slide deck to create two VA 
benefits briefing modules with a total of 36 slides. The first module 
is focused on VA education benefits, with references to Federal student 
aid, and the second module is focused on all additional VA benefits.
    VA reengineered a long and detailed briefing into an engaging and 
interactive training session that highlights how Servicemembers can use 
VA benefits. To transform from a benefits-centric briefing to a 
Servicemember-centric learning experience, VA interviewed approximately 
160 Veterans who had taken the current briefing within the last five 
years to determine how best to re-design the briefing. The results were 
consistent with the following adult learning theories:

    <bullet> Adult learners dislike long lectures and one-way 
communication. Veterans almost unanimously reported the format of a 
four-hour, detailed lecture on benefits was ineffective.
    <bullet> Adult learners want courses to focus on real-life problems 
and tasks rather than ``academic'' material. Veterans reported that 
they want two pieces of information from the benefits briefing: what 
benefits are available and how to access those benefits.
    <bullet> Adult learners view learning as a means to an end--they do 
not want information just for information's sake. Veterans expressed 
that they were overwhelmed by detailed benefits information at the 
briefings and felt much of the benefit information was irrelevant to 
them.

    To address Veterans' concerns, VA:

    <bullet> Organized the benefits into ``work, life, and home'' 
categories instead of VA program offices;
    <bullet> Provided three real-life video vignettes and 17 scenarios 
that allow Servicemembers to see how VA benefits can be applied to ease 
the transition to civilian life; and
    <bullet> Designed a personal action plan for each Servicemember to 
map out how they will access benefits with timeframes.

    Servicemembers will have a better understanding of how to plan for 
the future by knowing how and when to utilize benefits after their 
military service. The new briefing will be released by mid-
November 2012.

    Question 5. VA's written testimony went into some detail on the 
recent Executive Order 13607. Does VA envision monitoring compliance of 
those schools that hold themselves out as observing the Principles of 
Excellence?
    Response. Yes, VA will incorporate Principles of Excellence-
specific reviews into existing compliance procedures. VA's normal 
compliance review procedures do examine some components of the 
Principles of Excellence; however, schools indicating intent to adhere 
to the Principles of Excellence will be subject to some additional 
review to account for parts of the Principles not included in VA's 
typical process.
                             small business
    Question 6. In VA's testimony, the department reported that VA has 
instituted a Debarment Committee to review, examine, and refer those 
who misrepresent themselves to VA's debarring official.
    a. For the past two years, of those firms forwarded to the 
Debarment Committee, how many were actually debarred?
    Response. As of August 1, nine firms have been debarred for 
misrepresentation over the past two years.

    b. Finally, it is unclear to me from testimony on Senator 
Cantwell's small business bill how a mandatory debarment period of five 
years would interfere with due process. Please elaborate on this 
concern?
    Response. Debarment is a protective measure designed to ensure that 
the government deals with responsible firms. It is not a punishment. 
(48 CFR 9.402(b)) Therefore, it is an inherently discretionary action 
where the debarring official is required in procurement regulations to 
take into account mitigating circumstances and corrective measures 
proffered by the potential debarred. An automatic five year debarment, 
even for an intentional act, without allowing for any consideration of 
mitigating factors could be challenged in Federal courts as narrowing 
or even eliminating the contractor's right to be heard. VA defers to 
Department of Justice on issues of constitutionality.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Richard Burr to 
    Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Question 1. An April 2012 Executive Order required the Department 
of Veterans Affairs (VA) to develop ``principles of excellence'' for 
schools that serve military personnel and veterans. Some schools have 
asked whether this is the first of many Administrative actions along 
these lines. Does the Administration have plans to issue follow-up 
executive orders or regulations governing schools serving veterans and 
military personnel?
    Response. The Administration is committed to ensuring that veterans 
and servicemembers are well served by our Nation's postsecondary 
education system. While this is difficult because the Federal 
Government does not operate postsecondary education institutions, we 
will use our authority to develop rules and provide incentives to 
encourage these improvements. We will continue to use existing 
authorities, reinforced by actions such as EO 13607, to gain better 
treatment for Veterans, servicemembers, and their families.[0]

    Question 2. Many schools are already in the process of improving 
their supports and services for GI Bill users. For example, the 
University of North Carolina (UNC) system shared a matrix of the many 
good things they are already starting to do to address the needs of 
veterans, such as offering a military ombudsman, an orientation for 
veterans, and support staff trained in conditions like post-traumatic 
stress. Although that work is not yet completed, they are in the 
process of creating a model system through which veterans and 
servicemembers can receive a world-class education in North Carolina.
    a. Does VA anticipate that a system like UNC is developing would 
comply with the ``principles of excellence?''
    Response. We would expect that an approach like you describe the 
University of North Carolina (UNC) adopting would help improve the 
services to Veterans. As Title IV participating institution, they 
likely will already have in place many of the safeguards called for in 
the executive order. As a result, it is unlikely that UNC would need to 
take further steps but we would encourage them to review the provisions 
of the executive order. VA, the Department of Defense, and Education 
are working together to develop criteria that might be helpful to UNC 
and other institutions. We will share this with the Committee when it 
is completed.

    b. What would VA do to ensure that the ``principles of excellence'' 
do not end up discouraging schools from being innovative in their 
individual approaches to supporting military personnel and veterans?
    Response. The Principles of Excellence require schools to undertake 
specific actions in order to comply, such as providing comprehensive 
cost information and avoiding fraudulent or misleading advertising 
practices. The Principles do not preclude schools from developing 
innovative approaches to support their Veteran and military students.

    Question 3. The April 2012 Executive Order also requires VA, the 
Department of Defense, and other agencies to create a system for GI 
Bill users to submit complaints about their schools. According to VA's 
testimony for the June 13, 2012, hearing, if GI Bill users ``feel that 
their school has acted fraudulently, they have no centralized system to 
file complaints.''
    a. For the record, please explain the existing options for students 
to lodge complaints against their schools, such as through the 
Department of Education's Inspector General.
    Response. VA's mechanisms for submitting complaints include the GI 
Bill hotline, Ask a Question function on the GI Bill Web site, State 
Approving Agencies, and VA's Inspector General. The Departments of 
Defense (DOD) and Education (ED) may have additional avenues students 
can use, and VA defers to these Departments on their complaint 
processes.

    b. Please explain how VA's new complaint system would coordinate 
with those other avenues for complaints.
    Response. VA, DOD, and ED are currently developing a plan for a 
complaint system that would allow information sharing between the three 
agencies as well as the Federal Trade Commission and the Consumer 
Financial Protection Bureau. Plans for this complaint system are not 
yet finalized; consequently, the details of the system's workings are 
not yet available.

    c. Would the complaint process VA is developing be better or fairer 
for schools and students than those avenues? If so, how?
    Response. This process consolidates information about fraudulent 
practices into a single system for access by other agencies. Although 
the full plans for the complaint system are not final, it is intended 
to promote information sharing and complement existing processes and 
procedures for addressing complaints.

    d. Would the new complaint system be limited to instances involving 
allegations of fraud? If not, what types of complaints would be 
included?
    Response. The new complaint system is intended to field complaints 
concerning deceptive, fraudulent, or misleading practices by 
educational institutions. VA, DOD, and ED have existing mechanisms to 
address complaints about scenarios specific to their agencies.

    e. Would VA take steps to verify the validity of complaints?
    Response. The complaint system and associated procedures are 
currently under development. Once plans and procedures are finalized, 
VA, DOD, and ED will provide guidance to schools and other stakeholders 
about the complaint process. VA is aware of concerns, such as those 
outlined in this question, regarding the functioning of the complaint 
system, and is taking these concerns into account when designing the 
system and process.

    f. Could complaints be submitted anonymously or would the person 
lodging the complaint have to disclose his or her identity?
    Response. A decision has not been reached about whether anonymous 
reporting will be permitted. Even if it is determined that anonymous 
reporting will not be permitted, the confidentiality of complainants 
will be respected to the maximum extent permitted by appropriate 
Federal laws.

    g. If complaints can be anonymous, how would VA prevent mischief, 
such as--hypothetically--if schools that are competitors wanted to 
complain about each other?
    Response. A decision has not been reached about whether anonymous 
reporting will be permitted. Even if it is determined that anonymous 
reporting will not be permitted, the confidentiality of complainants 
will be respected to the maximum extent permitted by appropriate 
Federal laws. However, this would not prevent the appropriate agencies 
to share information to prevent the kind of mischief you are concerned 
about.

    h. If complaints would not be anonymous, who would be eligible to 
submit a complaint and how would VA verify the identities of 
individuals filing complaints?
    Response. A decision has not been reached about whether anonymous 
reporting will be permitted. Even if it is determined that anonymous 
reporting will not be permitted, the confidentiality of complainants 
will be respected to the maximum extent permitted by appropriate 
Federal laws.

    i. How much funding would it take to operate a complaint system and 
how many VA employees would be needed?
    Response. The complaint system and associated procedures are 
currently under development. Once plans and procedures are finalized, 
VA will be able to estimate the number of VA employees needed to 
operate and maintain this system and process.

    j. Does VA plan to collaborate with schools in developing this 
complaint system?
    Response. VA, together with its agency partners, havereached out to 
schools through informational webinars on the Principles of Excellence 
and gathered their feedback and concerns. VA will continue to engage 
schools, as appropriate, in the process of implementing the Principles 
of Excellence and other components of the President's Executive Order.

    Question 4. According to written testimony, VA is concerned about 
bill provisions that would require schools to disclose certain 
information about their courses, because it could ``create areas of 
overlap with the new information disclosures required by [the 
April 2012 Executive Order], leading to redundancy and confusion.'' 
What steps does VA believe should be taken to ensure that any 
additional reporting requirements for schools--either as a result of 
the executive order or legislation--will also be coordinated with what 
is required by the Higher Education Act and Department of Education 
regulations?
    Response. One goal of the Executive Order is to better coordinate 
reporting and disclosures to align with existing Department of 
Education requirements to ensure that redundancy and confusion are 
alleviated. VA understands the burden of reporting on schools, and 
encourages Congress to thoroughly examine existing reporting 
requirements for schools prior to proposing any related legislation.

    Question 5. VA has authority to spend up to $6 million in mandatory 
funding providing contract counseling services to certain 
servicemembers and veterans considering using their GI Bill benefits.
    a. In fiscal year 2012, how much of the $6 million in mandatory 
funding does VA expect to spend on these contract counseling services 
and how many veterans or servicemembers will be served?
    Response. VR&E plans to spend the $6 million allowed by law; 
however, should demand exceed the current dollar limitation, the gap 
would be filled by VR&E counselors providing these services directly. 
The $6 million in funding will enable VR&E to fund contracted 
counseling for approximately 12,000 Servicemembers or Veterans.

    b. How much in discretionary spending does VA expect to use in 
fiscal year 2012 for this purpose and how many veterans or 
servicemembers will be served?
    Response. Chapter 36 services are either provided through contract 
counseling, for which funding is capped at $6 million annually, or 
through a VA counselor as part of his/her normal job duties, which is 
funded through discretionary spending. VA does not currently have 
information on how much discretionary funding goes toward Chapter 36 
counseling. VR&E plans to institute the performance metrics in FY 2014.

    c. How many requests does VA receive each year for this type of 
educational counseling?
    Response. VR&E receives between 15,000-19,000 applications for 
Chapter 36 services each year.

    d. How many of those requests are granted and how long on average 
does it take to respond to a request for educational counseling?
    Response. VA does not currently have information on how long it 
takes to respond to a request for educational counseling. VR&E plans to 
institute the performance metrics in FY 2014. Chapter 36 services are 
provided to each eligible Veteran who applies, and VA's goal is to 
contact the applicant within 30 days from receipt of application. 
Counseling sessions can be provided in one session or multiple sessions 
depending on the unique needs of each Veteran.

    e. Once a request for educational counseling has been granted, how 
long on average does it take before that counseling is actually 
provided?
    Response. VA's goal is to contact the applicant within 30 days from 
receipt of application. VA does not currently have data on how many 
sessions on average are provided or how long these take to schedule and 
complete. VR&E plans to institute the performance metrics in FY 2014.

    Question 6. Under current law (section 3696 of title 38, United 
States Code), VA ``shall not approve the enrollment of an eligible 
veteran * * * in any course offered by an institution which utilizes 
advertising, sales, or enrollment practices of any type which are 
erroneous, deceptive, or misleading.'' Also, VA is required by that 
section of law to enter into an agreement with the Federal Trade 
Commission (FTC) to investigate deceptive advertising practices by 
educational institutions.
    a. Over the past five years, how many times has VA invoked its 
authority to refuse to approve enrollment at an institution because it 
was found to be using deceptive, incorrect, or misleading advertising?
    Response. Four schools have had VA approval pulled for deceptive or 
misleading practices over the past two years.

    b. Does VA plan to enter into an agreement with the FTC to 
investigate those types of allegations?
    Response. Fraudulent and deceptive practices identified by VA are 
referred to VA's Office of Inspector General. Per statute, VA also has 
the authority to refer cases involving fraudulent or misleading 
practices to the Federal Trade Commission.

    Question 7. VA expressed concern over S. 1184, a bill that would 
require a five-year debarment from VA contracting if a business is 
found by VA to have misrepresented its status as a veteran-owned or 
service-disabled veteran-owned small business. VA's testimony stated 
that ``VA has instituted a separate and distinct 8127 Debarment 
Committee to review, examine, and refer those who misrepresent 
themselves to VA's debarring official.''
    a. How many companies have been found to have misrepresented their 
status?
    Response. We believethat Senator Burr was referring to those 
companies that have been found to have intentionally misrepresented 
their status. As of August 1, 2012, nine firms have been found to have 
intentionally misrepresented their status over the past two years.

    b. How many of these companies have been reviewed and later 
debarred following examination by the Debarment Committee?
    Response. All nine firms found to have misrepresented their status 
have been debarred for misrepresentation.

    c. VA's testimony also noted that ``there are varying degrees of 
misrepresentation'' and ``[s]ome may be the result of an `innocent' 
mistake.'' Would VA support a mandatory debarment for companies found 
to have ``deliberately'' misrepresented their status?
    Response. VA does not believe additional legislative changes are 
necessary to enhance VA's debarment authority. VA believes thedebarment 
authority contained in 38 U.S.C. Sec. 8127 is sufficient.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Scott P. Brown to 
    Curtis L. Coy, Deputy Under Secretary for Economic Opportunity, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Question 1. S. 3210, the Veterans' Small Business Opportunity Act 
provides surviving spouses with a three year transition period to 
utilize contracting benefits if a veteran small business owner dies of 
causes not related to service, allowing the spouse to determine the 
best option for the survival of the veteran's small business. 
Currently, if a vet passes away due to causes unrelated to service, the 
spouse is left with no time to decide how best to transition the 
business. You stated in Wednesday's hearing that family businesses 
shouldn't be punished when a veteran unexpectedly passes away. Please 
comment on S. 3210 given that VA continually encourages veterans to 
enroll in small business programs and urges government agencies to 
utilize veteran-owned small businesses when awarding Federal contracts. 
In your judgment, would S. 3210 help to assist surviving spouses 
transition their spouse's veteran-owned small business?
    Response. Yes. VA supports this provision. The provisions in 
S. 3210 have no operational effect on VA's Veteran-owned small business 
(VOSB) Verification program. However, this would require a change to 38 
CFR Part 74 and an Acquisition Information Letter to implement. It is 
understood that any surviving spouse must meet the same ownership and 
control eligibility criteria as the Veteran owner.

    Question 2. Please comment on the relative level of difficulty to 
implement S. 3210.
    Response. VA expects that the relative level of difficulty of 
implementation of this provision should it be enacted is low. There may 
be some additional oversight on ensuring that the eligible firms 
properly notify VA in the event that a subsequent marriage or date on 
which the surviving spouse relinquishes an ownership interest in the 
small business concern.

    Question 3. Please comment on the cost of S. 3210.
    Response. The cost to implement S. 3210 would in our estimation be 
negligible, due to the estimate that there will not be many companies 
that are eligible for this. Additional oversight on ensuring proper 
notification can be rolled into the Quality Assurance program.

    Chairman Murray. Thank you very much, Mr. Coy. I am going 
to withhold my questions right now. There are a number of 
Committee hearings going on. I want to be able to turn to the 
Committee Members.
    Senator Isakson, do you have some questions you would like 
to start with?
    Senator Isakson. Yes. Mr. Coy, thank you for your service 
and your testimony. With regard to the President's executive 
order, at what exact stage is the VA in, in terms of 
implementing that?
    Mr. Coy. Thank you, sir. The order was signed on April 
27th. We have established work groups and teams. We are 
currently in the process of developing the implementation plans 
and a report is due to the President toward the end of July.
    Senator Isakson. Do you know if any of those working groups 
that you have put together have any interface with the 
Department of Education or with the Education Committees in the 
House and the Senate?
    Mr. Coy. Yes, sir, absolutely. We are working with our 
partners at Education on that work group for the implementation 
of the executive order.
    Senator Isakson. For the Chairman's benefit, and the 
Chairman probably is well-aware of this, the Health Committee 
has been working on this subject as well and there is a lot of 
information sharing that could be done that could be beneficial 
to that development.
    Second, or third I guess, of the working groups that you 
have put together, do they involve soldiers who have actually 
been through using the GI Bill for education and had problems?
    Mr. Coy. Mr. Worley has been working on that closely, but I 
do not think it yet, that we have had soldiers or sailors or 
Marines on those work groups yet. Is that a correct statement, 
Rob?
    Mr. Worley. That is correct, sir. Just in the initial 
stages, it is primarily interagency groups. We will engage the 
veteran service organizations, other stakeholders as we work to 
implement the executive order.
    Senator Isakson. Well, I hope you will because, you know, 
sometimes we put together all these officials and bureaucrats 
and politicians to be working groups to come up with a plan to 
solve a problem and we never talk to the people affected by the 
problem, and the servicemembers are the ones that, in some 
cases, may have suffered because of this. I think it is 
important to include some our veterans in there. Thank you, 
Madam Chairman.
    Chairman Murray. Thank you very much. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Madam Chair, thank you very much. I have a 
couple of questions. I am not sure who is the right person to 
answer this, so I will just ask it and maybe, Mr. Coy, you 
could point out who you think would be appropriate. You had in 
your--well, actually, in your testimony there is a chart in the 
back. I think it is like it says each bill. I am not sure if it 
is connected directly to your testimony, but talks about each 
bill you support or that are supported or not supported.
    There is one that is not supported, which is 1314, which 
would establish minimum funding levels for disabled veterans 
outreach program specialists and local veterans employment 
representatives per 5,000 square miles. Basically, it is a 
rural effort to ensure there is minimum funding for rural 
communities and States.
    As Senator Tester has introduced the bill, we think it is 
an important bill, obviously from Alaska's perspective. But 
maybe, could you expand on why your agency is not supportive of 
that bill? It is one of only a few bills--I think there are 
only two or three that you guys did not support and this was 
one of them.
    Mr. Coy. I believe I will go back and check, sir, but I 
believe we deferred to DOL that particular piece of legislation 
for them. I do not believe that we----
    Senator Begich. OK. Let me ask it this way then because you 
took a stance. No, I understand. Are you familiar enough with 
the legislation to comment from how it would affect veterans in 
a positive or negative way?
    Mr. Coy. At this point, no, sir, I am not.
    Senator Begich. Then let me go to my next question. I was 
in a Government Services Committee meeting, Homeland Security, 
and Government Services Committee meeting not long ago where 
GAO gave a report on how many different programs we have 
available to veterans for employment and training spread across 
a pile of agencies, Department of Labor being one of them.
    And for you not to be able to respond to this makes me a 
little anxious and it actually goes to my issue, which I 
brought up there--and you may not want to comment on this, but 
I am going to put it on the table and see what happens here.
    Why do we not just consolidate all those labor and training 
programs for veterans and just put them under veterans 
programs? So when a veteran comes in--because most veterans are 
not searching all over the place trying to figure out where 
they are going to get job training. They call the VA.
    Then the VA parcels them out to somebody or directs them. 
Why not just have that right inside the VA? I know Department 
of Labor will call my staff within seconds of me saying this 
explaining why that is such a bad idea. But at the end of the 
day, our service and our responsibility is to ensure that 
veterans get easy access without the bureaucracy that goes 
along with it.
    I was shocked how many different programs there are spread 
across multiple agencies, and then we expect a veteran 
returning home to weave through the Federal bureaucracy and 
figure it out. We had to have a GAO report do it for us. Give 
me your thoughts on that. And, you know, I am probably putting 
you on the spot and that is OK.
    Mr. Coy. Yes, sir, you are putting me on the spot. I 
testified a number of months ago on H.R. 4072, I believe it is, 
which is to move the DOLVETS into VA, and at that point my 
testimony essentially indicated that the Administration is 
looking at that. There are numerous issues that we have all 
looked at. We would all want to ensure that we provide good 
service to our veterans.
    So, at this point, we are looking at that piece of 
legislation. We are looking at putting together a position on 
that, but at this juncture, I do not have an opinion, yea or 
nay, sir.
    Senator Begich. Do you think--if I can just probe a bit 
more here. I am sure you are not anxious for me to do this, but 
I guess I am worried.
    Here is my experience as a former mayor. Whenever I wanted 
to talk about consolidation or moving things, each department 
would kind of start getting hunkered down, and at the end of 
the day sometimes they were not as forthright as needed in what 
would be the end result because they were worried about 
employees, who they would get to keep, and all that stuff.
    Give us a time table that you think you might be able to, 
and second, as you think about that answer, do you feel you are 
going to have the latitude to put out to this Committee and/or 
whoever it would be appropriate to say, here is the right thing 
at the end of the day for veterans? Not Department of Labor, 
not the bureaucracy, but for veterans.
    Mr. Coy. Senator, thank you for your question. We have not 
established a definitive time table in coming up with all of 
those answers. We will be happy to get back to you with that 
response.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Begich. That is fair. Thank you very much. Do you 
think you will have the latitude when you roll through this 
discussion process, that--and again, this may be an unfair 
question--but to be caught up in that kind of agency tug-of-war 
that may occur and that you will be able to focus on? Is this 
the right decision for a veteran?
    And it may be contrary to some folks within the 
Administration of what you are trying to do. Do you feel 
comfortable enough that you have that? I know these are 
uncomfortable questions, but what the heck, you are here.
    Mr. Coy. Yes, sir, I am uncomfortable.
    Senator Begich. If you want to think about that one, I 
might let you off the hook.
    Mr. Coy. The short answer, sir, is that I know that my 
entire chain of command believes in one thing and one thing 
only and that is what is best for the veteran.
    Senator Begich. Good.
    Mr. Coy. I do not think anyone in the VA would take steps 
that would be contrary to that.
    Senator Begich. Perfect. I will leave it at that. Thank 
you, Madam Chair.
    Chairman Murray. Thank you very much.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair. I just want to 
real quickly ask, Mr. Coy, we are all really very concerned 
about veterans being treated unfairly, whether that is from the 
for-profit schools or the other schools. I know in the past, 
the State approval agencies have talked about the same kind of 
issues going on in both sectors, you know, as far as problems. 
And you can jump in, also, Mr. Worley, whoever is most 
appropriate.
    But are we looking at both? If we find practices that are 
going on in the for-profit institutions, and I agree totally 
with Senator Isakson. Hopefully, we will have a bunch of people 
that are involved in the process that have had problems. Then 
also, I would like to see a bunch of people that have gone 
through it.
    I think a significant percentage of our enlisted corps and 
our officer corps have actually had a positive experience and 
gained a lot of education and been able to advance their 
careers seeking the non-profit school route because of 
convenience or whatever. I mean, those are things that you all 
have to figure out.
    I guess my concern is that I do not want either group--and 
there is a tremendous amount of money involved with either 
group--to unfairly treat our veterans. So are we going to--are 
we looking at both? Are we going to take what we find in one 
and transfer that over as we look at enforcement?
    Mr. Coy. Thank you, sir. We are very interested in ensuring 
that all schools are reviewed. As you know, last year the 
changes to Public Law 111-377 provided the VA the flexibility 
to have SAAs do compliance surveys. That has been a big help to 
us. Last year or the year before, we completed about 1,700 
compliance survey visits. With the assistance of the SSAs this 
year--and the year is not over--we have completed more than 
2,700 compliance surveys, of which 1,500 of them were for-
profit institutions.
    So this is the first year that we have been using SAAs for 
those compliance surveys. As we go down the path, we think that 
that will bear some fruit, sir.
    Senator Boozman. Mr. Worley, do you have anything to add?
    Mr. Worley. Really nothing to add to that. We take this 
part of the oversight responsibilities very seriously. We 
continue to see, again, growth in our compliance outreach by 
the law and working closely with SAAs to help them as they 
perform that function.
    Senator Boozman. Thank you, Madam Chair.
    Chairman Murray. Thank you. I have a number of questions 
regarding the education benefits that I will submit for the 
record and work with the Department on. As you know, we have a 
number of bills before us on that issue. I just want to ask one 
question at this point so we can get to our next panel.
    Mr. Coy, I really appreciate the Administration's continued 
emphasis on getting veterans the training and employment 
opportunities they need. Can you tell us how the Administration 
envisions the Veterans Job Corps benefiting private sector 
employment?
    Mr. Coy. Yes, ma'am. VA certainly appreciates any 
legislation or proposal that provides employment opportunities 
for our veterans, and we certainly appreciated Senator Nelson's 
leadership on his proposal and we look forward to working with 
the Committee, and certainly his staff, on developing this 
proposal.
    The current Administration proposal for the Veteran Job 
Corps has a number of key issues and differences, perhaps, with 
Senator Nelson's, but with respect to the kinds of employment 
opportunities that the Veteran Job Corps proposal--that the 
President outlined in his State of the Union address looks at 
employment principally in the private sector, perhaps some 
Federal sector employment, but principally in the private 
sector in many of the type of jobs that have already been 
outlined.
    For example, recreational resource management positions for 
visitor programs, forest programs, brush removal, IT and 
administrative positions. The Army Corps of Engineers has 
maintenance and construction issues. NOAA is looking at doing 
some of those things. There are certainly public/private 
partnerships with the Forest Service, for example, the Vets 
Green Jobs, Vet Fire Corps, Vets to Farmers.
    The vision is, is to develop some of that work experience 
to perhaps leading to some certifications and meaningful 
occupational work down the road. It also looks at perhaps some 
seasonal work to do those kinds of things. The Administration's 
proposal also looked at developing what we called a Federal 
steering committee that would be comprised of various agencies 
on that committee. That committee would receive proposals from 
various aspects, judge and evaluate them, and award funds for 
veterans' employment based upon those proposals.
    Chairman Murray. OK. Thank you very much. I am going to 
give the rest of my questions to you for the record. And with 
that, I want to turn it over to Senator Burr and then Senator 
Brown for their questions before we go to the second panel.
    Senator Burr. Chairman, if I can, can I yield to Senator 
Brown?
    Chairman Murray. Absolutely.

               STATEMENT OF HON. SCOTT P. BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Madam Chair and 
Ranking Member. I only have a couple of questions and then we 
can go back to the next panel. As you know, at least in 
Massachusetts, hiring veterans is one of the more important 
things that we do. We have had many jobs fairs focusing on 
veterans, the Hire Here a Veteran's bill providing up to a 
$9,600 tax credit for businesses that want to hire our 
unemployed veterans.
    Trying to work on things that make sense and dealing with 
the stigma associated with hiring, especially Guard and 
Reservists with the potential of more deployments and the like. 
One of the things that we have identified, and Senator Burr and 
I are co-sponsors of, and I am hoping, Madam Chair, that you 
will get behind this because it is a no-brainer.
    When we have veterans who are in a business and they are, 
in fact, killed not in the line of duty, say they get hit by a 
bus, that spouse who has an interest in that business has to 
basically divest of that business almost right away. However, 
if that servicemember passes away with a servicemember-related 
injury, they have 10 years in order to transfer that--figure 
out what to do with that business.
    My bill actually--Senator Burr and my bill, which I thought 
we had a fair amount of Democratic support, but it seems to 
have gone away a little bit. I am hoping we can re-visit this 
and get it done through a mark-up. It amends Section 8127(h) 
and provides the spouse of any veteran with a service-connected 
disability may be treated as the deceased veteran if other 
conditions of (h) are satisfied. If the veteran was rated 100 
percent or died in service connection, we know that they have 
up to 10 years.
    Our proposal would allow, if a veteran is rated less than 
100 percent and did not die as a result of a service-connection 
condition, the surviving spouse would be eligible to be treated 
as the veteran for 3 years following the veteran's death. And 
these changes would take effect 180 days after the date of 
enactment.
    So I am wondering--I am presuming you would hope that a 
family would not be punished when a veteran unexpectedly passes 
away, and would you then also agree that the spouse should have 
time to get the business on solid ground and figure out what to 
do with it?
    Mr. Coy. Thank you, Senator, for that question. I am not 
familiar with that particular bill, and so I am not at liberty 
to be able to respond in kind, although the VA certainly values 
all of its family members. So, we would look very carefully at 
that bill. But we would be happy to take any questions you may 
have for the record and be able to provide you a fuller and 
more robust response.
    Senator Brown of Massachusetts. It is probably not a bad 
idea, not just for the record, but let us just work on it and 
make a recommendation. With your help, this is something that I 
am presuming would be placed in the mark-up and we could get it 
done.
    Because to have folks that have served as heroes with our 
country and have the ability of them to be able to pass an 
asset over, at least for a transitional period of 3 years, 
which is a compromise, it is cost-neutral as well, and I would 
certainly welcome your leadership and an opportunity to work 
with you on this very important issue.
    It is something Senator Burr and I feel very strongly about 
and hopefully the other Members of the Committee will get 
behind.
    Mr. Coy. Senator, we would be happy to work with your staff 
and the Committee for anything that would enhance our veterans 
and servicemembers and their families.
    Senator Brown of Massachusetts. Great. Well, thank you. As 
I said, one of the biggest challenges I recognize, as somebody 
who is still serving and somebody who has been on this 
Committee and somebody who has been dealing with our returning 
veterans is the stereotype associated not only dealing with the 
potential combat stressors and health issues affecting our 
veterans, but basically--for example, in Massachusetts, we have 
a welcome home bonus. They get up to $1,000 just by--your first 
deployment, $500, and your second.
    We have re-employment rights. We have anti-discrimination. 
We have educational opportunities. We do, I think, more than 
many other States in the country regarding a lot of these 
issues. And I am hopeful that we can adopt a similar type of 
thing.
    For example, I have also filed a bill that I am hoping this 
Committee will get behind. We had a situation in Massachusetts 
where a veteran who served a couple of tours of duty came back 
and applied for rental housing. And the woman basically said, 
Well, I do not agree with your position on service in our 
country.
    So to amend the Fair Housing Act to include veterans as a 
protected status, I think, is critically important. So 
hopefully the Chairman and the Ranking Member will work with me 
to get that done as well. So thank you. I have nothing further.
    Chairman Murray. Thank you very much, Senator Brown. 
Senator Burr?
    Senator Burr. Thank you, Madam Chairman, and I thank 
Senator Brown being still an active Reservist. He brings a 
different perspective that is real and recent and we are 
blessed with that.
    Mr. Coy, welcome, and let me say, in your testimony, VA 
expressed support for several proposals, some of which have an 
increased cost. Does VA have a suggestion as to how to pay for 
those?
    Mr. Coy. No, sir, we do not at this juncture. We would be 
happy to work with the Committee to come up with ideas and 
thoughts and alternatives.
    Senator Burr. I would like to ask that you submit for the 
record a list of the options that VA recognizes that could be 
pay-for's.
    Mr. Coy. Yes, sir.

    [The information requested during the hearing follows:]

    VA has proposed legislative initiatives in the 112th Congress that 
create savings or improve efficiency and business practices, including 
collections. The Department is always ready to discuss these proposals 
and its priorities as far as desired legislation, whether proposed by 
VA or initiated in the Congress. Of course, VA will also provide its 
views on options for offsets when they are included as part of measures 
put forward at legislative hearings.

    Senator Burr. Thank you. As you know, the VA asked schools 
to indicate by June 30, 2012, whether they plan to comply with 
the principles of excellence outlined in the April 2012 
executive order. Schools in North Carolina have expressed some 
concerns about how this is being implemented. For example, VA 
held webinars so schools could learn more about those 
principles.
    But it is my understanding that the webinars were over-
subscribed and schools were left out and were simply told they 
would get a chance to read the notes about the webinar in 2 
weeks just before the June 30th deadline. Four questions.
    What are you doing to make sure all schools have enough 
time to learn about the principles of excellence and get 
answers to the questions before the June 30th deadline?
    Mr. Coy. Senator, we have had two webinars so far. The 
response was very high. We have now scheduled a third webinar 
for this coming Friday, and so once we collect that information 
and those questions and issues, we are going to need to stand 
back and take a look and see where we are on that response and 
process.
    Senator Burr. If needed, will you extend the June 30th 
deadline?
    Mr. Coy. At this juncture, we have not talked about doing 
that, but we certainly would look at any and all options.
    Senator Burr. Well, let me just remind you that it is 
June----
    Chairman Murray. Something.
    Senator Burr [continuing]. Something, about halfway 
through. I do know it is Wednesday. [Laughter.]
    If there is one at the end of the week, that allows a 
school about 10 days to understand it, to execute, because I 
guess my follow-up question, what happens if a school does not 
sign under the principles of excellence at this time?
    Mr. Worley. Senator, if I could, first it is important to 
understand that what we are asking the schools to do is to 
sign--we are encouraging them to respond with their intent to 
comply with the principles of excellence. We will not fully 
know the ramifications of how we are going to implement the 
executive order for some time. That is work yet to be done.
    The letter that we sent to all the institutions asked for 
their response of intent by 30 June with the understanding that 
compliance with all the principles of excellence would need to 
happen by the end of the academic year 2012-2013. So there is a 
significant amount of time to evaluate and work through various 
issues.
    Senator Burr. So you are asking them to commit their intent 
to participate to something that they do not know what the 
requirements are yet?
    Mr. Worley. Well, many of the requirements are listed in 
the principles of excellence themselves and as always, the 
devil is in the details of how to implement it, and we will be 
working collaboratively with all those with support.
    Senator Burr. Well, if schools choose not to commit, will 
they have an opportunity to come back into the system?
    Mr. Worley. Yes, they will. And the 30 June--I mean, if 
someone comes in and says they intend to comply on 1 July, we 
are not going to say no. And at some point in the future, the 
schools that have agreed to comply will be listed per the 
executive order on our GI Bill.
    Senator Burr. Well, do note that there is concern within 
the education community that they have yet to have the 
opportunity to be exposed to the webinar. It was over-
subscribed. To read the notes 2 weeks from now probably puts 
them the week before June 30th to try to go through the traps 
and get a sign-off of an academic institution the size of the 
University of North Carolina-Chapel Hill, or something smaller. 
Probably it is just out of the question.
    So I would ask you to go ahead and think about now a delay 
in that June 30th date. I need to move to the GI Bill real 
quick, and I just want to paraphrase an article that was 
written on June 12, which was Tuesday, in the Charlotte 
Observer.
    It talks about local veterans who are now enrolled in 
school that are not getting their tuition and student housing 
money as promised from the GI Bill and it is threatening their 
ability to stay in school and pay their rent. I will not name 
the veterans, five of them. They say that they are facing the 
same problems, thousands of dollars in Government-backed 
tuition money from their GI Bills, plus a monthly basic housing 
allowance which has not come through since they started class 
May 7; not even a book fee.
    They have not received anything. We got out of the U.S. 
Marine Corps April 22. Hall's certification of eligibility says 
he is entitled to 100 percent of benefits covered under the GI 
Bill at an institution of higher education. He is in school, 
but his tuition has not been paid. Hall said he might have to 
drop out if the GI Bill tuition payment does not come through.
    He added, the Department of Veterans Affairs, they told him 
his benefit would kick in May 15. Then the first week of June. 
Hall said the Department of Veterans Affairs has also told him 
that they are 6-8 weeks behind in processing payments.
    Hall is already at the end of the line with rent money that 
could be paid for with his housing allowance. He is faced with 
eviction if he did not receive the money. Some veterans have 
taken out student loans that they did not need. Others are 
working all night to make up for the missing benefits. I have 
received zero of my VA benefits, White said, and Maxwell said, 
Nothing.
    Does that disturb you? Because every time this Committee 
asks the question of the VA, Are we late on payments? Is this 
thing working. The answer we get is yes, it works perfectly. We 
are getting them out there. Now, these are guys that have been 
in school since May 7; they are veterans.
    It is a pretty reputable media outlet. I feel fairly 
certain that this Bring did not get it wrong, 100 percent 
eligible, but there is no payment going to his school. There is 
no housing stipend, no book fee that is being made.
    Mr. Coy. Senator, we are always concerned with any of our 
veterans who are getting payments late. We process educational 
claims in four different sites across the country. Right now 
for original claims, Mr. Worley can correct me on the exact 
number, perhaps, but on original claims, we are looking at 
processing times of around 30 to 35 days, and for supplemental 
claims, anywhere from 10 to 15 days.
    Senator Burr. So was the VA official that talked to this 
Marine and told this Marine that they were six to 8 weeks 
behind processing payments, is that bogus?
    Mr. Coy. No, sir, I do not think it is bogus at all. There 
are some that take longer than others. What I gave you was an 
average time, not the range of times. We have ranges much 
higher than that, as you might imagine. We track these claims 
on a daily basis, and so we take all of those kinds of issues 
very seriously.
    Senator Burr. What do these Marines do, Mr. Coy? I mean, 
the school is working with them. They are keeping them in. He 
may be in school, but he might be evicted from his place on a 
benefit that he has earned, he deserves. What are we going to 
do? And if I thought I was talking about an isolated case, I 
would not press this. I do not think I am.
    Mr. Worley. Ranking Member Burr, sir, I would only say that 
when these come to our attention, we find out what happened and 
we correct them as quickly as possible.
    Senator Burr. I will make sure when you leave you have got 
this news article.
    Mr. Worley. Thank you, sir.
    Senator Burr. One last question, if I could, Chairman. Mr. 
Coy, in your written statement you discuss the Veterans Job 
Corps initiative as proposed by the President in his State of 
the Union address. The President's proposal calls upon the 
Department of Veterans Affairs to administer a Veterans Job 
Corps that would provide funding for up to 20,000 veterans over 
a 5-year period to participate in conservation projects 
sponsored by Government agencies.
    In meeting with my staff, the VA and Administration 
officials have indicated that one of the reasons the Veterans 
Job Corps is needed is the backlog of forestry and conservation 
projects and the number of current employees who will be 
leaving Federal service creating openings.
    In the absence of new legislation, are there steps being 
taken to fill those jobs that are going to open up with 
veterans? Does it take a Job Corps initiative to actually fill 
those jobs with veterans?
    Mr. Coy. No, sir, not necessarily. The Federal Government 
hiring procedures always provides veterans preferences across 
the board with Federal Government hiring.
    Senator Burr. So as it relates to those forestry and parks 
jobs, if there are openings, the preference should go to 
veterans? It would not need the Job Corps to create the 
opportunity for them?
    Mr. Coy. Sir, the backfilling of Federal jobs is entirely 
separate, if you will, from the Administration's Veterans Job 
Corps conservation program.
    Senator Burr. Tell me how the Job Corps is different than 
the effort that is currently underway at the Department of 
Labor in the VETS program and its mission. The Department of 
Labor has sort of the lead responsibility for employment of our 
country's veterans. We have got a VETS program there that is 
sort of the tip of the spear for veterans' employment and 
training.
    Mr. Coy. I think the focus of the Administration's proposal 
for the Veterans Job Corps is in those conservation areas, and 
so with that respect, that is why the proposal was made by the 
President in his State of the Union address. The VETS of 
Department of Labor provides the one-stop levers for--and many 
grants and so on for projects along those lines, but does not 
address those nuances of the Veterans Job Corps.
    Senator Burr. I will say this to the Members. I have 
attempted to get details as to how the Veterans Job Corps is 
going to be implemented and administered. If, in fact, that is 
put together yet, I hope you will share it for the record with 
the Committee. But when I have called, I cannot get an answer 
as to what the structure is going to be or how it is going to 
be implemented.
    If you have got any further information you would like to 
share with us today, I would be more than happy to have it, or 
you can submit it for the record.
    Mr. Coy. We would be happy to submit that for the record, 
Senator. With respect to these very, very specifics, the 
Administration--the decision was made in consultation to craft 
this legislation. So the Administration would like very much to 
work with the Committee to come up with what we believe would 
be a good proposal and piece of legislation, and we will be 
happy to provide any responses for the record for any questions 
as well.
    Senator Burr. Thank you, Mr. Coy. Thank you to your 
colleagues who have joined you.
    Mr. Coy. Yes, sir.
    Chairman Murray. Thank you very much. And thank you very 
much to this panel. We look forward to your answers to our 
submitted questions.
    I now want to bring our second panel up. I will introduce 
you as you are switching places at the table there as well. 
Representing the Iraq and Afghanistan Veterans of America is 
their Deputy Policy Director, Tom Tarantino. We are also joined 
by Peter Meijer. He is a member of the Board of Directors, 
Student Veterans of America. And rounding out the panel is 
Deputy Director of Government Relations at the Military 
Officers Association of America, retired U.S. Army Colonel Bob 
Norton.
    I want to thank all of you for joining us today. We look 
forward to hearing your testimony. I will let you get settled 
there for just a minute and then I will begin with Mr. 
Tarantino. Mr. Tarantino, if you want to begin?

 STATEMENT OF TOM TARANTINO, DEPUTY POLICY DIRECTOR, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Mr. Tarantino. Thank you, Madam Chairwoman and Ranking 
Member Burr, Members of the Committee. On behalf of Iraq and 
Afghanistan Veterans of America's over 200,000 veterans and 
supporters, I thank you for allowing me to submit testimony 
sharing our members' views on these important issues.
    IVA would like to thank this Committee for its constant 
working supporting the new greatest generation. Our written 
testimony outlines IVA's positions on all the bills before us 
today. However, I would like to spend the balance of my time 
discussing three in particular.
    IVA strongly supports S. 2241, the GI Bill Consumer 
Awareness Act of 2012; S. 2179, the Veterans Educational 
Support Act of 2012; and S. 2206, the GI Educational Freedom 
Act of 2012. We believe that passing these three bills will go 
a long way toward protecting the GI Bill and empowering student 
veterans to make educational choices that meet their needs. We 
thank Senators Murray, Webb, and Lautenberg for their work and 
for their leadership on these issues.
    IVA is deeply concerned about multiple reported abuses from 
the for-profit school industry. Currently there is no clear 
method to separate schools that provide quality education 
programs from ones that are only trying to profit from veterans 
benefits.
    Several for-profit colleges are valued participants in 
higher education. They provide veterans with a service that is 
not widely available in traditional non-profit universities, 
including online and vocational programs that offer highly 
technical degrees that are largely unavailable at traditional 
non-profit public and private colleges.
    Essentially, they give veterans and their families the 
flexibility to obtain career-ready education required to be 
competitive in the workforce. Unfortunately, it is highly 
difficult to separate the good actors from the bad actors in 
for-profit education.
    Many for-profit schools are excessively and unreasonably 
expensive. They are plagued with high drop-out rates. They 
engage in very aggressive, sometimes deceptive, and I will 
argue fraudulent, marketing and recruiting practices targeted 
at veterans. IVA believes that through transparency, oversight, 
and consumer education veterans can separate the good schools 
from the bad actors and make more informed choices.
    S. 2241 will establish the basic framework for transparency 
veterans need to make choosing a school a data-driven process. 
By requiring uniform reporting of data that is focused on 
consumer education, veterans will be able to compare schools to 
find one that meets their needs. Additionally, S. 2241 will 
require the VA to study what practices and policies promote 
veterans' success on campus.
    There is a lot of great work happening all across the 
country in campuses everywhere. Now is the time to identify 
what is working so that all schools can benefit and create an 
atmosphere that promotes success for student veterans.
    S. 2179 will enact reasonable oversight of education 
programs. This bill mandates that a vocational school that 
trains students for a course that will eventually require a 
license or a certification to get a job will actually meet the 
training requirements for that license or certification, as 
defined by that State or the approving body.
    Additionally, the legislation requires that all students 
using benefits are properly informed of their choices and have 
the ability to report fraud, waste, and abuse.
    S. 2206 will help hundreds of thousands of student veterans 
take advantage of the excellent educational counseling 
resources available at the VA to help make the most of their GI 
Bill. Unfortunately, few veterans actually know they can 
receive educational counseling, and those who do have to go 
through a lot of red tape to get it.
    This bill cuts the red tape by requiring veterans to opt 
out of education counseling, rather than having to opt in. IVA 
believes that this will help veterans use their benefits to 
their fullest potential and ensure that their educational 
choices meet their needs.
    IVA is confident that this Committee can take these bills 
and pass comprehensive legislation that incorporates these 
critical priorities. However, we have to acknowledge that it is 
not going to solve all the problems faced by student veterans.
    Although not before this Committee, Congress has to act and 
continue its work to pass additional legislation such as 
S. 2116 that will close the loophole in the 90/10 rule, and 
S. 2296 that will prohibit schools from using Government funds 
for marketing and recruiting.
    These bills, coupled with those before this Committee 
today, will help restore free market control of the for-profit 
school industry and will prevent veterans from being harassed 
by predatory schools that are poaching veterans' benefits and 
not providing the services that they advertise.
    The post-9/11 GI Bill is the most significant veterans' 
benefit since World War II. With it, veterans and their 
families have the opportunity to, as Senator Webb used to say, 
build a first-class future and shape the destiny of the new 
greatest generation. As veterans' advocates, educators, and 
lawmakers, we all have a shared responsibility to ensure that 
every student veteran is empowered to use their benefits wisely 
and build that first-class future.
    This is why IVA supports these bills and looks forward to 
working with Congress to pass them in 2012. Thank you for your 
time and attention. I look forward to taking your questions.
    [The prepared statement of Mr. Tarantino follows:]
 Prepared Statement of Tom Tarantino, Deputy Policy Director, Iraq and 
                    Afghanistan Veterans of America
    Madam Chairwoman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's over 200,000 
member veterans and supporters, thank you for allowing me to submit 
testimony sharing our members' views of on these important issues.
    My name is Tom Tarantino and I am the Deputy Policy Director with 
IAVA. I proudly served 10 years in the Army beginning my career as an 
enlisted Reservist, and leaving service as an Active-Duty Cavalry 
Officer. Throughout these 10 years, my single most important duty was 
to take care of other soldiers. In the military they teach us to have 
each other's backs. And although my uniform is now a suit and tie, I am 
proud to work with this Congress to continue to have the backs of 
America's servicemembers and veterans.
    IAVA would like to thank this Committee for its constant work 
supporting the New Greatest Generation and would like to offer our 
comments on several of the bills that the Committee is currently 
considering.


------------------------------------------------------------------------
  Bill            Description                Sponsor         IAVA Pos.
------------------------------------------------------------------------
 S.1184 Fraud in SDVOSB               Cantwell          Support
         representation
------------------------------------------------------------------------
 S.1314 Minimum funding for DVOPs     Tester            Not Support
         and LVERs
------------------------------------------------------------------------
 S.1634 Restore SAA approval for      Tester            Not Support
         education
------------------------------------------------------------------------
 S.1798 Open Air Burn Pit Registry    T. Udall          Support
         Act of 2011
------------------------------------------------------------------------
 S.1852 Spouses of Heroes Education   Merkley           Support
         Act
------------------------------------------------------------------------
 S.1859 FAA & TSA employment          Akaka             Support
         grievance
------------------------------------------------------------------------
 S.2130 Veterans Conservation Corps   Bill Nelson       Support
         Authorization Act
------------------------------------------------------------------------
 S.2179 Military and Veterans         Webb              Support
         Educational Reform Act
------------------------------------------------------------------------
 S.2206 GI Educational Freedom Act    Lautenberg        Support
         of 2012
------------------------------------------------------------------------
 S.2241 GI Bill Consumer Awareness    Murray            Support
         Act of 2012
------------------------------------------------------------------------
 S.2246 TAP Modernization Act of      Boozman           Support
         2012
------------------------------------------------------------------------
 S.2299 Servicemembers Rights         Murray            Support
         Enforcement Act of 2012
------------------------------------------------------------------------
 S.3082 National Veterans Support     Bennet            Not Support
         Network Act
------------------------------------------------------------------------
 S.3179 Servicemembers Housing        Reed              Support
         Protection Act of 2012
------------------------------------------------------------------------
 S.3210 Veterans' Small Business      Scott Brown       Support
         Opportunity Act of 2012
------------------------------------------------------------------------
 S.3233 Servicemembers Access to      Casey             Support
         Justice Act of 2012
------------------------------------------------------------------------
 S.3235 Helping OIF/OEF veterans      Pryor             Support
         return to employment
------------------------------------------------------------------------
 S.3236 Servicemembers Employment     Pryor             Support
         Protection Act
------------------------------------------------------------------------

    S. 1184--IAVA supports S. 1184, which will curb fraud in awarding 
government contracts to businesses erroneously claiming to be owned by 
a service-disabled veteran. Considerations earned through service or 
disability incurred in the line of service should benefit veterans 
trying to win Federal contracts, not unscrupulous individuals who use 
such veterans to ``front'' a company in order to gain an unjust and 
unearned advantage when competing for Federal contracts. Disbarment of 
companies and their principals who falsely claim status as a veterans 
or disabled veteran owned small business is an important enforcement 
technique that will serve to discourage fraud.
    S. 1314--IAVA does not support S. 1314 which would change the way 
we assign DVOPs and LVERs. IAVA understands and supports the concepts 
expressed in this bill, but we have concerns about its methods. IAVA 
believes that every veteran should receive the assistance that they 
have earned through service to country, including the assistance of 
representatives from the Disabled Veteran Outreach Program (DVOPs)s and 
Local Veteran Employment Representatives (LVERs). Half of all veterans 
of Iraq and Afghanistan live in rural areas where access to employment 
services and jobs is difficult. S. 1314 attempts to address this issue 
by requiring the provision of at least one DVOP or LVER for every 5,000 
square miles. Currently, the formula is based on the population of the 
area. IAVA has concerns about the impact that this change might have on 
veterans in more populous areas. IAVA strongly believes that serving 
veterans in rural areas, whether for health care, education, employment 
or another issue, is paramount; however, we must find ways, including 
technological solutions, to serve one veteran demographic without 
adversely impacting another.
    S. 1634--IAVA does not support S. 1634 which would reinstate the 
authority of the State Approving Agencies (SAA) to approve educational 
programs for use with the GI Bill. In 2010, Congress unwisely removed 
SAA oversight of educational programs and relegated them to conducting 
compliance audits of schools. While IAVA opposed this change, we do not 
believe that returning to the pre-2010 system is the appropriate way 
forward. SAAs are a critical component to the success of the GI Bill. 
However, they were created 60 years ago in a very different educational 
environment. Rather than revert to the old model, IAVA believes that we 
should take this opportunity to examine how we can modernize the roll 
of the SAAs for veterans in the 21st century.
    S. 1798--IAVA supports S. 1798 which would establish a registry of 
veterans that may have been exposed to potentially harmful toxins when 
stationed near open-air burn pits in Iraq or Afghanistan. Any veteran 
who lived near an open-air burn pit is familiar with the short-term 
health effects, such X, Y, Z, caused by burning trash. However, the 
lasting effects of toxic exposure from burn pits are unknown without 
data tracking the health and well-being of deployed servicemembers. 
With more and more data leaked from DOD about the potential for long-
term health problems related to toxic exposure, it is imperative that 
we act now. We cannot afford to let yet another generation of veterans 
suffer from deployment-related illnesses without proper care.
    S. 1852--IAVA strongly supports the Spouses of Heroes Education Act 
(S. 1852). Eligible servicemembers may elect to transfer their Post-9/
11 GI Bill benefits to spouses or children. If a servicemember dies 
before transferring the benefit, however, his or her children will have 
access to the Post-9/11 GI Bill but a surviving spouse will not. 
Spouses are eligible for Survivors and Dependents Educational 
Assistance (DEA) that provides a much lower benefit and lacks some of 
the crucial provisions of the Post-9/11 GI Bill, such as a housing 
stipend. Surviving spouses already face substantial difficulties: 
military spouse unemployment and underemployment is astronomically 
high; military housing privileges and housing allowances are lost 
necessitating sudden moves; and the income of a spouse is lost 
compounding the emotional stress left in a family by the loss of a 
husband or wife. It is irrational to say that a spouse does not qualify 
for a benefit that their children qualify for, save for the stroke of 
pen and bad luck. Remedying this loophole in the Post-9/11 GI Bill has 
been a priority for IAVA and we strongly urge you to pass S. 1852 into 
law.
    S. 1859--IAVA supports S. 1859 which would protect veteran employee 
grievances at the FAA and TSA. IAVA believes that the Federal 
Government should be a model for all other employers. Unless there is a 
valid national security concern, there is no reason for an agency 
within the Federal Government to be exempt from giving a strong, clear 
and transparent avenue of redress for employment grievances from its 
employees.
    S. 2130--IAVA supports the Veterans Conservation Corps 
Authorization Act (S. 2130). Veteran unemployment has remained 
stubbornly high. The latest Department of Labor figures have veteran 
unemployment significantly higher than the civilian rate. Establishing 
a Veterans Conservation Corps and putting veterans to work on 
conservation and infrastructure projects will help lower that 
unemployment rate. The inclusion of a summer employment program in this 
legislation to support veterans pursuing higher education is also 
important. Such a program would provide student veterans with summer 
jobs and real world career experience that is recognized by civilian 
employers.
    S. 2179--IAVA strongly supports the Military and Veterans 
Educational Support Act of 2012 (S. 2179). This bill will help ensure 
that veterans using their military and veterans educational benefits do 
not fall victim to deceptive and predatory practices by for-profit 
schools. In addition to enacting reasonable oversight of educational 
institutions, the bill mandates that any vocational schools that train 
students for a course that requires a license or certification actually 
meet the training requirements for that license or certification as 
defined by the state or approving body issuing the license or 
certification. Above all, the legislation requires that all students 
using benefits are properly informed about their choices and have the 
ability to report fraud, waste and abuse.
    S. 2206--IAVA strongly supports the GI Educational Freedom Act of 
2012 (S. 2206). The VA currently has excellent resources available to 
veterans to help them make the most of their GI Bill. Unfortunately, 
few veterans know they exist and must go through red tape to use them. 
This bill will cut the red tape by requiring veterans to opt out of 
education counseling. IAVA believes that this will help veterans use 
their benefits to their fullest potential and ensure that their 
educational choices meet their needs.
    S. 2241--IAVA strongly supports the GI Bill Consumer Awareness Act 
of 2012 (S. 2241). Right now, it is extremely difficult for veterans 
and their families to choose educational programs that meet their 
needs. Many, lured by aggressive and often deceptive marketing by for-
profit schools, choose programs that do not match their career-intent 
or qualify them for jobs after graduation. Veterans should have the 
data they need about schools' costs, graduation rates and more when 
choosing a program. This bill will provide veterans and their families 
with clarity about their educational choices by establishing a robust 
system of consumer reporting and education.
    S. 2246--IAVA strongly supports the TAP Modernization Act of 2012 
(S. 2246). Allowing veterans and their spouses to retake a Transition 
Assistance Course at a time after separation will be an invaluable aid 
as servicemembers transition to yet another phase of their lives. At 
separation, a veteran or spouse may choose to continue their education. 
After graduating, a veteran or spouse who will be embarking on a new 
phase of life, such as a career or entrepreneurship, would benefit from 
knowing what programs or assistance they qualify for on this new path. 
IAVA believes that S. 2246 is a minimal investment that will achieve 
maximum returns for veterans, our society and our economy.
    S. 2299--IAVA strongly supports the Servicemembers Rights 
Enforcement Act of 2012 (S. 2299). With the increased use of the 
National Guard and reserves in the last decade, there has been a 
corresponding increase in USERRA and SCRA claims. Even as the war in 
Iraq has ended and Afghanistan comes to an end, the military has said 
it plans to continue regular deployments for Guard and Reserve units. 
Therefore, we should expect the increase in USERRA and SCRA claims to 
continue. IAVA welcomes any legislation designed to strengthen the 
protections these laws afford servicemembers. Requiring plaintiffs to 
affirm they have determined a defendant's military status is an 
important safeguard in ensuring that the ``We didn't know'' line of 
defense is legally unacceptable and that plaintiffs are aware of a 
defendant's service status. Equally important are the powers granted to 
subpoena and serve civil investigative demands.
    S. 3082--IAVA does not support the Nationwide Network of Support 
for Veterans and Military Families Act of 2012. IAVA agrees with the 
bill in principle and believes that the intentions of this bill are 
right. However, we have serious concerns about its execution and the 
ability to achieve the goals set out in the legislation. We do agree 
that their needs to be some sort of tool to gather and report 
information about all the services available in the veterans support 
community. However, we don't think creating a VA-connected super VSO is 
the answer. The real power in a VA-connected organization would be its 
ability to gather, synthesize and publish information about the veteran 
support community that no one nonprofit has the resources to do on its 
own. This is something that only the government has the resources or 
the reach to do. However, we are highly skeptical that a privately 
funded organization will be able to gather the resources needed to be 
successful and also be able to issue grants to others in the nonprofit 
sector. IAVA recommends that the VA should focus on strengthening the 
National Resource Directory, and making its entire data open source and 
available to the veterans' community. Through this channel, the current 
VSOs can develop innovative products and programs that better 
distribute information to our respective memberships.
    S. 3179--IAVA supports the Servicemembers Housing Protection Act of 
2012 (S. 3179). Housing issues have been a major concern for 
servicemembers and their families. Extending the Servicemembers Civil 
Relief Act to expand foreclosure protection to surviving spouses for a 
short period after a servicemember's death will help a significant 
number of servicemembers and their families. This is paramount during 
trying circumstances in the aftermath of a servicemember's death.
    S. 3210--IAVA supports the Veterans' Small Business Opportunity Act 
of 2012 (S. 3210). This legislation extends protections for surviving 
spouses of 100 percent disabled veterans who own a small business, as 
well as surviving spouses of less than 100 percent disabled veterans 
who own a small business. This is an important protection that would 
allow surviving spouses of less than 100 percent disabled veterans, who 
still are owners of service-disabled veteran owned (SDVO) small 
businesses, adequate transition time to diversify their business 
without abruptly losing their SDVO status and any contracts that 
derived from being an SDVO business. The three year period proposed in 
S. 3210 is a reasonable period to diversify or liquidate a business.
    S. 3233--IAVA strongly supports the Servicemembers Access to 
Justice Act of 2012 (S. 3233). Recently, many cases of servicemembers 
being dismissed from their employment as a result of military service 
have gained national notoriety and many studies and surveys have 
indicated a potential bias against hiring military members and 
veterans, particularly serving members of the Guard and Reserves. One 
of the main problems with USERRA enforcement is the lack of ``teeth'' 
in the law. S. 3233 significantly remedies this problem. Removing 
sovereign immunity as a defense, removing USERRA claims from 
arbitration, enhancing the remedies for USERRA violations by including 
mandatory recovery of legal fees, making notice of USERRA compliance a 
contractual obligation for contractors and requiring equitable relief 
and granting the right to a jury trial are huge strides forward in the 
law that will finally make enforcement of USERRA viable and worthwhile, 
particularly for individuals seeking redress.
    S. 3235--IAVA supports the HIRE at HOME Act (S. 3235). We believe 
that states should take military training into consideration when 
issuing vocational licenses and certifications. However, IAVA 
recognizes that no service or agency has qualified what that training 
means in the civilian market. IAVA worked with Congress in 2011 to 
include a study in the VOW to Hire Heroes Act that will quantify and 
qualify the gaps and overlaps between military training and civilian 
certifications. But without studying the core skills one receives in a 
given military school we cannot establish a standard. By requiring 
states to make and report that evaluation, we will accelerate the 
process with state specific data. This data, combined with the study 
from the VOW to Hire Heroes Act, will lead to developing clear 
guidelines for the military, veterans and employers on how their skills 
and education should translate.
    S. 3236--IAVA strongly supports the Servicemember Employment 
Protection Act of 2012 (S. 3236). This legislation addresses some 
substantial areas where USERRA protections are lacking and adds some 
powerful incentives for USERRA compliance and penalties for USERRA 
violations. S. 3236 significantly expands the scope of USERRA coverage 
by removing USERRA complaints from arbitration, expanding USERRA to 
protect servicemembers undergoing medical treatment for deployment-
related injuries and disbarring government contractors who violate 
USERRA. Coupled with the provisions of S. 3233, passage of S. 3236 
would be part of the most significant upgrades to USERRA since it 
became law in 1994.

    Chairman Murray. Thank you very much. Mr. Meijer.

STATEMENT OF PETER MEIJER, MEMBER, BOARD OF DIRECTORS, STUDENT 
                      VETERANS OF AMERICA

    Mr. Meijer. Madam Chair Murray, Ranking Member Burr, 
Members of the Committee, on behalf of Student Veterans of 
America, I would like to express our sincere gratitude at being 
invited to testify here today.
    The bills in question represent numerous efforts toward a 
single goal, a goal that we all share, the establishment of a 
system that provides the security and protections necessary to 
ensure successful outcomes for student veterans. It is clear 
that these efforts are critical, not just for student veterans, 
but for the American people whose trust and confidence we in 
the veterans affairs community hold.
    The public expects that there will be a system in place to 
provide for the education of our veterans, that this system 
will have adequate protections to prevent fraud and abuse, and 
to ensure that veterans have the information and guidance they 
need to graduate and lead productive lives.
    I will now comment on specific bills and give the Committee 
the input of Student Veterans of America. However, before I do, 
I would like to mention that SVA is the only organization that 
is solely devoted to helping veterans in higher education. We 
have over 550 campus-based chapters in the United States and 
our members are directly impacted by the changes proposed in 
these bills. Thus, we have considered these bills carefully and 
are here to give a voice to those who will be impacted directly 
by the legislation before you today.
    With respect to Senate Bill 1634, the power to approve 
which courses are eligible to be paid for by educational 
benefits is among the most significant in the entire system set 
out by the post-9/11 GI Bill. SVA supports expanding the 
authority of State approving agencies to evaluate private and 
public schools in addition to for-profits.
    What is needed at this time is more uniformity and 
consistency in the system. In addition, we also recommend that 
the Veterans Administration set a more detailed framework to 
ensure consistency across various State approving agencies and 
empower these agencies to best achieve their mission.
    With respect to Senate Bill 1852, SVA supports and has also 
supported the Marine Gunnery Sergeant John David Fry 
scholarship. After 10 years of continuous deployment, we can no 
longer continue to understand the military to be comprised only 
of uniformed servicemembers. Military families have borne the 
hardship and struggle of war alongside the men and women who 
fight.
    SVA feels that it is just to consider them eligible for 
benefits and so supports the proposed expansion. Families are 
as much a part of the military and veterans community as those 
who wore the uniform and we owe them our support.
    With respect to Senate Bill 2179, SVA supports further 
integrating the Department of Education standards and to the 
approval process for courses to be eligible for the GI Bill. In 
general, one of the persistent problems that has remained 
unsolved in the system is that the VA is neither designed nor 
established as an agency focused on education policy.
    Since the implementation of the GI Bill, the VA has tried 
to become such an agency. SVA feels that this is potentially 
problematic. The Department of Education is the Federal 
Government's agency for matters dealing with education and 
possesses the institutional competency to evaluate courses.
    Rather than develop a redundant competency in another 
agency, SVA feels that it is wiser to either defer to the 
capabilities that already exist within the Department of 
Education, or that the VA form a joint committee with the 
Department of Education to address such issues.
    In addition, SVA supports the use of GI Bill funds to 
provide training that leads to meaningful employment. But as 
with degree programs, the focus of requirements for eligibility 
ought to be an outcome, not potential. Any program that claims 
to prepare veterans for employment must be required to show 
proof to back up these claims, and SVA supports provisions to 
codify such requirements.
    With respect to Senate Bill 2206, SVA strongly supports 
efforts to provide educational counseling to veterans before 
receiving such assistance. At present, much of the educational 
counseling veterans receive comes from educational institutions 
whose position is not necessarily objective.
    Knowledge of pertinent institutional characteristics such 
as median student loan debt, cohort default rate, degree 
completion at regular 150 and 200 percent intervals, 
accreditation status, and post-graduation employment statistics 
will help prospective student veterans make informed decisions 
regarding their education.
    In addition, the establishment of a complaint tracking 
system will serve to hold schools better accountable and 
correct practices that may not serve in the best interest of 
veterans. For these reasons, we support this provision.
    With respect to Senate Bill 2241, SVA believes this 
legislation will prepare veterans to make informed decisions 
regarding their education. As the short title suggests, 
consumer awareness is needed for veterans as they pursue 
training and educational opportunities. SVA strongly supports 
any provision that increases protections for student veterans 
from institutions that may engage in predatory practices.
    SVA believes that it is wise for Congress to intercede in 
this matter to orient the market toward results for veterans 
instead of results for companies. Madam Chair and Ranking 
Member Burr, I stand ready to answer any questions concerning 
our stance on the aforementioned legislation. Thank you for 
your time.
    [The prepared statement of Mr. Meijer follows:]
    Prepared Statement of Peter Meijer, Member, Board of Directors, 
                      Student Veterans of America
    Mrs. Chairman, Senator Burr, Members of the Committee, On behalf of 
Student Veterans of America I would like to express our sincere 
gratitude at being invited to testify here today. The bills in question 
represent numerous efforts toward a single goal, a goal that we all 
share: the establishment of a system that provides the security and 
protections necessary to ensure successful outcomes for student 
veterans.
    It is clear that these efforts are critical not just for student 
veterans, but for the American people whose trust and confidence we in 
the veterans affairs community all hold. The public expects that there 
will be a system in place to provide for the education of our veterans, 
that this system will have adequate protections to prevent fraud and 
abuse, and to ensure that veterans have the information and guidance 
they need to graduate and lead productive lives.
    I will now comment on specific bills and give the Committee the 
input of Student Veterans of America. However, before I do, I would 
like to mention that out of all veteran service organizations, SVA is 
the only organization that is solely devoted to helping veterans in 
higher education. We have over 550 campus-based chapters in the United 
States and our members are directly impacted by the changes proposed in 
these bills. Thus, we have considered these bills carefully and are 
here to give a voice to those who will be impacted directly by the 
legislation before you today.
With respect to Senate Bill S. 1634
    The power to approve which courses are eligible to be paid for by 
educational benefits is among the most significant in the entire system 
set out by the Post-9/11 GI Bill. While SVA is generally in favor of 
empowering State Approving Agencies (SAA), we have concerns about 
whether each SAA is capable of being the sole authority on who gets 
what programs approved and what effect this may have on student 
veterans who begin their education in one state and seek to transfer 
credits to another. What is needed at this time is more uniformity and 
consistency in the system, not less. As a result of that fact, we have 
reservations concerning this bill and recommend that the VA, at a 
minimum, set a framework to ensure consistency across various state 
approving agencies.
With respect to Senate Bill S. 1852
    SVA supports, and has always supported, the Marine Gunnery Sergeant 
John David Fry scholarship. After ten years of continuous deployment we 
can no longer continue to understand the military to be comprised only 
of uniformed servicemembers. Military families have born the hardship 
and struggle of war alongside the men and women who fight. SVA feels 
that it is just to consider them eligible for benefits and so supports 
the proposed expansion. Families are as much a part of the veterans 
community as those who wore the uniform, and we owe them our support.
With respect to Senate Bill S. 2179
    SVA supports further integrating the Department of Education 
standards into the approval process for courses to be eligible for the 
GI Bill. In general, one of the persistent problems that has remained 
unsolved in the system is that the VA is neither designed nor 
established as an agency focused on education policy. Since the 
implementation of the GI Bill, the VA has tried to become such an 
agency. SVA feels that this is potentially problematic. The Department 
of Education is the Federal Government's agency for matters dealing 
with education and possesses the institutional competency to evaluate 
courses. Rather than develop a redundant competency in another agency, 
SVA feels it is wiser to either defer to the capabilities that already 
exist within DOE or the VA form a joint committee with DOE to address 
such issues.
    In addition, SVA supports the use of GI Bill funds to provide 
training that leads to meaningful employment, but as with degree 
programs the focus of requirements for eligibility ought to be on 
outcome, not potential. Any program that claims to prepare veterans for 
employment must be required to show proof to back up these claims, and 
SVA supports provisions to codify such requirements.
With respect to Senate Bill S. 2206
    SVA strongly supports efforts to provide educational counseling to 
veterans before receiving such assistance. At present, much of the 
educational counseling veterans receive comes from educational 
institutions whose position is not necessarily objective. Knowledge of 
pertinent institutional characteristics such as median student loan 
debt, cohort default rate, degree completion at regular, 150, and 200 
percent intervals, accreditation status, and post-graduation employment 
will help prospective student veterans make informed decisions 
regarding their education. In addition, the establishment of a 
complaint-tracking system will serve to hold schools better accountable 
and correct practices that may not serve in the best interest of 
veterans. For these reasons, we support this provision.
With respect to Senate Bill S. 2241
    SVA believes that this legislation will prepare veterans to make 
informed decisions regarding their education. As the short title 
suggests, consumer awareness is needed for veterans as they pursue 
training and educational opportunities. SVA strongly supports any 
provisions that increase protections for student veterans from 
institutions that engage in, or are likely to engage in, predatory 
practices. At the heart of much of the turmoil in the system right now 
is the practice of paying recruiters per student, creating 
inappropriate incentives for companies to orient themselves internally 
toward getting veterans in the door instead of preparing them for their 
future. SVA believes it is wise for the Congress to intercede in this 
matter to orient the market toward results for veterans instead of 
results for companies. As a result, we support these provisions.

    I stand ready to answer any additional questions concerning our 
stance on the aforementioned legislation. Thank you for your time.

    Chairman Murray. Thank you very much.
    Colonel Norton.

    STATEMENT OF COL. ROBERT F. NORTON, USA (RET.), DEPUTY 
 DIRECTOR, GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
                           OF AMERICA

    Colonel Norton. Thank you, Madam Chair, Ranking Member 
Burr, it is an honor to be here today to represent the 370,000 
members of the Military Officers Association of America. I 
would like to offer MOAA's views on two baskets of issues and 
one specific bill before you today.
    First, MOAA strongly endorses the GI Bill watchdog 
legislation, including S. 2241, S. 2179, and S. 2206. As you 
know, the Administration recently issued Executive Order 13-607 
to require Government agencies to develop a comprehensive 
approach to overseeing military and VA educational programs.
    The three bills before you go the next important step by 
putting a number of the executive order requirements into law, 
including reporting standards, outcome measures, consumer 
education, and compliance. Each of the three bills takes a 
slightly different approach to the issue of counseling for 
veterans planning to use the new GI Bill.
    S. 2241 would widen the circle of eligibility for 
counseling under the current law to all those who have served 
at least 180 days of active duty. S. 2206 would repeal the $6 
million cap for optional counseling. And S. 2179 would mandate 
counseling on campuses that have a minimum of 20 enrolled 
veterans.
    As noted in our statement, we strongly support mandatory 
counseling, but we believe a conversation is needed to 
distinguish roles and missions for colleges, the VA, and the 
State approving agencies. Most colleges worth their salt 
already provide academic counseling and program guidance to 
students. It may make sense to let the VA do what it does best, 
focus on GI Bill enrollment, health care, and mental health 
counseling.
    It may make more sense to expand the VetSuccess program 
which is growing from about 20 programs on campuses to 80, 
expand that for the VA-related counseling and support issues. 
In short, we believe the VA should focus primarily on 
supporting student veterans non-academic counseling needs going 
forward.
    The second basket of issues concerns protections under the 
Uniformed Services Employment and Re-Employment Rights Act, 
USERRA, and the Service Members Civil Relief Act, SCRA. 
S. 2299, S. 3233, and S. 3236 would strengthen the enforcement 
of employment and re-employment protections for members of the 
National Guard and Reserve.
    S. 3179 would extend mortgage foreclosure protections to 
surviving spouses after the death of a military member and for 
other purposes. MOAA strongly supports these four bills.
    Our Nation's unprecedented reliance on the National Guard 
and Reserve is the primary reason why the USERRA and SCRA need 
to be continually reviewed and updated. Since 9/11, almost 
850,000 Reservists have been called to the colors on Federal 
orders. 264,000 members of the Guard and Reserve have served 
two or more tours of active duty.
    In 2012, in the Defense authorization, Congress took an 
unprecedented step by authorizing DOD to call up as many as 
60,000 Reservists at any one time to perform pre-planned and 
budgeted national security missions. In plain language, that 
means Reservists can now be used routinely around the world 
without a formal Presidential call-up or a declaration of a 
national emergency.
    Madam Chair, there is no precedent for such an authority in 
our Nation's history. That is why the USERRA and SCRA must have 
airtight protections for our Guard and Reserve warriors and a 
strong enforcement capability by the Government. We strongly 
support S. 2299, S. 2233, and S. 3236.
    Last, MOAA would like to highlight S. 1852, the Spouses of 
Heroes Education Act. This bill would open post-9/11 GI Bill 
benefits for the surviving spouses of those who have died in 
service since 9/11. The children of those surviving spouses 
already have the new GI Bill under the Gunnery Sergeant John D. 
Fry scholarships.
    Unfortunately, we have left behind about 7,000 surviving 
spouses with an inferior educational benefit, no housing 
allowance, and no book allowance while they are in school. 
Informally, the 10-year cost of the legislation we understand 
is less than $300 million. That is not insignificant, we 
acknowledge, but MOAA feels very strongly that the Nation can 
do better to honor the ultimate sacrifice of its fallen 
warriors and support the surviving spouses who face daunting 
challenges after their catastrophic loss.
    Thank you, Madam Chair, Ranking Member Burr for this 
opportunity to appear before you today. I look forward to your 
questions.
    [The prepared statement of Colonel Norton follows:]
  Prepared Statement of Colonel Robert F. Norton, USA (Ret.), Deputy 
   Director, Government Relations, Military Officers Association of 
                                America
    Madam Chair Murray, Ranking Member Burr and Distinguished Members 
of the Committee, On behalf of the over 370,000 members of The Military 
Officers Association of America (MOAA), I am pleased to present the 
Association's views on selected bills that are under consideration at 
today's hearing.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                     educational benefits programs
S. 1634 (Sen. Tester, D-MT)
    S. 1634 would amend title 38, United States Code, to improve the 
approval and disapproval of programs of education for purposes of 
educational benefits under laws administered by the Secretary of 
Veterans Affairs, and for other purposes.
    Basically, this bill would restore the major responsibilities of 
State Approving Agencies (SAAs) to what they were prior to enactment of 
Public Law 111-377.
    Established after World War II to support the States' interest in 
supporting the original GI Bill, the SAAs previously conducted the 
following activities:

    <bullet> Program Approval: Determine whether programs meet the 
requirements of law and are eligible for the use of veterans' 
benefits--focusing on program quality and integrity.
    <bullet> Compliance: Provide oversight of institutions to verify 
continued compliance with state and Federal requirements, and the 
rendering of technical assistance and timely intervention.
    <bullet> Technical Assistance: Offer counsel and assistance to 
veterans, school and job training officials, and local VA personnel in 
helping achieve the goals and objectives of the GI Bill.
    <bullet> Outreach and Liaison Activities: Outreach to promote the 
increased usage of veterans' educational benefits and coordination with 
government, veteran and educational entities to facilitate the approval 
of programs and increase educational opportunities for veterans.
    P.L. 111-377 narrowed the role of the SAAs almost exclusively to VA 
benefit payment issues--auditing schools to resolve under- and over-
payment issues.
    When the SAAs were established, the Department of Education did not 
exist and, thus, ``program approval'' was a vital function for reducing 
waste, fraud and abuse of GI Bill resources. That function remains 
particularly valuable today in our view with regards to non-degree 
vocational and technical training programs. Distinguishing the SAAs' 
mission in program review for academic programs from that of the 
Department of Education has not been accomplished in our view.
    Moreover, the resources for the SAA program have remained static 
for years at $19 million per year. (Further discussed in the comments 
on S. 2179).
    MOAA supports modernizing the role of the SAAs. We believe that 
student veterans, schools and the integrity of the GI Bill will best be 
served by clarifying the SAAs' mission, restoring some of their earlier 
functions, raising their funding levels and adopting aspects of 
S. 2179.
S. 1852 (Merkley, D-OR)
    The Spouses of Heroes Education Act would authorize Post-9/11 GI 
Bill benefits under Chapter 33, 38 U.S. Code to the surviving spouses 
of those who died in the line-of-duty after September 10, 2001.
    Congress established Post-9/11 GI Bill benefits for the dependent 
children of servicemembers who died in the line-of-duty under the 
Gunnery Sergeant John D. Fry Scholarship program (P.L. 111-32).
    Unfortunately, however, surviving spouses themselves are ineligible 
for ``Fry Scholarships.'' At the time the legislation was being 
considered, no one stopped to think that the surviving spouses would 
need a robust benefit in order to attain the skills and education to 
provide for their children and prepare them for college.
    Survivors and Dependents Educational Assistance (DEA) program 
benefits under Chapter 35, 38 U.S.C. simply do not afford surviving 
spouses a realistic opportunity to raise young (in most cases) children 
and go to school concurrently without shouldering burdensome debt while 
dealing with enormous life challenges.
    For surviving spouses of the Iraq and Afghanistan conflicts, DEA 
translates to ``college is unaffordable.'' For full-time college 
enrollment, a Survivor receives only $936 per month, no cost-of-living 
(housing) allowance, and no book stipend.
    Today, the total potential DEA benefit is $43,065 compared to 
$53,028 under the Montgomery GI Bill. By comparison, the Fry 
Scholarships pay the full cost of enrollment at any public college or 
university, a housing allowance based on a Sergeant's (E-5) ``with 
dependents'' housing rate for the zip code of the college, and up to 
$1000 annually for books.
    Conservatively, the Fry Scholarship benefit is worth at least 
double the amount available under DEA. For example, an eligible child 
attending college near Fort Bragg, North Carolina would receive $1104 
per month housing allowance for 36 months of full-time study, a total 
of $39,744 for living expenses alone. A surviving spouse would not get 
a penny toward her housing needs if attending college under DEA.
    For full-time study in Seattle, Washington a Fry Scholarship 
participant would receive $55,620 for housing alone (assuming full-time 
study). A surviving spouse would get nothing toward housing.
    MOAA strongly recommends the Committee support S. 1852 to authorize 
Post-9/11 GI Bill benefits (Chapter 33, 38 U.S.C.) for Survivor Spouses 
of members who died in the line-of-duty after 10 September 2011 in lieu 
of Survivors and Dependents Educational Assistance (DEA) benefits. As 
an interim measure, if resources are not available, authorize DEA 
participants a housing allowance and book stipend.
S. 2179 (Sen. Webb, D-VA)
    The Military and Veterans Educational Reform Act of 2012 would 
strengthen oversight of the new GI Bill; require all degree-granting 
programs to meet compliance measures under Title IV of the Higher 
Education Act of 1965; require State Approving Agencies (SAAs) to 
conduct annual audits of institutions that have VA programs; mandate 
one-on-one educational counseling for military members and veterans 
considering applying for military tuition assistance or GI Bill 
benefits; establish a complaint resolution process for individuals, and 
for other purposes.
    S. 2179 is consistent with recommendations that MOAA and other 
military/veterans groups made to the Administration in January 2012 to 
strengthen consumer education for military and veteran students 
applying to college or non-degree training and ensuring rigorous 
oversight of all institutions that receive military tuition assistance 
and GI Bill funding. A number of MOAA's recommendations are reflected 
in Presidential Executive Order 13607.
    MOAA feels that the government should require institutions of 
higher learning to track and report costs, graduation rates, degrees 
granted and similar data for the use of military members and veterans 
contemplating enrolling in college. The Dept. of Education's ``College 
Navigator'' online also is a valuable resource in that regard. We 
recommend further modification of College Navigator to enable 
comparative `shopping' of programs.
    MOAA supports the concept of modernizing the role of the State 
Approving Agencies (SAAs) to meet the needs of 21st century GI Bill 
participants, as discussed above. Public Law 111-377 modified the SAAs' 
mission and responsibilities but made no adjustment in funding. The 
rules implementing the legislative change have not been published in 
the Federal Register. SAA funding poses a particular challenge because 
it is mandatory spending and can only be increased by raising taxes, 
finding offsets or deficit spending.
    MOAA recommends the Committee hold a roundtable or separate hearing 
to discuss the role, mission and funding of the SAA program consistent 
with the change proposed in S. 2179.
    MOAA strongly endorses the objective of one-on-one counseling to 
prospective military and veteran students contemplating using military 
tuition assistance or GI Bill benefits. MOAA does not have first-hand 
information about the value of VA contracted counseling under Section 
3697, 38 US Code. Informally, some service organizations have 
reservations about contracted counseling.
    Colleges already provide counseling through faculty advisors and 
others. With the expansion of ``VetSuccess'' programs on campus, we 
would suggest that tailoring that program might be the way to proceed. 
We also believe that basic counseling on choosing a school/program 
could be provided online via webinars and other technologies.
    A practical concern on mandatory counseling is matching supply to 
demand. Since the start of The Post-9/11 GI Bill on 1 August 2009, the 
VA has paid 735,549 beneficiaries through fiscal year 2011. Another 
650,000 or more beneficiaries are expected to enroll this year. If the 
mandatory counseling provision is adopted, MOAA recommends development 
of a range of options to ensure it is carried out. In line with the 
President's Executive Order, the Departments of Education, VA and DOD 
should lead this effort working with degree and non-degree providers, 
higher education groups and the military and veteran service 
organizations.
S. 2206 (Sen. Lautenberg, D-NJ)
    The GI Educational Freedom Act of 2012 would, like S. 2179, require 
educational or vocational counseling unless an eligible veteran opts 
out of such counseling. The bill also would repeal the $6 million 
fiscal year limitation for VA to contract out for counseling services 
and establish a system to collect, process and track complaints 
submitted by individuals enrolled in VA programs of education to report 
instances of waste, fraud and abuse.
    MOAA supports S. 2206.
S. 2241 (Sen. Murray, D-WA)
    The GI Bill Consumer Awareness Act of 2012 would establish clear 
and consistent standards for reporting certain information about 
educational institutions and programs available to veterans and members 
of the Armed Forces, including student loan debt, transferability of 
credits, veteran enrollment, qualification for licensing and 
certification, and job placement rates. It also would require schools 
to have at least one employee who is knowledgeable about benefits 
available to servicemembers and veterans; require the Depts. of VA and 
DOD to develop a joint policy on aggressive recruiting and marketing 
practices aimed at servicemembers, veterans and other beneficiaries; 
and modify the educational and counseling provision to expand 
eligibility.
    MOAA applauds this legislation. In common with S. 2179 and S. 2206, 
S. 2241 provides stronger government oversight, disclosure and consumer 
support for military members and veterans enrolled in or contemplating 
using military and veteran educational assistance programs. The bill is 
consistent with recommendations MOAA and other groups (discussed above) 
made to the Administration. The underlying intent of these 
recommendations is to protect the integrity and credibility of the new 
GI Bill, stop waste, fraud and abuse, and ensure the greatest potential 
for successful outcomes for military and veteran students.
    Strengthening oversight is a core feature of S. 2241. This is 
consistent with our recommendation for a coordinated, Federal response 
to protecting the new GI Bill. Adding to that, S. 2241 would require 
information on employment-related outcomes from educational and 
training programs managed by the government.
    A second key feature of S. 2241 is counseling. Each of the bills 
before the Committee takes a slightly different approach. S. 2241 would 
widen the circle of eligibility for counseling to all those currently 
serving on active duty of at least 180 days or has completed 180 days 
active duty. S. 2241 would leave in place the authority for the VA to 
contract out educational counseling, unlike S. 2206, which would repeal 
the $6 million cap for such counseling. S. 2179, by contrast, would set 
a threshold of 20 eligible students on campus for such counseling.
    As discussed earlier, MOAA strongly supports educational 
counseling. We believe academic counseling should primarily be in the 
hands of degree-granting schools. VetSuccess programs on campus should 
focus primarily on VA-benefit delivery, enrollment in VA care and help 
in accessing readjustment and mental health counseling.
    The Student Veterans of America (SVA), higher education groups, 
veterans and other stakeholders should be consulted regarding 
educational counseling options.
    MOAA recommends that the oversight, reporting, disclosure and 
counseling features of S. 2179, S. 2206 and S. 2241 be integrated in a 
single measure and favorably reported out of the Committee.
               reemployment and civil relief protections
S. 2299 (Sen. Murray)
    The Servicemembers Rights Enforcement Improvement Act of 2012 would 
amend the Servicemembers Civil Relief Act to improve the provision of 
civil relief to members of the uniformed services and to improve the 
enforcement of employment and reemployment rights of such members, and 
for other purposes.
    S. 2299 reflects a number of recommendations from the U.S. 
Department of Justice to strengthen enforcement of the USERRA and SCRA 
statutes. The bill would enable the Attorney General to investigate and 
file suit against a pattern or practice of USERRA violations by a state 
or private employer; allow the government to serve as a named plaintiff 
in USERRA suits and to issue civil investigative demands for relevant 
documentary material; and provide the Special Counsel with authority to 
subpoena relevant testimony and documents from Federal employees and 
agencies to carry out investigations.
    This bill also would strengthen the statutory protections of SCRA 
as well as the mechanisms used to enforce them by: strengthening the 
protections that prevent judgments against a servicemember when they 
cannot appear in court because of military service; broadening the 
authority of the Attorney General to investigate allegations of SCRA 
violations; and establishing a private right of action for a violation 
of the SCRA to December 19, 2003.
    Not long after the Sept. 11, 2001 attacks, MOAA testified before 
the Veterans' Affairs Committees on the need to upgrade protections 
under the USERRA and SCRA because of the ongoing call-ups of the Guard 
and Reserve. We recommended adoption of legislation for a pilot that 
would give authority to the Office of Special Counsel to monitor and 
enforce the USERRA for members of the Federal workforce who are members 
of the National Guard and Reserve. In our view, the Federal Government 
must be the bellwether and standard for USERRA compliance. MOAA 
continues to support tougher enforcement measures for the USERRA and 
SCRA.
    MOAA also strongly supported establishment of a private right of 
action for Reservists whose rights were trampled by willful disregard 
of SCRA protections.
    Our Nation's growing reliance on the National Guard and Reserves 
for operational duties here and overseas means that our warrior-
citizens must have airtight reemployment rights and financial 
protections when they are called to the colors.
    MOAA strongly supports the Servicemembers Rights Enforcement 
Improvement Act of 2012 and urges quick passage of the bill to 
strengthen enforcement of the rights of those who defend the rest of 
America.
S. 3179 (Sen. Jack Reed, D-RI)
    The Servicemember Housing Protection Act of 2012 would amend the 
Servicemembers Civil Relief Act (SCRA) to enhance the protections 
accorded to servicemembers and their spouses with respect to mortgages, 
and for other purposes.
    S. 3179 would permit a servicemember to terminate a lease agreement 
without penalty in situations where on-post housing suddenly becomes 
available. Several states already have similar laws; the legislation 
would extend this opportunity to servicemembers serving at any military 
base.
    The legislation also enables military families to gain SCRA 
protections as needed via a commanding officer letter. There have been 
instances in recent years where servicemembers are activated prior to 
the issuance of formal orders. This bill would apply the broader 
definition of military orders, allowing for commanding officer letters 
in all sections of the SCRA in which a servicemember is required to 
submit copies of military orders. This change will make it easier for 
servicemembers to get their affairs in order more quickly prior to 
deployment.
    Last, S. 3179 would extend the nine-month window of foreclosure 
protections to surviving spouses. After suffering such an unspeakable 
loss, a military spouse should not have the additional burden of 
dealing with the potential of a mortgage foreclosure so soon after the 
death of her/his military sponsor.
    MOAA supports The Servicemember Housing Protection Act, S. 3179.
S. 3233 (Sen. Casey, D-PA)
    The Servicemembers Access to Justice Act of 2012 would amend Title 
38, United States Code, to improve the enforcement of employment and 
reemployment rights of members of the uniformed services, and for other 
purposes.
    S. 3233 would protect National Guard/Reserve state-workers by 
requiring states to waive their sovereign immunity in cases requiring 
the enforcement of USERRA rights; make workplace arbitration agreements 
unenforceable in disputes arising under USERRA; authorize punitive 
damages against employers' egregious violations of the statute and 
provide for a jury trial in such cases; require ( current law only 
``authorizes'') a court to use equitable relief, including injunctions 
and restraining orders when appropriate, for USERRA violations; require 
a report on the effectiveness of Federal education and outreach efforts 
on employer obligations under the law; and, for other purposes.
    The Pentagon's Operational Reserve policy means that National Guard 
and Reserve forces are routinely called to active duty for operational 
duties at home and overseas. The policy does not end when the troops 
come home from Afghanistan. In fact, as our Armed Forces are drawn down 
in the coming years, we can expect even greater reliance on the Guard 
and Reserve to perform military missions. In this context, laws that 
protect the re-employment rights of reservists must be adjusted to 
reflect the new realities of reliance on our Guard and Reserve men and 
women.
    Since September 11, 2001, 848,359 Guard and Reserve members have 
served on operational active duty (as of 29 May 2012), and 263,839 (as 
of 31 March 2012) have served multiple tours.
    The FY 2012 National Defense Authorization Act (NDAA) further 
expanded the Operational Reserve policy by authorizing non-emergency 
access to the Guard and Reserve. The NDAA contains a provision that 
permits the Service Secretaries to activate up to 60,000 reservists for 
up to one year to perform pre-planned, budgeted missions--missions that 
no longer will require a national emergency declaration by the 
Commander in Chief.
    Non-emergency call-ups of the Guard and Reserve have no precedent 
in our Nation's history. This sea-change in reliance on the Reserves 
means it will be important that the Committee, working with the Armed 
Services Committee, must ensure that this expansion of policy does not 
adversely affect Guard and Reserve members, their families and 
employers. And, it means that the laws protecting our Guard and Reserve 
members when they return to the community and workplace must be robust 
and well-understood in the public space.
    MOAA continues to endorse a comprehensive approach to supporting 
Guard and Reserve servicemembers, including expansion of incentives for 
employers to hire and retain them. But the cornerstone of this effort 
must be ensuring a strong, responsive set of laws that protect their 
return to the workplace.
    MOAA supports S. 3233.
S. 3236 (Sen. Pryor, D-AR)
    The Servicemember Employment Protection Act would amend Title 38, 
United States Code, to improve the protection and enforcement of 
employment and reemployment rights of members of the uniformed 
services, and for other purposes.
    Section 2 of S. 3236 would make workplace arbitration agreements 
unenforceable in disputes arising under USERRA. The Section is similar 
to Section 3 of S. 3233, above.
    Section 4 of the legislation would suspend, terminate or debar a 
government contractor if the head of the government agency determined 
that a contractor had repeatedly failed or refused to comply with the 
USERRA. By comparison, Section 7 of S. 3233 would require Federal 
agencies to notify contractors of potential obligations relating to the 
USERRA.
    MOAA supports Sections 2 and 4 of S. 3236 and recommends the 
Committee coordinate final legislative language with similar provisions 
in S. 3233.
    Section 3 of S. 3236 would extend USERRA protections to members of 
the uniformed services to include protections for absences from 
employment for medical treatment relating to service-connected injuries 
and illnesses.
    MOAA supports Section 3 in principle. We are concerned, however, 
over the practical challenges in implementing the change. Over the past 
10+ years of conflict, only one case concerning a workplace absence for 
medical treatment arising from military service has come to our 
attention. For example, if a Reservist were required to provide 
documentation to his employer of the nature of the injury or illness 
for which medical treatment is needed, that could compromise her 
private medical record from military service.
    Moreover, we would be concerned if an employer were to use military 
medical information to find a Reservist-employee later unfit for 
employment. MOAA recommends that this provision be tabled until 
implementation questions are clarified in the interest of protecting 
members of the Guard and Reserve returning to the workplace with 
injuries or illness, including Post Traumatic Stress Injury or 
Traumatic Brain Injury.
                 other legislation before the committee
S. 2246 (Sen. Boozman, R-AR)
    The TAP Modernization Act of 2012 would direct a three-year pilot 
of providing Transition Assistance Program (TAP) services at locations 
other than military installations in at least three and up to five 
states based on the highest unemployment rates of veterans.
    This legislation's purpose is akin to the National Guard's `yellow 
ribbon' transition support programs for returning members of the Guard 
and their families. States like Arkansas, Maryland, Minnesota, New 
Hampshire and others have pioneered very effective TAP-like programs. 
Title 10 requires reintegration activities be conducted at `home 
station' at 30, 60 and 90 day intervals for Guard and Reserve members 
and their families following deployment.
    The focus on veteran unemployment is a commendable objective of 
S. 2246. If the bill is enacted, MOAA would suggest that the states 
selected for the pilot should include one or more successful `yellow 
ribbon' reintegration program states.
    MOAA supports S. 2246.
S. 1798 (Sen. Tom Udall, D-NM)
    The Open Burn Pit Registry Act of 2011 would establish an open burn 
pit registry to ensure that members of the Armed Forces who may have 
been exposed to toxic chemicals and fumes caused by open burn pits 
while deployed to Afghanistan or Iraq receive information regarding 
such exposure, and for other purposes.
    S. 1798 is consistent with other actions taken Congress to track 
the long-term effects on service women and men from toxic exposures.
    MOAA believes S. 1798 supports the long-term health of our Nation's 
veterans exposed to toxic substances in open burn pits, protects the 
government's interest, and ensures that future benefits, treatments and 
outcomes can be tracked back to data on exposure.
    MOAA supports S. 1798.
                               conclusion
    The Military Officers Association of America is grateful to the 
leadership and Members of the Committee on Veterans Affairs for its 
enduring commitment to the support of our veterans, who have stood in 
the breach and protected the freedoms that their fellow citizens 
sometimes take for granted.

    Chairman Murray. Thank you very much. We really appreciate 
the testimony from all of you. We are going to have several 
votes called. I do have a number of questions I will submit for 
the record, but I just want to just quickly say, Colonel, thank 
you so much for your support of S. 2299. It is important that 
we have that balance between incentives for employers to hire 
and strong protections for our men and women as they return to 
the workplace.
    I just wanted to quickly ask Mr. Tarantino, given the 
significant contributions of our Guard and Reserve over the 
last decade, how important is strong enforcement of USERRA for 
your members in combating the high rate of veteran 
unemployment?
    Mr. Tarantino. Madam Chairman, I would say it is incredibly 
important. I mean, IVA strongly supports all the bills that 
deal with USERRA and the SCRA protections. We have gone over 
them thoroughly. They are a major component to our employment 
agenda this year. The fact is, is that this--particularly this 
generation of warriors has been deployed so much that it is 
compounding an already dire employment situation.
    I am concerned that if we do not act now, that we are going 
to slide further down. I am also concerned that we have to make 
sure that we act in a way that not just protects veterans, but 
also does not alienate them from employers. I think that these 
bills are sensible, I think that they are good ideas, and I 
think we need to move forward with them. I think if we do not 
pass them this year, we would be doing a great disservice to 
unemployed veterans.
    Chairman Murray. Thank you very much. Senator Burr.
    Senator Burr. Mr. Tarantino, if I understood you correctly, 
you set the bar for good institutions being do they provide 
value. Did I understand that correctly?
    Mr. Tarantino. It is a little simplistic, but it depends on 
how you define value. There are lots of ways to define value. I 
would say if, as a student--and this is coming from the 
individual's perspective--if you get out of your education 
program what was either promised to you or what was intended--
so for me, I am an international relations major. I work in 
politics. That is kind of what I was intending anyway, so it 
was fine.
    But if I am going to a vocational program that is saying, 
You are going to get a job in accounting, or this leads to a 
field in the health care field, and it turns out that your 
program actually does not prepare you for the licensing and 
certification test, nor does it qualify you to even remotely 
get a job, things like nursing technology and financial 
management technician, I think that harms the value of the 
entire educational institution.
    And what we are finding is that because, as a country and 
as a separate problem, we do not collect sensible metrics on 
education almost at all, that it is very easy to hide. It is 
very easy for good institutions to get drowned out----
    Senator Burr. Let me ask you, you talked about the for-
profit institutions, but you left out not-for-profit 
institutions. Do all non-profit institutions provide value?
    Mr. Tarantino. I do not think it is an either/or scenario, 
Senator. I think----
    Senator Burr. It is a simple question. Do you believe that 
all non-profit institutions provide value, or is that a concern 
of yours for non-profit?
    Mr. Tarantino. I think that the for-profit, the value 
proposition in the for-profit institutions is severely in 
question due to drop-out rates in the average----
    Senator Burr. You said they were expensive and they had a 
high drop-out rate, and the question is, should it be 
unemployment? We have got gainful employment rules that take 
effect later this year. Are those good? Is that a good matrix?
    Mr. Tarantino. I think it is a good start.
    Senator Burr. OK.
    Mr. Tarantino. And I am looking forward to seeing them 
reported in a reasonable manner and not hidden on each 
individual school's Web site.
    Senator Burr. Let me ask you, which are the bad not-for-
profit institutions?
    Mr. Tarantino. Well, I am glad you asked, actually, because 
this is something that we have been trying to look at. It is 
not as easy as saying there is a good school and a bad school. 
I think there are industry-wide problems with marketing and 
recruiting. Certainly the University of Phoenix and the 
Education Management Corporation, which are the top two GI Bill 
recipients, have serious problems.
    Senator Burr. I just asked you about the not-for-profit. 
Those would be for-profit, would they not?
    Mr. Tarantino. Well, I mean, you would have to look at 
their graduation rates and I am sure that there are bad ones, 
too.
    Senator Burr. Well, gainful employment, actually, has an 
impact or graduation rates.
    Mr. Tarantino. I think there is a significant difference, 
Senator, between a school whose job it is----
    Senator Burr. Should we do it based upon how many years it 
takes an individual to graduate?
    Mr. Tarantino. I think----
    Senator Burr. I have got community colleges in North 
Carolina that are visibly some of the best in the country. They 
have a graduation rate, after 6 years, of 28 percent. Is that 
good or bad?
    Mr. Tarantino. It depends on how you compare programs. 
Community colleges serve five distinct populations, only one of 
which is mostly considered graduation in this country. The 
other four will never be counted as graduation, so to compare 
community college to an institution that is a for-profit 
primarily vocational school is not a like comparison, Senator.
    Senator Burr. Is it fair to compare it to a not-for-profit 
institution?
    Mr. Tarantino. It depends on the programs that the not-for-
profit offers.
    Senator Burr. Well, you said the gainful employment should 
be a good gauge, right?
    Mr. Tarantino. I have no problem with establishing gainful 
employment reporting for across the educational----
    Senator Burr. Why would you exclude gainful employment from 
the evaluation of not-for-profit institutions which is what the 
President did?
    Mr. Tarantino. I do not have a problem with extending 
gainful employment. In fact, IVA has been consistent in saying 
that all of these metrics should be reported across the board. 
But we have to acknowledge that there is a significant 
difference between an institution whose job it is and mission 
it is to primarily educate and an organization which has a 
major profit motive. And I think that adds something into the--
that adds something into the equation.
    Senator Burr. Sir, is there--and I ask this more because I 
am on the Health Committee--should we be looking at for-profit 
hospitals differently than we do not-for-profit hospitals?
    Mr. Tarantino. It is not the same comparison.
    Senator Burr. Oh, it is not? Why is that? It is the same 
label, is it not?
    Mr. Tarantino. No, actually, Senator, it is not. For-
profit----
    Senator Burr. For-profit institutions have----
    Mr. Tarantino. For-profit institutions take almost 90 
percent, on an average 86 percent, Government funded. These are 
not institutions that are businesses. These are institutions 
that are unregulated Government programs. These institutions 
are not funded by the free market.
    Senator Burr. How much of a not-for-profit----
    Mr. Tarantino. These institutions are funded by tax----
    Senator Burr. How much of the not-for-profit world is 
funded by the Federal Government?
    Mr. Tarantino. They are public schools, Senator, and I 
think a lot of them are funded primarily by a lot of private 
tuition. But it is also hard. You cannot compare----
    Senator Burr. There are a lot of for-profit schools. People 
pay to go. The Government is not the sole payer of for-profit 
institutions.
    Mr. Tarantino. If you add in military benefits and 
financial aid, that number is easily over 90 percent, on 
average, for for-profit schools and you know this, Senator, 
because you are on the Committee that did the investigation.
    Senator Burr. I would not call that an investigation. I 
would call it a whitewash. But we will have that debate later 
on.
    Let me ask you, Mr. Meijer, do you agree that excluding 
not-for-profit institutions is a good practice in the gainful 
employment? Because two of the bills here today, S. 2241 and 
S. 2179, exclude not-for-profit institutions as well. They just 
apply to for-profit.
    Mr. Meijer. I mean, sir, we agree that the issue of gainful 
employment is an issue across the board. The majority of the 
issues that we have had at SVA where we have our student 
veterans coming back to us and saying, I did not get the value 
that I was supposed to get out of my education, what I was 
promised going in and what I got at the outset, those are 
completely different and I feel cheated.
    And the majority of those are coming from for-profit 
schools. Now, for-profits are also a large part of our 
contributing student veteran population, and we have a lot of 
student veterans who are getting an excellent education at for-
profit schools. But there are those predatory for-profits.
    Senator Burr. Have any idea what the percentage of veterans 
under the GI Bill are actually enrolled in for-profits versus 
not-for-profit?
    Mr. Meijer. We have between 20 and 40 percent, sir.
    Senator Burr. Enrolled in for-profit versus not-for-profit?
    Mr. Meijer. Yes, sir.
    Senator Burr. Colonel Norton, what do you think? Do you 
think gainful employment ought to be a gauge for not-for-profit 
as well?
    Colonel Norton. I think it is one of the--excuse me. 
Senator, I think it is one of the measures that needs to be 
considered, but answering maybe the broader thrust of your 
inquiry, I like the idea in Senator Webb's bill that all 
schools would meet a basic standard of quality as determined 
under Title IV.
    Senator Burr. It is sort of novel to apply the same thing 
to everybody, is it not?
    Colonel Norton. I think it is a great idea.
    Senator Burr. I agree with you. I agree with you. I thank 
all of you. Thank you, Chair.
    Chairman Murray. Thank you very much. I think it really is 
important that our veterans get the best information possible 
so they can make the best choice for themselves to get the 
education that this country has rightfully said that they are 
going to get.
    I want to thank all of our witnesses for appearing before 
us today and appreciate all of your responses. Our next hearing 
is scheduled for June 27. We are going to be examining health 
and benefits legislation.
    I appreciate everybody's participation today. With that, 
this hearing is adjourned. Thank you.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


          Prepared Statement of the U.S. Department of Defense
    Chairman Murray, Ranking Member Burr, and members of this 
distinguished Committee thank you for extending the invitation to the 
Department of Defense to address pending legislation that would 
significantly affect our Servicemembers: S. 2179, the proposed 
``Military and Veterans Educational Reform Act of 2012,'' S. 2246, the 
proposed ``TAP Modernization Act of 2012,'' S. 2299, the proposed 
``Servicemembers Rights Enforcement Improvement Act of 2012,'' S. 2241, 
the proposed ``GI Bill Consumer Awareness Act of 2012,'' and S. 3179, 
the proposed ``Servicemember Housing Protection Act of 2012.''
   s. 2179, ``military and veterans educational reform act of 2012''
    S. 2179 would improve oversight of educational assistance provided 
under laws administered by the Secretary of Veterans Affairs and 
Secretary of Defense.
    The Department does not object to the intent of the requirements 
stated in this Bill, however there may be a significant increase in the 
workload incurred by the institutions and government agencies as a 
result. This increase will require additional funding and manpower. For 
example, the Bill mandates new requirements for institutions to provide 
one-on-one counseling with 20 or more students enrolled in education 
programs. The Bill also adds several reporting requirements from the 
institutions, Department of Veterans Affairs, and DOD. Finally, the 
Bill requires establishment of a database to house all complaints 
submitted by students using VA or DOD education assistance. DOD does 
not object to the additional requirements that this Bill would impose 
on our Department, but we defer to VA on the other provisions in this 
bill.
               s. 2246, ``tap modernization act of 2012''
    S. 2246, ``TAP Modernization Act of 2012,'' calls for ``Off-Base 
Transition Training'' in at least three and no more than five states 
with the highest rates of veteran unemployment, over a three year 
period. Because of the increased workload this legislation would place 
on government agencies, DOD defers to the Department of Labor (DOL) 
regarding this proposal.
    The Department of Defense has a strong relationship with theDOL, 
which is evident in our daily collaborations on the Transition 
Assistance Program. DOL has worked very closely with the Department of 
Defense in redesigning the Department of Labor Employment Workshop for 
our transitioning Servicemembers and their spouses. The Office of the 
Secretary of Defense and the Military Services have been actively 
engaged in the development of the revised Employment Workshop 
curriculum. We look forward to it being rolled out in July at some of 
our installations.
 s. 2299, ``servicemembers rights enforcement improvement act of 2012''
    The Department supports the provisions of S. 2299 that are 
discussed below, but defers to DOL and the Department of Justice on the 
other provisions, including provisions that affect the Uniform Services 
Employment and Reeemployment Rights Act of 1994 (USERRA). The 
Servicemembers Rights Enforcement Improvement Act of 2012 would modify 
the filing requirements for plaintiffs seeking default judgments 
against Servicemembers and provide for retroactive application of the 
private right of action. This legislation would amend the 
Servicemembers Civil Relief Act (SCRA) to enhance the protections 
afforded Servicemembers when lenders file affidavits seeking default 
judgments in mortgage situations, and would allow for retroactive 
application of the private right of action for Servicemembers under the 
SCRA.
    The amendment to Section 521 of the SCRA would strengthen 
Servicemembers' protections from default judgments, since the 
plaintiff-creditors would have an enhanced statutorily-mandated burden 
of investigation. While we believe such a burden exists now, the 
current provisions have not been applied uniformly.
    The Department also supports the retroactivity of 597a. The Bill 
enhances the existing provisions and provides a vehicle to enforce 
them. We have no objection and great support for that proposed 
legislative language.
          s. 2241, ``gi bill consumer awareness act of 2012''
    The Department does not support S. 2241. This legislation would 
direct the Secretary of Defense, on an ongoing basis, to make available 
to individuals eligible to receive, or who are receiving, assistance 
under the DOD Military Spouse Career Advancement Account program 
specified information about the types of accreditation available to 
educational institutions and programs of education, a general overview 
of Federal student aid programs and the implications of incurring 
student loan debt, and educational program results. We believe that we 
will accomplish many of these goals through our current efforts, in 
conjunction with other Departments, to comply with the recent Executive 
Order 13607--Establishing Principles of Excellence for Educational 
Institutions Serving Servicemembers, Veterans, Spouses, and Other 
Family Members.
    Section 3(b) adds a section to chapter 106A (formerly 107), title 
10, U.S.C., with a requirement for the Department of Defense to enter 
into a memorandum of understanding with educational institutions for 
individuals receiving assistance under that chapter. Eligibility for 
benefits under chapter 106A was limited only to individuals who 
enlisted in the Armed Forces during Fiscal Year 1981.
    Although codified in title 10, U.S.C., educational benefits under 
this chapter are funded and administered by the Department of Veterans 
Affairs (VA) in conjunction with benefits under chapters 30-35, title 
38, U.S.C. Additionally, VA administers the benefits under chapters 
1606 and 1607, title 10, U.S.C., and, as such, any memorandum of 
understanding with an educational institution entered into by VA would 
cover such individuals.
       s. 3179, ``servicemember housing protection act of 2012''
    The Department supports S. 3179, the Servicemember Housing 
Protection Act of 2012 which provides protections of surviving spouses 
with respect to mortgage foreclosure and creating protections in the 
event of termination of residential leases. This legislation would 
amend the Servicemembers Civil relief Act to enhance the protections 
afforded Servicemembers and their spouses with respect to mortgage 
foreclosures, and simplify the process for Servicemembers and spouses 
to terminate residential leases to move into government housing. It 
would also modify the definition if military orders for purposes of the 
Act.
    Section (a) would amend 50 U.S.C. App. 533 to protect surviving 
spouses from nonjudicial mortgage foreclosure for nine months after the 
spouse's service-connected death. This is favorable and we have no 
objection. We do urge consideration of the fact that the DMDC database 
will not and cannot reflect or provide surviving spouse information to 
financial institutions that may search for same in the same manner that 
they do as an element of their obligations to determine Servicemember 
protections under the SCRA. There are, however, other means by which 
lenders may determine or be informed of surviving spouse status and we 
believe these protections to be valuable and the right thing to do.
    Section (b) would amend 50 U.S.C. App. 535 to add as a basis for 
terminating an off-base lease that the member is ordered into or 
offerred base housing. This is also a favorable provision. This has 
been a recurring problem, especially around large Army bases, and this 
has been a long term priority. The definition of base housing used has 
been carefully crafted and also covers privatized on-base (and even 
off-base). Thus, the amendment covers all government/privatized housing 
into which the member could be ordered and this is a good amendment and 
should be supported.
    Section (c) would amend 50 U.S.C. App. 511 to move the definition 
of ``military orders'' from Section 535 and place that definition in 
Section 511 which covers all definitions applicable to the entire SCRA. 
This is also acceptable and we have no objection.
                                 ______
                                 
          Prepared Statement of Thomas Babel, Vice President, 
                     Regulatory Affairs, DeVry Inc.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Prepared Statement of Margaret Baechtold, Legislative Director, 
        National Association of Veterans Program Administrators
    Chairman Murray, Ranking Member Burr, and Members of the Committee 
on Veterans' Affairs, the National Association of Veterans Program 
Administrators (NAVPA) is pleased to be invited to provide comment on 
the bills currently under consideration by this Committee. NAVPA's 
membership is comprised of educational institutions from all sectors 
with an organizational commitment to advocating for what is in the best 
interests of student veterans at our institutions. Our expertise lies 
in the administration of veterans programs at colleges, universities, 
and other education providers and most of our members serve as School 
Certifying Officials for VA education benefits. Our organization 
represents close to 400 educational institutions Nation-wide and our 
leadership is comprised of non-paid staff members. We voluntarily serve 
NAVPA in an effort to better serve the veterans on our campuses.
    NAVPA is a voluntary organization with a primary mission to provide 
training and professional development to member institutions, collect 
and disseminate best practices surrounding support for student veterans 
and military members, and advocate on behalf of students and our 
institutions. As an organization, we believe strongly that all 
educational institutions should be forthright and open with all 
students, particularly with regards to veterans' and military 
servicemembers' unique needs and circumstances. We also believe that 
institutions should provide the appropriate support and services needed 
by all students, especially veterans, military members, and their 
families.
    Regarding complaint systems: NAVPA has no objection to any of the 
bills' provisions to create a centralized complaint system. We would 
request that there be at least a minimal requirement that students 
attempt to resolve their issues at the local campus level before 
reporting to the VA or other agencies. We would also hope that in this 
same spirit of soliciting feedback about support for student veterans, 
there would also be a mechanism created by which students could provide 
feedback regarding the support and services they receive from the VA 
and DOD as they pursue their educational objectives.
    Regarding S. 1634: NAVPA is not convinced that simply repealing the 
``deemed approved'' clause of Pub. L. 111-377 will provide the schools' 
needed training and oversight. Our membership recalls the days when 
Education Liaison Representatives (ELR) and State Approving Agencies 
(SAA) once had time and resources to provide assistance visits, claims 
resolution, technical assistance, and training for school staff 
members. Now they seem to be limited to once a year state training 
conferences which are of limited use since we and the VA are currently 
working without regulations for Pub. L. 111-377 and the new Veterans 
Retraining Assistance Program (VRAP). We understand the desire to put 
SAAs back in their old approval role, but in our observation, the 
current concerns about the treatment of veterans by some institutions 
did not appear only once Pub. L. 111-377 took effect in August 2011. 
Documented evidence that these bad practices were allowed to flourish 
due specifically to the lack of approval by SAAs since August 2011 
would justify this bill's removal of the ``deemed approved'' provisions 
of Pub. L. 111-377. But if these ``predatory'' schools have been in 
operation under SAA and VA oversight for years, returning the SAA back 
to their previous approval role won't necessarily impact this 
situation. Also, requiring accredited schools to again submit 
significant documentation for SAA or VA scrutiny after already gaining 
State and accrediting agency approvals for new programs seems 
redundant. The VA does need more people to conduct compliance surveys 
now that benefit programs are so complicated and diverse--and we agree 
that the SAA may not be the correct organization to do that. Only VA 
employees with total information access and training by VA are really 
qualified to do this. If the role of SAA is intended to be more about 
outreach and assistance to individual veterans and military members, 
let them focus on that. If SAAs are going to revert to a training and 
assistance role for schools, however, the VA must ensure that the SAAs 
have the information and expertise to share with institutions.
    Regarding S. 2206: NAVPA supports the goal of well-informed 
students who can make good choices about their education, but we are 
concerned whether the VA will have the resources and experienced 
personnel to conduct this mandatory counseling. If not, student 
enrollment at institutions and the receipt of educational benefits 
could be delayed to the point of hardship while awaiting this mandatory 
counseling or because benefit processing is delayed due to the VA's 
diversion of resources from processing to delivery of this counseling. 
How will VA be structured to deliver this counseling--in person, by 
phone, via the internet? Will the VA be able to easily track the 
completion of this counseling to authorize enrollment and benefit 
payment? Will most students simply opt-out of this counseling all 
together to avoid compromising their desired entrance into school?
    Regarding S. 2179: NAVPA supports the goal of a well-informed and 
supported student veteran, but has concerns about the following 
specific provisions of this bill.
    Section 3: Information listed for disclosure is, in most cases, 
already available to all students. There are some specific requirements 
that may prove problematic or impossible to accomplish. An exhaustive 
list of courses and schools from which those courses may be accepted 
for transfer in to an institution is not possible, for example. 
Correspondingly, a school has no visibility on which other institutions 
might accept courses for transfer out.
    Section 4: We caution against any statements concerning minimum 
institutional staffing. While well intentioned, these requirements 
could create an environment in which schools with very robust veterans 
support programs could justify a reduction in their staffing to meet 
this lowest-common denominator. Also, an unfunded mandate for 
specifically defined staff positions can be burdensome for some 
institutions and reduce their flexibility to provide the necessary 
support in a manner that fits with their existing staffing models and 
resources.
    Section 5: While we believe that veterans deserve access to 
information to assist them in making good academic and financial 
choices, we do not see that the SAA is positioned to provide this 
assistance while also assisting the VA with compliance visits. The VA 
needs to dedicate more resources to compliance activities so that SAA 
members can be available to conduct outreach efforts as described in 
this section.
    Section 6: NAVPA has no objection to these additional compliance 
requirements. We are concerned, however, that the VA will not have the 
resources to add this to their already extensive list of compliance and 
other activities for Education Liaison Representatives, their staffs, 
and the SAAs.
    Section 7: NAVPA supports the goal of providing comprehensive and 
easily understandable counseling to prospective students. We are again 
concerned that the VA does not have the manpower, expertise, or 
resources to fulfill this task.
    Regarding S. 2241: We are concerned here, as well as in provisions 
of other bills, that data collected based on benefit-eligible student 
status will not be useful in tracking veterans' academic success. 
Without further distinction, dependents using transferred Post-9/11 GI 
Bill benefits will be included in the data designed to measure the 
success rates of veterans themselves, for example. We also have 
concerns regarding the following sections:

    Section 3: We reiterate our concerns about specific staffing 
requirements for institutions that can have unintended consequences of 
setting a lowest-common-denominator standard.
    Section 6: NAVPA supports the expansion of eligibility for 
counseling under this reference
    Section 8: NAVAP strongly supports efforts to collect and share 
best practices for institutions supporting veterans and military 
members. We especially appreciate the inclusion of both Veterans 
Service Organizations and Educational Institutions in the determination 
of what constitutes best practices in this area.
    Section 10: NAVPA supports the concept of dedicated personnel to 
assist school certifying officials with their tasks, but have always 
believed this was the original intent of the role of the Education 
Liaison Representative within each state. We would recommend that ELRs 
be staffed and resourced such that they could return to this very 
helpful role for institutions. We would also support the concept of 
easier access for School Certifying Officials to dedicated staff 
members at the Regional Processing Offices or the Education Call Center 
to assist with the resolution of claims questions.

    Madam Chairman, thank you again for the opportunity to contribute 
these statements on behalf of the National Association of Veterans 
Program Administrators. Our organization stands ready to assist in all 
efforts to better support the women and men who have served this 
Nation. We thank you for your continued leadership on issues of 
critical importance to America's veterans. NAVPA would be happy to 
respond to any questions you may have.
                                 ______
                                 
  Prepared Statement of Patrick Bellon, MPA, Executive Director, and 
       Christopher Miller, LLB (HONS), Veterans for Common Sense
    The economic opportunities of America's veterans are being 
threatened by bad actors in the for-profit education sector. After 
America's young men and women in uniform have come home and hung up 
their uniforms for the last time they expect and deserve the right to 
pursue happiness like any other American and to enjoy the benefits that 
come along with having devoted years of their lives to serving their 
country. The GI Bill is not only a successful veterans program; it is 
the most successful public education and employment program in American 
history.
    Unfortunately, bad actors in the education industry are trying to 
take advantage of veterans and servicemembers for their own profit. 
They mock the sacrifices of our men and women in uniform. Veterans find 
their mailboxes, inboxes, and social networking pages filled addresses 
and phone numbers are bothered with spam and calls from college 
recruiters often working on commission. Some have been known to recruit 
on military posts and in other questionable settings that confer an 
assumed level of trustworthiness.
    Recruiters for these bad-actors sign up Marines who are being 
treated for brain injuries. Sailors are not being told that classes 
they're working hard on won't transfer to other schools. Soldiers are 
not informed that they're paying many times what the same program would 
cost at a community college. Airmen are finding that the support and 
employment prospects they were promised by college recruiter is not 
there. Veterans are all too often discovering too late that industry 
won't recognize their qualifications. One of the primary issues is that 
Veterans and servicemembers don't have neutral information to make 
informed decisions. The result is that education dollars are lining the 
pockets of dishonest colleges using aggressive or misleading 
advertising and recruitment tactics rather than benefiting the veterans 
and servicemembers as intended.
    Veterans for Common Sense supports recent efforts by two great 
champions of veterans, Senators Webb and Murray who have taken the lead 
along with Senator Harkin in trying to protect veterans from wily bad 
actors intent on cheating veterans and gaming the system. Veterans for 
Common Sense supports these efforts to protect our veterans well earned 
economic opportunities. All Americans of good conscience should be 
offended that our veterans would be taken advantage of for profit. This 
situation has to change.
    Recognizing this situation, Sen. Patty Murray (D-WA) and Sen. Jim 
Webb (D-VA), along with numerous co-sponsors, have introduced bills to 
confront these aggressive and decisions regarding their education and 
benefits.
    Sen. Murray's bill, the GI Bill Consumer Awareness Act, takes on 
the aggressive advertising and recruiting practices by requiring a 
joint DOD/VA working group to identify these practices, develop steps 
to combat them, and report them to Congress for further action. This 
bill gives veterans easy-to-understand information that they need, 
information on veteran enrollment, loan debt, credit transferability, 
preparation for licensing or certification, and employment prospects 
among others, including clear notice of which schools are approved for 
GI Bill benefits. Colleges will be prevented from recruiting on 
military installations or providing any sort of remuneration to 
recruiters based upon the number of vets signed up. Knowledge is power 
and in this case we feel that Congress should side with veterans. 
Veterans should have easy access to any and all pertinent information 
to make decisions about their future. No school should be allowed to 
hide or misrepresent this vital information.
    Sen. Webb's bill, the Military and Veterans Educational Reform Act, 
will require all schools approved for military education benefits have 
an accreditation recognized by the Department of Education and have a 
student drop-out rate under 33%, among other targets. Those that do not 
will be reviewed by the DOE and State Approving Agencies and possibly 
subject to sanctions. It requires the DOD and VA to develop centralized 
complaint processes for veterans and servicemember to report instances 
of fraud, abuse, and misrepresentation by universities. It also 
requires the sharing of information regarding graduation rates, default 
rates, and other enrollment information and requires coordination of 
the sharing of information by the DOD, DOE, and VA. Schools of all 
kinds must be held accountable. They cannot be allowed to take 
advantage of our brave men and women. They deserve better. They deserve 
the best future
    Both of these bills go a long way toward curbing aggressive and 
misleading advertising and recruiting tactics, requiring greater 
coordination between the Departments of Defense, Education, and 
Veterans Affairs, and ensure veterans and servicemembers are provided 
with information to make fair and informed decisions regarding where 
they use their education benefits. Servicemembers and veterans have 
sacrificed much to obtain these benefits and protecting them from 
abusive practices and helping them make better choices recognizes their 
sacrifice.
    Congress needs to take the lead by implementing measures to stop 
predatory practices by for profits. This is not political, it is not 
about free enterprise, it is about right and wrong. Congress must take 
action to ensure our veterans, in uniform and out, are not being taken 
advantage up for the sake of profit. This exploitation hurts our 
veterans and our society and must be stopped now.
                                 ______
                                 
          Testimony Submitted for the Record by Mark Dreyfus, 
                       President, ECPI University
    Chairman Murray, Ranking Member Burr and distinguished Members of 
the Committee: On behalf of ECPI University and our 2,000 veterans 
school-wide, thank you for the opportunity to submit testimony today.
    ECPI University is a closely held Private Sector University with 
ten campuses located throughout Virginia, North and South Carolina. The 
University also offers online programs through which about 10% of our 
students take classes. ECPI University is accredited by the Commission 
on Colleges of the Southern Association of Colleges and Schools (SACS) 
to award Masters, Bachelors and Associates degrees and diplomas in the 
areas of Technology, Health Care, Business and Culinary.
    ECPI University has been successfully educating veterans for over 
46 years and we have many veteran-focused programs and services. ECPI 
also has numerous military partnerships including SOCNAV, SOCMAR and 
SOCAD; Army, Navy, Marine Corps and Air Force Distance Learning; and 
full participation in the Yellow Ribbon Program with no limit, to name 
a few. We have found that our veterans appreciate the convenience, 
location, ability to fast-track their degree, flexible hours, smaller 
class sizes, and year-round learning that ECPI offers, as well as our 
career-based programs in technology, health care and other high-demand 
applied skills programs that often fit their military background. Most 
veterans are non-traditional students who may be older, have families, 
are already working or are changing careers, so they are eager to 
pursue career-focused programs that will speed their entry into the job 
market or accelerate advancement at their current jobs. Due to these 
factors, as well as our longstanding locations in Virginia Beach and 
other military communities, nearly 30% of ECPI University's student 
population is made up of veterans, which is a great honor to the school 
and a responsibility we take very seriously.
    ECPI University was named to GI Jobs' 2012 Military Friendly 
Schools list, which honors the top 20 percent of colleges, universities 
and trade schools that are doing the most to embrace America's military 
servicemembers and veterans as students. ECPI was also the highest 
ranked nontraditional school in the Military Times' 2011 survey of 
``vet-friendliness.'' Furthermore, the U.S. Department of Education's 
College and Affordability Center places ECPI in the top 10% of lowest 
net-cost 4-year and above private for-profit colleges.
    Several Senators have introduced legislation to address concerns 
about how some colleges and universities are recruiting and educating 
veterans. While it is unclear how widespread the alleged problems are, 
there is a perception that veterans are not getting the education they 
deserve and this is an excellent opportunity to improve veterans' 
education and services across the board at all educational 
institutions.
    ECPI supports S. 2206, The GI Educational Freedom Act introduced by 
Senator Lautenberg and S. 2241, The GI Bill Consumer Awareness Act 
introduced by Senator Murray. We feel these bills are an excellent step 
in the right direction and with some adjustments would go a long way in 
helping veterans succeed at their chosen educational institutions.
    ECPI strongly supports the provisions in both bills that would 
increase transparency through disclosures, offer up-front counseling 
and create a system to track complaints through the VA.
    However, we strongly believe that while counseling should be 
available and promoted, it should not be mandatory. Instead, schools 
should offer pre-admissions testing, as ECPI University has done for 
many years. ECPI has found that program-specific tests are an excellent 
indicator of whether a potential student has a good chance of 
succeeding in that field. For example, a nursing student must have a 
certain level of math and science knowledge and ability in order to do 
well our RN program, so applicants are tested prior to admission to 
gauge whether they have the fundamental skills necessary to succeed.
    We also believe that the disclosure requirements for military 
applicants should apply to all programs at all institutions, not just 
those that happen to be subject to the recently defined gainful 
employment requirements. By definition, ``transparency in veterans' 
education'' must include all schools. Requiring disclosures for only 
one sector which makes up about 20% of schools nationwide severely 
limits the information veterans receive, and in order to make truly 
informed decisions about their education they must have comparable 
information on all schools.
    Finally, we support a complaint system through the VA that will 
track and address valid complaints from veterans at all educational 
institutions to make sure they are receiving the education and services 
they deserve.
    In addition to disclosures and pre-admissions testing, there are 
other standards ECPI has had in place for many years that have been 
very effective in helping veterans select the institution that best 
meets their needs that would benefit veterans at all higher education 
institutions.

    <bullet> Liberal refund policy for first enrollment period--
Military and veteran students should be able to attend any institution 
initially for a trial period. If the student leaves the institution 
during the first month, neither the student nor the government will be 
billed for tuition.
    <bullet> Graduate Employment Assistance--Each institution should 
provide information about their Career Services office and this office 
should be proactive and an integral part of their education. There 
should be appropriate career services staff available to assist 
veterans. ECPI also has an Employer Advisory Board for each of our 
programs to make sure we are providing students the most up-to-date 
skills necessary to compete and succeed in their chosen field.
    <bullet> Suitability of online programs--Each institution must 
ensure the prospective student has the ability and is prepared to learn 
in an online educational environment. ECPI does this through pre-
admissions testing specific to online learning including technology 
skills. Institutions should provide prospective students with 
information about the advantages and disadvantage of attending online 
versus on-campus programs, and regularly evaluate the success of their 
online programs.

    ECPI University has had these practices in place for some time, 
which has enabled the school to prepare veterans for success both in 
the classroom and, ultimately, the workforce, for over 46 years, and 
all veterans would greatly benefit from these standards at their chosen 
educational institutions.
    Because of ECPI University's experience and commitment to veterans, 
we are dedicated to being part of the solution that ensures veterans 
get the education and services they deserve at their chosen 
institutions. We support S. 2206 and S. 2241 and hope Members of the 
Committee will implement the adjustments mentioned, and would welcome 
an opportunity to work with the Committee in this endeavor.

    Chairman Murray, Ranking Member Burr and Members of the Committee, 
thank you again on behalf of ECPI University and our student veterans 
for the opportunity to submit testimony for the record today.
                                 ______
                                 
        Prepared Statement of Harvey V. Fineberg, M.D., Ph.D., 
        President, Institute of Medicine, The National Academies
    Chairman Murray, Ranking Member Burr, and Members of the Committee 
on Veterans' Affairs: My name is Harvey V. Fineberg. I am the President 
of the Institute of Medicine of the National Academies. The Institute 
of Medicine (IOM) is an independent, nonprofit organization that works 
outside of government to provide unbiased and authoritative advice to 
decisionmakers and the public.
    Established in 1970, the IOM is the health arm of the National 
Academy of Sciences, which was chartered under President Abraham 
Lincoln in 1863. Nearly 150 years later, the National Academy of 
Sciences has expanded into what is collectively known as the National 
Academies, which comprises the National Academy of Sciences, the 
National Academy of Engineering, the National Research Council, and the 
IOM.
    I have been asked by your committee to submit a statement for this 
hearing on the topic of S. 1798, the proposed ``Open Burn Pit Registry 
Act of 2011.'' Our service men and women have long indicated concern 
that their health may have been adversely impacted by the burning of 
solid waste in open pits at US bases overseas where they were or are 
stationed. This concern has been echoed by Congress and the Department 
of Veteran's Affairs. In 2009 the IOM was asked by the Department of 
Veterans Affairs to assess the long-term health risks from open pit 
burning at bases in Iraq and Afghanistan, using Joint Base Balad (JBB) 
near Bagdad, one of the largest military bases in Iraq as an example.
    IOM convened an expert committee to study this matter and the 
Committee completed their report in 2011. This report is available to 
the public at no charge from the National Academy Press at the web 
address shown. [http://www.nap.edu/catalog.php?record_id=13209].
    I am submitting a copy of the complete summary of this IOM report 
for the record here. Briefly, the IOM collected data on environmental 
releases and concentrations of combustion products at JBB, considered 
information on possible human exposures at the base and elsewhere, and 
assessed the potential for long-term health effects of those exposures. 
The Department of Defense provided raw air-sampling data from JBB taken 
when the burn pit was in operation (it has since been replaced by 
incinerators), which were used to determine which chemicals were 
present at JBB. Based on these data, the Committee found that levels of 
most pollutants at the base were not higher than levels measured at 
other polluted sites worldwide.
    However, insufficient evidence prevented the IOM committee from 
developing firm conclusions about what long-term health effects might 
be seen in servicemembers exposed to burn pits. Along with more 
efficient data-gathering methods, the report recommends that a study be 
conducted that would evaluate the health status of servicemembers from 
their time of deployment to JBB over many years to determine the 
incidence of chronic diseases, including cancers, that tend to show up 
decades after exposure. Given the many hazards to which military 
personnel are exposed in the field, service in Iraq and Afghanistan in 
general, rather than exposure to burn pits only, might be associated 
with long-term adverse health effects.
    In addition to instructing the Department of Veteran's Affairs to 
establish a health registry, the proposed S. 1798 instructs the VA to 
enter into an agreement with an independent scientific organization to 
accomplish tasks outlined in Section 3 of the legislation. I will offer 
brief comments about those tasks. The three tasks are appropriate and 
feasible for an independent scientific organization to accomplish. For 
example, task 1 is to assess of the effectiveness of actions taken by 
the Secretaries to collect and maintain information on the health 
effects of exposure to toxic chemicals and fumes caused by open burn 
pits. The independent organization could invite the Secretaries and 
their technical staffs to review with the outside group their plans and 
programs for carrying out the legislation's requirements. That review 
would include assessing the completeness of toxic agents inventory that 
the VA Secretary believes are associated with the open burn pits, how 
and where the information is being derived and maintained, and how 
accessible it is to veterans included in the registry. This assessment 
would naturally lead to a set of recommendations (Task 2) to improve 
the collection and maintenance of such information. Finally Task 3 
requires an independent organization to review epidemiological studies, 
established and previously published, and to offer recommendations 
regarding the most effective and prudent means of addressing the 
medical needs of eligible individuals with respect to conditions that 
are likely to result from exposure to open burn pits. An independent 
scientific organization would be able to scour the world literature for 
relevant articles relating to this topic. Depending on the nature of 
the information discovered, the independent organization could 
ascertain which exposures might present the most significant potential 
long-term health risks. That, in turn, would lead to recommendations 
about how best to prevent or clinically manage these potential effects. 
If little or no information could be obtained from a comprehensive 
literature review, the independent organization could suggest new 
research, epidemiological and otherwise, to inform the health risks.
    In sum, the tasks outlined in section 3 of S. 1798 can be 
accomplished by a credible independent organization. That concludes my 
comments.
                                 ______
                                 
   Prepared Statement of Ryan M. Gallucci, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Madame Chairman and Members of the Committee: On behalf of the more 
than 2 million men and women of the Veterans of Foreign Wars of the 
U.S. (VFW) and our Auxiliaries, I would like to thank you for the 
opportunity to testify on today's pending legislation. With the 
conflict in Iraq drawing to a close, withdrawal from Afghanistan on the 
horizon, and proposals to scale back our Nation's active duty military, 
the VFW believes economic opportunity for today's war-fighters is a 
national imperative that continues to demand the kind of decisive 
action we saw with last year's passage of the VOW to Hire Heroes Act. 
Recent unemployment numbers indicate that veterans of the current 
conflicts remain unemployed at a higher rate than their civilian 
counterparts, with young veterans and female veterans have experienced 
unemployment rates well over twice the national average in the last 
year. The VFW is encouraged to see that this Committee continues to 
take this situation seriously, and we are honored to share our thoughts 
on today's bills in an effort ensure our veterans have the 
opportunities they have earned to succeed in a cut-throat economy after 
leaving military service.
        s. 1184, debarment for misrepresented veteran businesses
    The VFW has consistently called for improved oversight on 
businesses claiming to be owned and controlled by veterans and service-
disabled veterans. Too often we have heard that businesses skirt 
Federal regulations to take advantage of potentially lucrative set-
aside contracts for veteran-owned business ventures. Unfortunately, 
penalties for misrepresenting your small business entity are entirely 
too relaxed to discourage nefarious practices. With this in mind, the 
VFW is proud to support a minimum of five year debarment from Federal 
contracts for small businesses that misrepresent themselves as veteran-
owned or service-disabled veteran-owned small businesses.
     s. 1314, establishing dvop/lver geographic funding thresholds
    The VFW supports the intent of this bill to revisit the funding 
model for Disabled Veterans Outreach Program specialists, or DVOPS, and 
Local Veterans Employment Representatives, or LVERs, but we have 
serious concerns about unintended consequences for the proposed 
guidelines on how Department of Labor would establish minimum state 
thresholds. The VFW believes this bill could swing the pendulum too far 
in favor of large geographic states, diverting too many resources away 
from population centers that may need them. VFW members have 
consistently supported the concept of DVOP and LVER staffing grants, 
rather than the current correlation between unemployed veterans as a 
segment of the population, as reflected in our national resolutions. We 
invite the Committee to further deliberate on this issue by hosting a 
roundtable discussion with stakeholders from the veterans' community 
and state workforce agencies to develop a responsible solution.
          s. 1634, restoring state approving agency authority
    The VFW supports this bill, which would restore state approving 
agency, or SAA, authority to approve and disapprove G.I. Bill-eligible 
programs in every state. Under Public Law 111-377, the SAAs were 
stripped of their authority to approve certain kinds of schools and the 
Secretary of Veterans Affairs was granted additional authority to 
monitor programs. This change has resulted in diverting SAA resources 
to assist VA in financial compliance surveys, rather than program 
quality control. This change to the SAAs' mission has lowered the 
quality of services delivered to veterans. In light of recent reports 
on the state of student-veterans in higher education, the VFW asks the 
Committee to not only pass this bill, but to also revisit the role of 
SAAs by hosting a hearing or roundtable discussion to understand how 
this tremendous resource could be best utilized in the 21st century.
              s. 1798, open burn pit registry act of 2011
    Open-air burn pits were used extensively in Iraq and Afghanistan to 
incinerate everything from medical supplies to automobiles, with 
possible hidden and grave health reactions on the military personnel 
exposed to them. VA, DOD, and other partners in the civilian sector are 
working to give us the tools necessary to properly diagnose and treat 
the conditions associated with open-air burn pits and other exposures 
to environmental hazards. However, much work remains to be done, and 
any delay means less than optimal treatment options now. In addition to 
working to treat these conditions, the Veteran Benefits Administration 
must continue to improve their ability to account for their effects 
when evaluating claims, and DOD could make a greater effort. The VFW 
believes that by allowing servicemembers to go on record with VA at the 
earliest possible time will help VA deploy advances in medicine and 
technology as they become available to treat the serious conditions 
associated with burn pit exposure. We know that the physical effects of 
environmental exposures can go unnoticed for decades, and it can be 
extraordinarily difficult to establish causation to military service 
that has long since passed. This legislation is a positive step 
forward, and we ask the Committee to pass this measure without delay.
                s. 1852, spouses of heroes education act
    The Marine Gunnery Sgt. John D. Fry Scholarship Program offers the 
surviving children of fallen servicemembers the opportunity to earn a 
quality education. This bill would expand Fry Scholarship opportunities 
to surviving spouses and the VFW is proud to support this initiative. 
Military spouses often must sacrifice careers of their own to support 
the service obligations of their loved ones. By extending this kind of 
educational opportunity to a surviving spouse, we demonstrate our 
commitment to serving not only the servicemember, but also the one ones 
they may leave behind.
         s. 1859, tsa/faa agency status for veterans preference
    The VFW supports this bill, which will close a loophole whereby 
Transportation Security Administration, or TSA, and the Federal 
Aviation Administration, or FAA, are not considered ``Federal 
agencies'' for the purposes of preference-eligible redress for 
potential veteran employees. At a time when unemployment of Iraq and 
Afghanistan-era veterans far outpaces unemployment among civilians, we 
have an obligation to ensure that veterans receive quality career 
opportunities. We also believe that the Federal Government should serve 
as the example of a model employer. Both TSA and FAA can stand to 
benefit by closing this loophole by ensuring their potential veteran 
employees receive the hiring preferences we have promised to them.
         s. 2130, veterans conservation corps authorization act
    In 2010, the VFW supported the concept of a Veteran Conservation 
Corps as part of a broader veterans' employment initiative before this 
Committee. We continue to support this concept, which would offer 
opportunities to veterans who do not participate in other Federal 
training programs to work preserving national parks, monuments and 
other infrastructure projects. At a time when veterans have been hit 
disproportionately hard by tough economic times, this is just one more 
step to help veterans get back to work and acquire the kinds of skills 
that will make them competitive in the jobs market.
   s. 2179, s. 2206, s. 2241, veterans' education reform legislation
    The VFW supports each of these bills designed to ensure that 
military and veterans' education programs provide servicemembers and 
veterans with the opportunity to acquire critical job skills in a harsh 
economic climate. To the VFW, we believe each of these bills contain 
strong provisions that could offer the framework for a comprehensive 
veterans' education bill, designed to offer improved consumer 
protections to student-veterans and improved accountability for schools 
participating in military and veterans' education programs, while 
continuing to offer veterans choice in the academic marketplace.
    In S. 2179, the VFW supports the notion that degree-granting 
schools should participate in Title IV. However, we would hope to see 
assurances that religious-based schools that choose not to participate 
in Title IV would have an opportunity to continue to participate in 
G.I. Bill programs. We also support the idea of revisiting the role of 
State Approving Agencies, or SAAs, but believe this concept merits 
further discussion before this Committee to develop a solution that 
best serves the needs of student-veterans.
    In S. 2206, we believe that front-end consumer education on an 
``opt-out'' basis will ensure that all student-veterans have reasonable 
access to educational and vocational counseling resources available to 
them under Chapter 36 or title 38. We also believe that codifying a 
formal complaint process for student-veterans will ensure 
accountability of the benefit within VA and offer clear redress 
mechanisms for student-veterans who believe they have been victims of 
fraud, waste or abuse.
    In S. 2241, we support improving data collection from schools 
participating in G.I. Bill and military education programs to ensure 
that student-veterans have relevant information from which to make an 
educational choice and to demonstrate student-veteran success in higher 
education. We have heard anecdotally from VA that student-veterans 
remain enrolled at higher rates than their civilian counterparts, but 
we have little additional data to back this up. Chairman Murray's bill 
also lifts the cap on Chapter 3697A education counseling, which the VFW 
believes has long tied VA's hands in its ability to deliver quality 
educational counseling.
    The VFW applauds Chairman Murray, Senator Webb and Senator 
Lautenberg for each taking the issue of student-veteran success very 
seriously. We are pleased that each of these bills offers unique 
solutions to the problem and that this Committee has decided to host a 
hearing on this critical issue. We believe that given the wealth of 
ideas, that the Committee should build a comprehensive piece of 
legislation that includes ideas from each of these bills. The VFW has 
consistently taken the lead in building consensus among higher 
education stakeholders and the veterans' community on this issue, and 
we look forward to working with this Committee to develop a package 
that meets the needs of today's student-veterans.
                 s. 2246, tap modernization act of 2012
    As the debate on whether or not to mandate participation in the 
military's transition assistance program (TAP) unfolded, the VFW 
learned that many servicemembers on active duty failed to understand 
why they would need to participate in the program. However, once 
servicemembers left the military, many wondered why they never received 
comprehensive training and information on how to access their earned 
benefits and successfully transition from military to civilian life. 
Unfortunately, a veteran has no way to reasonably anticipate all of the 
challenges he or she may face once out of the military, which is why 
the VFW believes TAP resources must be available to veterans after they 
have transitioned off of active duty. The VFW supports H.R. 4051 and 
its pilot program to offer off-base TAP to communities where veterans 
have been hit disproportionately hard by difficult economic times.
   s. 2299, servicemembers rights enforcement improvement act of 2012
    The VFW fully supports this bill, which will strengthen USERRA and 
SCRA protections for servicemembers and their families. Recent reports 
have shown that some banks choose to shirk their legal obligations 
under SCRA, foreclosing on military families, while servicemembers are 
deployed overseas. S. 2299 closes this loophole once and for all. In 
the years since 9/11, we have also seen a precipitous rise in USERRA 
complaints. Unfortunately, many veterans simply move on from their 
complaints, rather than waiting for Department of Justice to take 
action. This bill streamlines the process and still allows DOJ to take 
action without the pursuit of the veteran. This will give USERRA teeth 
and demonstrate to employers that we take this law seriously.
         s. 3179, servicemember housing protection act of 2012
    The VFW proudly supports this bill. In a time of war, and when a 
large portion of our fighting force is being drawn from the National 
Guard and Reserve, every protection must be taken to ensure their lives 
are not further complicated by financial worries while they are 
deployed and once they return home. This bill offers more protection 
and piece-of-mind for active duty personnel and their loved ones who 
may need financial protection by making it easier for personnel to 
claim deployment-related financial and credit protections, extending 
foreclosure protections to surviving spouses, and allowing 
servicemembers to terminate lease agreements without penalty when on-
base housing becomes available.
         s. 3233, servicemembers access to justice act of 2012
    The VFW supports this bill, which not only seeks to ensure that 
companies cannot force veterans to waive their reemployment rights as a 
condition of employment, but also streamlines processes through which 
veterans can take action against non-compliant employers. This bill 
also improves outreach and education to companies that do business with 
the Federal Government and to small businesses, informing them of their 
obligations under USERRA.
        s. 3236, servicemember employment protection act of 2012
    This bill affirms the VFW's long-held belief that USERRA precludes 
an employer from forcing servicemembers to sign into binding 
arbitration agreements, basically forfeiting their employment and 
reemployment rights. This bill will allow servicemembers to continue to 
pursue redress through the courts, while preserving the option to enter 
into an arbitration agreement after a dispute arises. This bill also 
ensures that treatment for service-connected medical conditions will be 
treated as ``service in the uniformed services'' for the purposes of 
USERRA, ensuring that employers cannot take negative action against an 
employee seeking treatment for the wounds of war. This bill also 
ensures that businesses that willingly violate USERRA will be barred 
from doing business with the Federal Government. The VFW is proud to 
support this bill.
                                 ______
                                 
Prepared Statement of Special Counsel Carolyn N. Lerner, United States 
                       Office of Special Counsel
    Chairman Murray, Ranking Member Burr, and Members of the Committee: 
Thank you for the opportunity to submit written testimony on behalf of 
the Office of Special Counsel (OSC) in connection with today's 
legislative hearing. OSC protects the merit system for over 2 million 
civilian employees in the Federal Government. Congress has tasked OSC 
with four distinct mission areas: First, we protect Federal employees 
from prohibited personnel practices, especially retaliation for whistle 
blowing. Second, we provide a safe and secure channel for employees to 
disclose waste, fraud, abuse, and threats to public health or safety. 
Third, we enforce the Hatch Act, which keeps the Federal workplace free 
from political coercion and improper partisan politics. Finally, we are 
the primary enforcement agency for Federal sector claims under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA).
    USERRA protects the civilian employment and reemployment rights of 
those who serve the United States in the Armed Forces, including the 
National Guard and Reserves. OSC plays a critical role in enforcing 
USERRA, and helps to fulfill Congress' goal that the Federal Government 
serve as a ``model employer'' under the law. This is especially 
important because the Federal Government is the largest civilian 
employer of National Guard and Reserve members. In August 20 II, OSC 
took on new and increased responsibilities for USERRA enforcement. OSC 
is currently investigating over half of all Federal sector USERRA 
claims, in addition to receiving referrals from the Department of Labor 
for possible prosecution of violations.
                                s. 2299
    OSC strongly supports S. 2299, the ``Servicemembers Rights 
Enforcement Improvement Act of 2012.'' Section 5 of S. 2299 clarifies 
that OSC has the authority to subpoena the attendance and testimony of 
witnesses, as well as the production of documents from Federal 
employees and agencies. This provision is necessary to assist this 
office in determining whether a servicemember is entitled to relief. 
Section 5 also sets forth a streamlined process for enforcement of such 
subpoenas against Federal executive agencies or their employees by 
order of the Merit Systems Protection Board (MSPB). Explicit authority 
under Title 38 to issue subpoenas to Federal employees and agencies 
will assist OSC in protecting rights of servicemembers.
                                s. 3233
    OSC also supports S. 3233, the ``Servicemembers Access to Justice 
Act of 2012.'' Section 4 of S. 3233 would clarify and expand the types 
of damages the MSPB may order Federal agencies to provide in successful 
USERRA claims. This provision will help ensure that servicemembers are 
fairly compensated for violations by Federal agencies and provide a 
stronger incentive for agencies to comply with the law and settle 
meritorious claims. In addition, Section 7 requires Federal agencies to 
provide notice to contractors of USERRA obligations, which will help 
prevent USERRA violations by government contractors.
                                 ______
                                 
   Prepared Statement of S. Kay Lewis, Assistant Vice President for 
Student Life, Director of Financial Aid and Scholarships, University of 
                               Washington
    Chairman Murray, Ranking Member Burr, and Members of the Committee 
on Veterans' Affairs: Thank you for the opportunity to provide written 
testimony on the array of education legislation pending before the 
Committee impacting student veterans. The University of Washington (UW) 
supports Congress's efforts to provide consumer protection to our 
Nation's student veterans--these students are a significantly growing 
population on all three of UW's campuses. In August 2011, UW Seattle 
was proud to have 934 veterans and their dependents actively enrolled 
as Huskies; we believe that many of the provisions in these bills will 
help strengthen the oversight of veterans' benefits programs and help 
student veterans make wise and informed choices.
    Collectively, UW, the higher education community, and this 
Committee all understand that there are too many institutions of higher 
education offering low-quality academic programs that are not truly 
intended to educate, do not lead to a degree or certificate, and do not 
have the student's employability after graduation as their ultimate 
goal; rather, these programs exist for the sole purpose of making 
money. The UW applauds the Committee in continuing to address this 
issue and exert further oversight and protections into these programs. 
It is the right thing to do for the stability of these education 
benefits and for the protection of veteran students.
    Generally, the legislative provisions to require that the Secretary 
of Veterans' Affairs provide pre-counseling to student veterans on 
their individual eligibility for veterans' benefits is an important 
addition to the mandated services veterans will receive when leaving 
service. We believe that all students, whether veterans or civilians, 
should make informed choices about pursuing post-secondary education. 
Although UW's veterans' certification professionals can answer many 
questions about eligibility, there are significant complexities in 
determining benefits (especially pre-enrollment) and important 
decisions students must make to maximize the use of their benefits. At 
UW, we welcome the assistance this would give to student veterans as 
they face crucial decisions about their enrollment. Like the Committee, 
we believe that veterans need to be well-informed about their tuition 
benefits to be able to make choices and decisions which will best 
address their educational needs.
    We are concerned, however, that the proposals put forth do not 
distinguish between institutions of higher education that provide a 
quality education and those institutions that do not provide a quality 
education. Consideration of performance based regulations presents the 
opportunity for reducing administrative burden for institutions while 
simultaneously improving outcomes. Performance measures such as low 
average debt at graduation, low default rates, and exceptional 
graduation or retention rate levels would indicate schools are good 
stewards of tuition assistance and do not need additional oversight. 
For example, the national average for undergraduate debt is $25,000. 
The UW average is $20,316, well below the national average. The UW 2010 
cohort default rate is 2.3 percent. In the last reported year, the 
graduation rate is 80 percent while our retention rate is 93 percent.
    Allowing a performance based system would allow high performance 
schools, similar to UW, to continue to focus efforts on addressing the 
needs of veterans and helping them make informed choices without adding 
extra reporting burdens on the institution.
    Additionally, schools should not be required to report duplicative 
or similar data because much of the information the legislation 
requires is currently available from the Department of Education. 
Ultimately, it is our hope that legislation under consideration could 
be written to exempt or reduce the administrative oversight, reporting 
requirements, and some of the consumer disclosure measures for high 
performance schools. ``One size fits all'' regulations are typically 
ineffective or inefficient means to help our student veterans and we 
would rather concentrate a school's efforts on educating and counseling 
our student veterans rather than using that time and energy to comply 
with additional, unnecessary regulatory burdens.
    We encourage modifications to the proposals, to the extent 
possible, that would use current Department of Education definitions 
for inducement rules, program eligibility, and gainful employment 
provisions as a consistent base for legislation. We also hope that the 
data provided by institutions of higher education as already required 
by law in national data clearinghouses such as the National Center for 
Education Statistics (NCES), Integrated Post-Secondary Data Systems 
(IPEDS), National Student Loan Data System (NSLDS), and other existing 
Federal data reports be used to populate many of the measurements 
required in these proposals before requiring additional data from 
schools. Although the Secretary of Veterans Affairs will be required to 
provide much of this information to student veterans, the institutions 
will need to provide supplementary information to meet all proposed 
requirements and the existing data reported by institutions is already 
extensive and arduous to compile in order to meet Department of 
Education reporting requirements.
    An additional measurement, which may be considered, is altering the 
90/10 revenue test rules. The rule was first enacted to prevent 
institutions from being established solely to profit from the payments 
received by Federal aid recipients. Under current law, for profit 
colleges are expected to derive at least 10 percent of a program's 
revenue from institutional revenue or non-Title IV Federal student aid. 
Further under this rule, veteran's tuition assistance is calculated as 
institutional revenue. Congress may wish to consider amending the 
formula so for profit schools are required to obtain a higher ratio of 
revenue from non-Federal sources, as well as exclude veterans' benefits 
from institutional revenue. Schools that do not meet the appropriate 
revenue test for the appropriate time periods would not be considered 
eligible for veterans' benefit payments. This addition to veterans' 
benefit rules would be an important safeguard, dealing with the overall 
eligibility of institutions allowed in the program.
    Chairman Murray, the University of Washington is proud of our 
student veterans and the education, skills, and services that we 
provide them so that they may make informed choices about their post-
secondary experience. We are fully aware of the urgency of the problems 
facing our veterans as they exit military service and return to our 
communities, and we believe education is a key element to a successful 
transition. Further, the UW believes we need to protect veterans from 
nefarious parties, which is why UW presents good and informed choices 
to our student veterans. A veteran's service to our country is a debt 
that can never be fully repaid, which is why we work so hard to ensure 
they have the best information to enter school and receive adequate 
preparation in school for the next chapter of their lives.
    Again, thank you for considering these comments and for your 
efforts to protect our student veterans.
                                 ______
                                 
    Prepared Statement of Ismael Ortiz, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor
    Chairman Murray, Ranking Member Burr, and other Members of the 
Committee, Thank you for the opportunity to provide the views of the 
Department of Labor (DOL or Department) on pending legislation aimed at 
helping Veterans and transitioning Servicemembers succeed in the 
civilian workforce.
    The Department looks forward to working with the Committee to 
ensure that the men and women who serve this country have the 
employment support, assistance and opportunities they deserve to 
succeed in the civilian workforce.
    While this hearing is focused on numerous bills before the 
Committee, I will limit my remarks to those pieces of legislation that 
have a direct impact on the programs administered by the Department of 
Labor, including S. 1314, S. 2246, S. 2299, S. 3233 and S. 3236. DOL 
respectfully defers to the Department of Veterans' Affairs (VA), 
Department of Education (ED), Department of Defense (DOD), Department 
of Justice (DOJ), Department of Homeland Security (DHS) and Department 
of Interior (Interior) on the other bills listed.
 s. 1314, a bill to amend title 38, united states code, to require the 
 secretary of labor to establish minimum funding levels for states for 
  the support of disabled veterans' outreach program specialists and 
               local veterans' employment representatives
    S. 1314 would require the Secretary of Labor to establish minimum 
funding levels for States for the support of disabled Veterans' 
outreach program specialists (DVOP) and local Veterans' employment 
representatives (LVER). The bill would require that the minimum funding 
levels ensure that each State receives sufficient funding to support at 
least one DVOP specialist and one LVER per 5,000 square miles of 
service delivery area within States. Counties with less than one person 
per square mile may be excluded from consideration. Currently only Guam 
and the U.S. Virgin Islands receive funding in support of just one DVOP 
specialist or LVER staff.
    The current funding formula was authorized in the Jobs for Veterans 
Act of 2002 (JVA, Public Law 107-288). The formula allocates the JVSG 
appropriation to the states as a ratio of the number of Veterans 
looking for work in that state compared to the total number of Veterans 
looking for work in the Nation. Pursuant to Section 4102A of the JVA, 
the Department published rules (20 CFR 1001.152) establishing minimum 
funding and hold-harmless requirements. This regulation established a 
hold-harmless rate of 90 percent of the prior year's funding level and 
a minimum funding level such that, in any year, no State receives less 
than 0.28 percent (.0028) of the previous year's total funding for all 
States.
    The Department shares the Committee's concerns and would like to 
work with the Committee regarding the sufficiency of service in rural 
areas, which may include opportunities to provide additional access 
points for Veterans by addressing alternative work arrangements and an 
expanded use of technology to meet the intent of the bill to ensure 
access in remote areas, minimum levels of capacity, and uniform quality 
of service. Veterans living in rural areas can already utilize DOL's 
available suite of electronic tools such as mySkills myFuture and My 
Next Move for Veterans.
    This bill would also require the Secretary to report on the effect 
of this Title 38 amendment on Veterans who reside in ``highly rural'' 
areas, defined as one or more counties having a population of less than 
seven persons (not Veterans) per square mile. The Department is 
concerned that the collection of such data and the requirement to study 
or visit each such area would be labor intensive and the cost may not 
be justified. The Department would like the opportunity to explore 
alternate ways to ensure that services can be delivered to rural 
populations and how those improvements can be funded.
               s. 2246, ``tap modernization act of 2012''
    S. 2246, the ``TAP Modernization Act of 2012,'' would require the 
Secretary of Labor to provide the Transition Assistance Program (TAP) 
under title 10, U.S.C., section 1144 (10 U.S.C. 1144) ``to eligible 
individuals at locations other than military installations in not less 
than three and not more than five States selected by the Secretary'' 
during the three year period beginning on the date of the enactment of 
this bill.
    Unlike the TAP DOL Employment Workshops currently provided to 
transitioning Servicemembers and their spouses under 10 U.S.C., 1144, 
an ``eligible individual'' for this program would be a Veteran or the 
spouse of a Veteran. The TAP DOL Employment Workshop is designed 
specifically for transitioning Servicemembers and their spouses and as 
such, the curriculum is not appropriate for all Veterans. However, One-
Stop Career Centers typically provide specific workshops on resume 
writing, interviewing, and how to conduct a job search. Thus, the 
relevant components of the DOL Employment Workshop are already 
available to all Veterans.
    If the intent of the legislation is to increase outreach to 
unemployed Veterans, DOL is already involved in Veteran-targeted 
outreach initiatives. These include the Gold Card initiative, offered 
through the One-Stop Career Centers, which provides up to 6 months of 
case management and intensive services to Post-9/11 era Veterans, and 
an initiative with the Army to develop and test strategies to provide 
enhanced outreach and employment assistance to recently separated Army 
Veterans who are collecting unemployment compensation benefits.
    Since employment workshops are already provided for job seekers at 
One-Stop Career Centers, and DOL is engaged in a number of initiatives 
specifically focused on unemployed Veterans, this proposed legislation 
appears to be duplicative. We look forward to working with the 
Subcommittee to identify any needed program improvements.
 s. 2299, ``servicemembers rights enforcement improvement act of 2012''
    S. 2299, the ``Servicemembers Rights Enforcement Improvement Act of 
2012,'' would amend the Uniformed Services Employment and Reemployment 
Rights Act of 1994 (USERRA), 38 U.S.C. Sec. Sec. 4301-4335 and the 
Servicemembers Civil Relief Act (SCRA) to enhance enforcement and 
strengthen protections for Servicemembers and their families. In 
general, DOL supports the intent of this legislation and looks forward 
to working with the Committee to further enhance USERRA protections for 
our Servicemembers, but defers to DOJ on sections of the bill that fall 
outside our purview.
    S. 2299 would give the Attorney General authority to initiate his 
or her own investigations and file suit in Federal District Court on 
behalf of the United States in situations in which the Attorney General 
reasonably believes that a State or private employer has engaged in a 
pattern or practice of violating USERRA. S. 2299 also confers civil 
investigative demand authority upon DOJ in such cases in which it has 
initiated investigations, or needs additional information to assess a 
complaint for litigation, in order to compel production of documentary 
evidence and unsworn answers to written questions from the custodian of 
such documentary evidence
    Under current law, USERRA is ``complaint driven,'' meaning the 
Federal Government can only investigate a suspected USERRA violation 
after a claimant has filed a formal complaint with the Veterans' 
Employment and Training Service (VETS) at DOL. Consequently, DOJ can 
only review the case after VETS has completed the investigation and the 
claimant has requested that his or her case be referred to DOJ. S. 2299 
creates limited authority for DOJ to initiate its own investigation and 
litigation without a formal complaint from a USERRA claimant in those 
situations in which it believes a State or private employer has engaged 
in a pattern or practice of violation of Servicemembers' USERRA rights. 
The Department looks forward to working with the Committee on these 
USERRA provisions.
    Last, DOL also supports the language in S. 2299 which confers 
subpoena authority upon the Merit Systems Protection Board (MSPB) to 
enforce subpoenas issued by the U.S. Office of Special Counsel (OSC) in 
pursuing its enforcement duties under USERRA, to compel attendance and 
testimony of Federal employees and production of documents from those 
employees as well as from Federal agencies.
       s. 3233, ``servicemembers access to justice act of 2012''
    S. 3233, the ``Servicemembers Access to Justice Act of 2012,'' 
contains a number of provisions intended to enhance protections offered 
under the Uniformed Services Employment and Reemployment Rights Act of 
1994 (USERRA), 38 U.S.C. Sec. Sec. 4301-4335, including the following:

    <bullet> Waiver of State sovereign immunity under the 11th 
Amendment of the U.S. Constitution;
    <bullet> Invalidation of any agreements to arbitrate employment 
disputes as they may affect USERRA rights generally, except in the case 
of collective bargaining agreements (with no retroactivity provision);
    <bullet> Enhanced remedies under USERRA, providing for the greater 
of liquidated damages or $10,000 for willful violations of the statute, 
shifting the burden of proof to employers to show that the adverse 
action was not intentional (applying to Federal and all non-Federal 
employers);
    <bullet> Court-awarded punitive damages for willful or recklessly 
negligent violations for State employers or private employers with more 
than 25 employees;
    <bullet> Right to a Jury trial for USERRA claimants;
    <bullet> Mandatory court-awarded attorney fees--removing the 
court's discretion whether or not to award attorney fees;
    <bullet> Mandatory equitable relief--likewise removing the court's 
discretion to award equitable relief;
    <bullet> Federal agencies must provide notice of USERRA obligations 
to contractors;
    <bullet> Clarification that USERRA protections extend to both 
``procedural'' as well as ``substantive'' rights or benefits; and
    <bullet> Requiring a study by the Comptroller General of the United 
States to evaluate the effectiveness of Federal USERRA education and 
outreach programs to assess current practices and procedures, identify 
best practices, determine if the Small Business Administration (SBA) 
and the National Committee for Employer Support of the Guard and 
Reserve (ESGR) should collaborate to develop an employer education 
program, and to determine the effect on recruitment into the Reserve 
Components, resulting from employers' failures to comply with USERRA.

    My statement today will focus on several important provisions in 
S. 3233, but I also hope that the Department will have the opportunity 
to provide technical assistance to the Committee on these and other 
provisions in the bill.
    Section 2 of the proposal would limit the ability of State 
employers to undermine enforcement of their employees' USERRA rights by 
asserting their immunity from individual suits under the 11th Amendment 
to the U.S. Constitution. The Attorney General has the authority, and 
has exercised its authority, to bring actions against States in Federal 
District Court on behalf of individuals in the name of the United 
States. Individual State employees, however, represented by private 
counsel or by themselves are unable to avail themselves of USERRA 
protection unless their State employers choose to waive their 11th 
Amendment sovereign immunity. The Department strongly supports this 
provision which would remove a significant impediment to individuals 
who seek to hold public State employers accountable for meeting their 
USERRA obligations.
    USERRA is intended to ensure that Servicemembers' and Veterans' 
employment and reemployment rights are protected to the greatest extent 
possible, while avoiding placing an unreasonable burden on employers. 
As a result, the Department has serious concerns with the potential 
impact of the language in Sections 4, 5 and 6 of the legislation 
involving punitive damages, mandatory award of attorney fees, and 
mandatory equitable relief on the Department's efforts to effectively 
investigate and resolve USERRA disputes. However, the Department 
supports efforts to strengthen USERRA's enforcement remedies and 
welcomes the opportunity to work with the Committee to ensure that 
those remedies: encourage compliance with this important law; provide 
meaningful and prompt relief; can be flexibly applied by the courts or 
the Merit Systems Protection Board so that liabilities are 
proportionate to statutory responsibilities; and do not create 
disincentives to hiring Servicemembers.
    Section 7 of the legislation would require Federal agencies to 
notify their contractors of their USERRA obligations. Ensuring that 
Federal contractors are fully aware of their obligations under the 
statute only serves to strengthen Servicemembers' rights under the law, 
and does not impose a substantial burden on Federal agencies or 
contractors in discharging their shared responsibilities.
    Finally, Section 9 of S. 3233 directs the Comptroller General to 
conduct a study on the Federal Government's USERRA education and 
outreach programs and activities. Over the years, the Government 
Accountability Office (GAO) has conducted a number of studies involving 
USERRA, and has provided many important and useful recommendations for 
improving the Department's administration of the statute. Should this 
provision be enacted into law, the Department will again look forward 
to helping GAO meet its statutory mandate.
      s. 3236, ``servicemember employment protection act of 2012''
    S. 3236, the ``Servicemember Employment Protection Act of 2012,'' 
also contains a number of provisions intended to enhance USERRA 
protections, and the Department looks forward to working with the 
Committee on this important legislation.
    Section 3 of S. 3236 would extend full USERRA coverage and 
protections to Servicemembers and Veterans leaving civilian employment 
to undergo treatment for service-connected disorders incurred in or 
permanently aggravated by periods of active military service. USERRA 
generally provides employment and reemployment rights to individuals on 
the basis of their past, present, or future military service, status, 
or obligations. S. 3236 seeks to extend those protections to 
individuals who seek or obtain treatment for service-incurred medical 
disorders that were either incurred in or aggravated by periods of 
covered military service.
    While DOL supports the intent of Section 3, the Department has 
technical concerns about its interaction with USERRA's reemployment 
eligibility provisions, as well as with the Family and Medical Leave 
Act. In addition, the Department recommends including a definition or 
standard to determine what medical disorders are or are not incurred in 
military service as well as a timeframe by which service-incurred 
disorders should be afforded USERRA protection. Such a definition 
should specifically include categories of military mental health 
conditions such as PTSD and related afflictions.
    Section 3, as drafted, would also have a significant impact on 
relationships between employees with past, present, or future military 
obligations and their current and prospective employers. We look 
forward to working with the Subcommittee to provide any requested 
technical assistance and to better understand the intent of the 
legislation, to help ensure that it does not unintentionally harm 
Veterans' employment relationships.
    Finally, Section 4 of the legislation would provide for the 
suspension, termination, or debarment of any Federal contractors who 
are shown to have repeatedly violated USERRA. Such a provision would 
provide additional assurances that Servicemembers' and Veterans' 
employment rights are protected.
    The Department looks forward to working with the Committee to 
ensure that these and other provisions of the bill address the 
Congress' intent in the most efficient and effective way possible.
s. 3235, a bill to amend title 38, united states code, to require as a 
condition under on the receipt by a state of certain funds for veterans 
employment and training, that the state ensures that training received 
   by a veteran while on active duty is taken into consideration in 
   granting certain state certifications or licenses, and for other 
                               purposes.
    S. 3235 would require the Secretary of Labor to establish, as a 
condition of a grant or contract to carry out DVOP or LVER services, 
that when the State approves or denies an application from a veteran to 
obtain: (1) a license as State-tested nursing assistant or a certified 
nursing assistant; (2) a commercial driver's license; (3) an emergency 
medical technician license EMT-B or EMT-1; and (4) an emergency medical 
technician-paramedic license, that the State takes into consideration 
any training received or experience gained by the veteran while serving 
on active duty in the Armed Forces.
    The State must disclose to the Secretary in writing the following: 
(1) the criteria applicants must satisfy to receive a license; (2) a 
description of the standard practices of the State for evaluating 
training received by veterans while serving on active duty in the Armed 
Forces and evaluating the documented experience of such veterans during 
service; and (3) identification of area in which training and 
experience described fail to meet the criteria.
    The Secretary of Labor must share the information received from the 
State with the Secretary of Defense to help the Department of Defense 
to improve training for military occupational specialties described 
above.
    The Department supports the intent of this legislation and looks 
forward to working with the Committee to ensure that our Veterans and 
transitioning Servicemembers have every opportunity available to 
leverage their skills and training in pursuit of civilian careers. The 
Department of Labor recognizes that a more focused effort on 
credentialing can help lay the human capital foundation necessary to 
support veterans' transition to civilian employment and meet the needs 
of growing sectors of the civilian economy. As we invest in skills 
development, we help job seekers, including recently returning 
veterans, acquire the measurable and specific skills they need to move 
along directed career pathways, and give employers access to the 
skilled workers they need to compete globally.
    This legislation proposes leveraging Federal funding to incentivize 
states to facilitate veterans qualifying for certain licenses and 
credentials. The Department notes that states likely would require 
assistance in obtaining information on the skills possessed by veterans 
separating from various military occupations in order to be able 
effectively evaluate the equivalence of that training and experience 
against existing certification or licensing requirements. In addition, 
the Department would need to evaluate the adequacy of each state's 
effort in this area.
                               conclusion
    Every day, we are reminded of the tremendous sacrifices made by our 
service men and women, and by their families. One way that we can honor 
those sacrifices is by providing them with the best possible services 
and programs our Nation has to offer. Secretary Solis and VETS strongly 
believe that Veterans deserve not only the chance to find good jobs, 
but the certainty that they can retain their civilian employment when 
they must leave it to serve the Nation.

    I again thank the Committee for your commitment to our Nation's 
Veterans and for the opportunity to submit this statement for the 
record.
                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to present our views on the broad array of legislation 
being considered by this Committee. We support your efforts as you 
address these issues that may affect veterans of previous eras, new 
veterans, and future veterans.
                                s. 1184
    S. 1184 would amend title 38, United States Code, to increase the 
penalties for misrepresentation of a business as a small business owned 
and controlled by a veteran or owned and controlled by a service-
disabled veteran. PVA supports this legislation. Although regulations 
currently prohibit unqualified businesses from participating in 
government contracts that are specifically reserved for veteran owned, 
or service-disabled veteran owned small businesses, this has not 
discouraged businesses from fraudulently claiming that status. In 
Congressional hearings on this issue, it has been reported that often 
upon disclosure of this Federal crime, those same businesses continue 
to pursue and receive government contracts intended for veterans. The 
penalty should be increased to a monetary amount, including prison time 
for repeat offenders, that sends the message that will discourage the 
falsifying of the status of veteran owned small business or service-
disabled veteran owned small business.
     s. 1314, ``enhancing employment services for rural veterans''
    PVA supports S. 1314, which would amend title 38, Unites States 
Code, to require the Secretary of Labor to establish minimum funding 
levels for States for support of Disabled Veterans Outreach Program 
Specialists (DVOPS) and the Local Veterans Employment Representatives 
(LVER) . The current funding formula for the DVOPS and LVER positions 
is based on population. This method does not take into consideration 
the geographic size of the service area. Thus, states such as Montana 
which have the lowest number of employment representatives with the 
largest land mass will not have adequate employment representation. 
This bill would make minor adjustments in the distribution of the DVOPS 
and LVERS to better serve the rural veterans.
    Our concern for rural veterans and urban veterans receiving the 
employment direction and support needed has led us, as well as other 
VSOs, to the conclusion that their employment needs would be better 
served by moving the Veterans Employment and Training Service (VETS) to 
the Department of Veterans Affairs. By placing VETS in the VA we feel 
this would increase the attention and oversight that is needed for 
better results from that program.
                                s. 1634
    S. 1634 would amend title 38, United States Code, to improve the 
approval and disapproval of programs of education for the purpose of 
educational benefits. PVA supports this legislation. Recent legislative 
changes within the Post-9/11 GI Bill redefined some functions of the 
State Approving Agencies (SAA). This legislation would redirect some 
required functions of the SAAs to allow them to use their expertise to 
insure the programs available to veterans using the GI Bill would be 
beneficial and purposeful for veterans.
          s. 1798, the ``open burn pit registry act of 2011''
    PVA supports S. 1798, the ``Open Burn Pit Registry Act of 2011.'' 
We believe this registry is necessary and the responsibility of the VA. 
In past military operations some participants within an operation have 
been exposed to chemicals or fumes that have afterwards been connected 
to various illnesses, some being fatal. Many years later this has 
created a difficult task for the VA to attempt to identify, notify, 
monitor, and treat and compensate those veterans. This legislation will 
help the VA inform and monitor veterans that have been exposed to toxic 
environmental conditions that are recognized as harmful or toxic 
conditions that are suspected to be harmful but not yet medically 
proven harmful. Upon passage of this legislation, Congress must conduct 
oversight of the VA to insure that the veterans are being identified, 
informed, and receiving appropriate treatment if necessary. Delays in 
implementation of this registry should not be allowed.
            s. 1852, the ``spouses of heroes education act''
    PVA supports S. 1852, the ``Spouses of Heroes Education Act.'' This 
legislation would allow the spouses of a military veteran that died 
while in the line of duty to use that deceased veterans Post-9/11 GI 
Bill. Making this educational benefit available for the remaining 
spouse will allow that spouse to improve their preparations for 
employment as they become the sole financial provider for the family of 
the deceased servicemember.
                                s. 1859
    PVA supports S. 1859. This requires the Federal Aviation 
Administration and the Transportation Security Administration to 
recognize the intentions of Congress with respect to the Federal 
Government's policies of hiring and rehiring those that have served 
their country in the military service. Any reprieve from the Federal 
employment requirements may have been necessary during the period of 
reorganization and formation of Federal transportation agencies 
immediate following the events of 9/11. A decade later, it is 
unfortunate these programs claim immunity from Federal hiring 
requirements with regard to veterans. This legislation will correct 
this oversight.
     s. 2130, the ``veterans conservation corps authorization act''
    PVA supports S. 2130, the Veterans Conservation Corps Authorization 
Act. This program would benefit many veterans that have been recently 
discharged from military service. Those new veterans are often younger 
veterans that have not acquired skills in the military that can be 
easily transferred to the civilian world. Those same veterans may have 
decided not to commit to a four year college program. The younger 
veterans that perhaps joined the military after high school have very 
limited knowledge of opportunities or career options that exist in the 
civilian world. This program would offer a one or two year period for 
the veteran to earn money to support themselves while learning of 
options for their future. This type of program may not benefit a 
majority of new veterans, ``one size cannot fit all.'' But for those 
that find themselves without direction upon discharge this program can 
be invaluable.
  s. 2179, the ``military and veterans education reform act of 2012''
    PVA supports S. 2179, the ``Military and Veterans Education Reform 
Act of 2012.'' This legislation will continue in the process of making 
necessary adjustments and corrections in the landmark educational 
benefit program recently passed by Congress, the Post-9/11 GI Bill.
    This legislation also requires the State Approving Agencies (SAA) 
to conduct education and outreach activities to assist participants in 
making well-informed choices about their education and successful 
transition into an educational environment. This bill also requires the 
SAAs to be more diligent in their review and approval of institutions 
offering programs to veterans.
          s. 2206, the ``gi educational freedom act of 2012''
    PVA supports S. 2206, the GI Education Freedom Act of 2012. This 
legislation requires any individual eligible for veterans' educational 
assistance through the Department of Veterans Affairs to be provided 
educational and vocational counseling services before the receipt of 
such educational assistance, unless the individual specifically 
declines such counseling. This informational counseling will help 
veterans better understand the programs they are about to enroll in. 
Provides better understanding of the commit and outcome of their time 
and benefit required before they undertake what should be a career 
enriching experience. It also requires the VA to establish a system to 
collect, process, and track complaints submitted by individuals 
enrolled in VA programs of education. VA will make available the 
reports of instances of fraud, waste, and abuse with respect to 
benefits and services provided by educational institutions.
        s. 2241, the ``gi bill consumer awareness act of 2012''
    PVA supports S. 2241, the ``GI Bill Consumer Awareness Act of 
2012.'' This legislation will require the VA to make available to 
veterans, members of the Armed Forces, and spouses and dependents who 
are eligible to receive educational assistance through the Department 
of Veterans Affairs or the Department of Defense, specified information 
about educational institutions and the programs of education available 
to such veterans and members. It also provides additional requirements 
to inform participants for the institutions providing programs of 
education under VA and DOD educational assistance programs, including 
employee training about benefits and assistance available to those 
enrolled in the institutions' programs. The legislation would insure 
that institutions must provide special advising and support services 
for such veterans and military members enrolled.
             s. 2246, the ``tap modernization act of 2012''
    PVA supports S. 2246, the ``TAP Modernization Act of 2012.'' This 
legislation requires the Secretary of Labor to provide the Transition 
Assistance Program (TAP) to veterans and their spouses at locations 
other than military installations in at least three and up to five 
states selected by the Secretary based on the highest rates of veteran 
unemployment. This relocation of the TAP presentation will benefit many 
of the Guard and Reserve Members that have served their tour, sometimes 
multiple tours, and then return to the rural communities where they 
live. Many times this is a great distance from major cities (VA 
Regional Offices) and military installations where TAP may be 
available. Another helpful benefit of this relocation may be for 
members that have been exposed to TAP before returning home and six 
months later find themselves still unemployed. Reluctant to travel a 
long distance to revisit TAP, temporarily relocating TAP will help 
these veterans with their continued job search.
  s. 2299, the ``servicemembers rights enforcement improvement act of 
                                 2012''
    PVA supports S. 2299, the ``Servicemembers Rights Enforcement 
Improvement Act of 2012.'' This legislation will amend the 
Servicemembers Civil Relief Act to improve the enforcement of 
employment and reemployment rights of servicemembers, including members 
of the Guard and Reserve.
      s. 3082, the ``nationalwide network of support for veterans 
                  and military families act of 2012''
    PVA supports the concept of a Veterans Support Network. More unmet 
needs exist today within the veterans' community than in past decades. 
Recognizing this critical shortage most Federal agencies have raised 
their awareness for providing information, employment opportunities, 
small business contracts, and other support functions directed at 
veterans. At this same time many families of the men and women serving 
in the military have unique problems that are not shared by those in 
civilian life. Nonprofits organizations and veterans' service 
organizations have increased their focus on the recent returning 
veterans from the Iraq and Afghanistan era. Although much attention has 
been placed on these veterans, many of them have unmet needs. Unmet 
needs in a local community could vary from community to community, or 
region to region. This program could help in addressing local needs 
since it directs support to community based organizations. If nonprofit 
organizations identify an issue and suggest their solution for the 
issue, this could be an expedient and direct attack of that problem. 
The Veterans Support Network should develop detailed application 
procedures, periodic monitoring procedures, and yearly reviews of the 
organizations receiving funds. Detailed scrutiny should be used to 
insure applicants fulfill their commitment to the veterans they propose 
to serve.
     s. 3179, the ``servicemembers housing protection act of 2012''
    PVA supports S. 3179, the ``Servicemember Housing Protection Act of 
2012.'' This legislation will enhance the protection that is available 
under the Servicemembers Civil Relief Act by offering protection to the 
surviving spouse of a servicemember who has died while in the service. 
This legislation shall provide the same protection to the spouse with 
respect to foreclosure of the property that is provided to the 
servicemenber for a period of 9-months, beginning on the date of such 
death of the servicemember.
     s. 3233, the ``servicemembers access to justice act of 2012''
    PVA supports S. 3233, the ``Servicemembers Access to Justice Act of 
2012.'' This legislation increases the protection available to the 
servicemembers to return to their employment after serving. This 
addresses civilian employment, state employment, and employment with 
the Federal Government. For state government workers it requires states 
to waive their sovereign immunity in cases requiring the enforcement of 
Uniformed Services Employment Rights and Reemployment Act (USERRA) 
rights.
      s. 3236, ``servicemember employment protection act of 2012''
    PVA supports S. 3236, the ``Servicemembers Employment Protection 
Act of 2012.'' This legislation will amend title 38, United States 
Code, to improve the protection and enforcement of employment and 
reemployment rights of members of the uniformed services, including 
members of the Guard and Reserve under the USERRA laws. It also would 
suspend government contractors that have repeated to comply with USERRA 
regulations.

    Chairman Murray, Ranking Member Burr, once again we would like to 
thank you for the opportunity to provide our views on these important 
issues that the Senate Committee on Veterans' Affairs will address in 
the coming months. Many of these issues if passed into law will be a 
tremendous benefit for veterans of today and tomorrow as they make the 
difficult transition from military life to the civilian world.
                                 ______
                                 
  Prepared Statement of Thomas E. Perez, Assistant Attorney General, 
           Civil Rights Division, U.S. Department of Justice
    Madam Chairman Murray, Ranking Member Burr, and Members of the 
Committee, thank you for the opportunity to present the views of the 
Department of Justice on S. 2299, the proposed, ``Servicemembers Rights 
Enforcement Improvement Act.'' The Department welcomes the introduction 
of this legislation, which incorporates a number of the Department's 
proposals to amend and to strengthen enforcement of two important 
statutes that protect the rights of servicemembers and their families--
the Servicemembers Civil Relief Act (SCRA) and the Uniformed Services 
Employment and Reemployment Rights Act (USERRA).
    S. 2299 would amend the SCRA's affidavit requirement, which 
provides that a party seeking foreclosure or other default judgment 
against a servicemember must first file with the court an affidavit 
stating whether or not the servicemember is in military service. 
Section 2 would amend that provision to clarify that such requirement 
includes the obligation to take reasonable steps to determine the 
servicemember's military status, including but not limited to searching 
available Department of Defense records. The amendment would simply 
codify what several courts have already held. The Department of Justice 
supports this provision because it would make clear that the party 
seeking a default judgment has an affirmative obligation to determine 
the servicemember's military status.
    The bill would also amend the SCRA to clarify that the private 
right of action, added to the SCRA by the Veterans Benefits Act of 
2010, applies retroactively to violations occurring before the date of 
enactment of that Act. The Department supports this provision because 
it would strengthen the ability of servicemembers to vindicate their 
rights under the SCRA. The Department has proposed a similar amendment 
to clarify that the Attorney General's authority to enforce the SCRA, 
which was made explicit by the 2010 Act, also applies retroactively. 
Both proposals are consistent with the Department's litigating position 
and with recent decisions of the Fourth Circuit Court of Appeals. 
Accordingly, the Department strongly urges the Committee to revise 
Section 3 to make clear that both the private right of action and the 
Attorney General's authority apply to violations occurring before 
enactment of the Veterans Benefits Act of 2010. By including only the 
private right of action in Section 3, Congress could signal, 
incorrectly, that it did not intend that the Attorney General's 
authority also apply retroactively.
    Further, S. 2299 would amend USERRA to allow the Attorney General, 
acting on behalf of the United States, to serve as a plaintiff in all 
USERRA suits, rather than only in suits filed against State employers. 
The amendment would preserve the right of the aggrieved servicemember 
to intervene in such suits or to bring his or her own suit where the 
Attorney General has declined to file suit. The amendment would require 
that the Attorney General keep the aggrieved servicemember informed of 
the status of the Attorney General's decision and to provide written 
notice of such decision within a specified time period. Importantly, 
Section 4 also would grant independent authority to the Attorney 
General to investigate and file suit to challenge employment policies 
or practices that establish a pattern or practice of violating USERRA. 
The Department strongly supports these changes, which would make USERRA 
operate more like the SCRA and other civil rights laws by allowing the 
United States to always serve as the plaintiff to vindicate the public 
interest in ensuring the statute is enforced. The changes also would 
strengthen significantly the Department's ability to enforce USERRA to 
address a systemic violation (such as a policy prohibiting extended 
absences, including absences for military service) that could adversely 
affect the employment rights of multiple servicemembers.
    Section 6 would amend both the SCRA and USERRA to provide the 
Attorney General with civil investigative demand authority (CID) to 
compel the production of existing documents and unsworn answers to 
written questions from the custodian of such documents. The Department 
strongly supports this amendment. The Department of Labor has subpoena 
power in its investigations under USERRA. The Department of Justice, 
however, has no pre-suit investigative authority under USERRA or the 
SCRA, and therefore must rely on the voluntary cooperation of 
respondents when assessing matters for litigation. If a respondent is 
not cooperative, the Department must undertake a costly effort to try 
to obtain the necessary evidence through alternate routes or forego 
litigation. Providing the Department with CID authority to complement 
the USERRA pattern-or-practice authority proposed in Section 4 is 
critical because pattern-or-practice authority includes the authority 
to initiate an investigation. The Department has existing authority to 
initiate investigations under the SCRA but has no CID authority. 
Section 6, therefore, would strengthen the Department's ability to 
enforce both statutes. The Department notes that the proposed CID 
authority is narrow in scope. In addition, the authority would be 
subject to the same limitations that apply to the Department's 
authority under the False Claims Act. For example, it would require 
high-level approval and would not include the power to compel documents 
protected from disclosure under the Federal Rules of Civil Procedure. 
Section 6 therefore strikes the proper balance between the Department's 
need for greater authority to enforce laws that protect the rights of 
servicemembers on the one hand, and the respect for civil liberties 
concerns on the other.
    Finally, the Department urges the Committee to include in this bill 
a provision that would double the amount of civil penalties available 
under the SCRA. When Congress amended the SCRA with the Veterans 
Benefits Act of 2010 to provide for civil penalties, it used the same 
amounts authorized under the Fair Housing Amendments Act ($55,000 for 
the first violation and $110,000 for any subsequent violation). Those 
amounts, however, have not been adjusted for inflation or for any other 
reason--not even in response to recent abuses in the lending market--
since 1999. Civil penalties can serve as an important tool for 
deterring violations and for remedying violations that do not result in 
large damages awards for victims. Accordingly, the Department, in its 
legislative proposals transmitted to Congress on September 20, 2011, 
proposed amendments to double the amount of civil penalties available 
in litigation under both statutes. Another bill before this Committee, 
S. 486, the proposed ``Protecting Servicemembers from Mortgages Abuses 
Act,'' also would increase the amount of civil penalties under the 
SCRA. The Department strongly urges the Committee to act on this 
proposal.

    The Department appreciates the opportunity to submit its views on 
S. 2299, and stands ready to work with the Committee in moving forward 
this important legislation to strengthen enforcement of laws that 
protect the rights of servicemembers.
      

                                  <all>

</pre></body></html>
